<html>
<title> - THE IMPLEMENTATION OF FARM BILL INTERNATIONAL FOOD ASSISTANCE AND DEVELOPMENT PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
   THE IMPLEMENTATION OF FARM BILL INTERNATIONAL FOOD ASSISTANCE AND
                          DEVELOPMENT PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON LIVESTOCK AND FOREIGN AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2019

                               __________

                           Serial No. 116-26
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                            ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 42-153 PDF             WASHINGTON : 2020                  
 
 
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

           Subcommittee on Livestock and Foreign Agriculture

                    JIM COSTA, California, Chairman

ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina, 
JAHANA HAYES, Connecticut            Ranking Minority Member
TJ COX, California                   GLENN THOMPSON, Pennsylvania
ANGIE CRAIG, Minnesota               SCOTT DesJARLAIS, Tennessee
JOSH HARDER, California              VICKY HARTZLER, Missouri
FILEMON VELA, Texas                  TRENT KELLY, Mississippi
STACEY E. PLASKETT, Virgin Islands   JAMES COMER, Kentucky
SALUD O. CARBAJAL, California        ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota

                Katie Zenk, Subcommittee Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     4
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Marshall, Hon. Roger W., a Representative in Congress from 
  Kansas:
    Submitted letter.............................................    37
    Submitted legislation........................................    38
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    17
Rouzer, Hon. David, a Representative in Congress from North 
  Carolina, opening statement....................................     4

                               Witnesses

Isley, Ken, Administrator, Foreign Agricultural Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     6
    Prepared statement...........................................     7
    Submitted questions..........................................    46
    Supplementary material.......................................    44
Hicks, Trey, Director, Office of Food for Peace, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, D.C.................    10
    Prepared statement...........................................    12
    Submitted questions..........................................    52
    Supplementary material.......................................    45


   THE IMPLEMENTATION OF FARM BILL INTERNATIONAL FOOD ASSISTANCE AND



                          DEVELOPMENT PROGRAMS

                              ----------                              


                       TUESDAY, DECEMBER 10, 2019

                  House of Representatives,
         Subcommittee on Livestock and Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jim 
Costa [Chairman of the Subcommittee] presiding.
    Members present: Representatives Costa, Brindisi, Hayes, 
Cox, Craig, Harder, Plaskett, Panetta, Peterson (ex officio), 
Rouzer, Thompson, Marshall, Bacon, Hagedorn and Conaway (ex 
officio).
    Staff present: Melinda Cep, Malikha Daniels, Isabel Rosa, 
Katie Zenk, Callie McAdams, Jennifer Tiller, Dana Sandman, and 
Jennifer Yezak.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. Good morning, everyone. And I want to thank 
all of you for being here this morning. The Subcommittee on 
Livestock and Foreign Agriculture will now come to order.
    This morning's subject matter is the implementation of the 
farm bill international food assistance and development 
programs, an effort that our country has been engaged in for 
decades, and a program that I believe has--or programs, I 
should say, plural--real merit, and in so many different ways, 
addresses the basic needs of humanitarian assistance around the 
world, and really, as the richest nation in the world, puts 
America in responding to the needs that are so many out there 
and really shows us attempting to put the very best foot 
forward.
    We want to hear from the testimony here this morning from 
our two witnesses on the implementation of last year's 
bipartisan reauthorization of the farm bill as it relates to 
international food assistance and the development programs that 
were part and parcel to that reauthorization.
    Last year 80 million people around the world required food 
assistance that we participated. I suspect the number is 
greater than that. Over 150 million children under the age of 5 
are stunted, it is believed, as a result of malnutrition by 
various international studies.
    More than 11 million people alone who have been displaced 
in Syria and Yemen that are living in refugee camps, we know 
have been suffering for years as a result of that civil war. 
And clearly we and the European Union and others are doing what 
we can, but I suspect more needs to be done to address that. 
Certainly when I have spoken to the King of Jordan and others, 
they talk about the great impact that those refugee camps have 
had.
    According to the United Nations, the risk of hunger and 
malnutrition could increase by up to 20 percent by the middle 
of this century as a result of climate change and increased 
population. And let me give you a little perspective on that. 
About 3 years ago, the planet clicked seven billion people. 
Now, to give you some perspective, over 200 years ago we had 
1.7 billion. In 200 years we have gone from about 1.7 billion 
people to 3 years ago over seven billion people, and it is 
estimated by the middle of this century there will be an 
additional two billion people throughout the world. That is two 
billion more people that need nutrition and need a reliable 
source of nutrition that goes beyond subsistence.
    That is the challenge out there. And obviously as the 
Chairman and Members of this Subcommittee participate, I also 
have the good fortune to be on the Foreign Relations Committee, 
and we look to see how we can mitigate and solve these programs 
through combining of the best of bipartisan leadership that we 
have in our country. And so that bipartisan leadership goes 
back decades. The McGovern-Dole Food for Education obviously 
was by Senator Dole and Senator McGovern that provided progress 
and Food for Peace to build a more prosperous world that 
provides assistance from the American people.
    And when you look about that effort is going back in the 
1980s to today and fast forward, last year we provided almost 
$4 billion in assistance from the United States in a host of 
these different programs; $4 billion. That is significant. In 
the Fiscal Year 2018, the McGovern-Dole Food for Education 
Program reached over four million of the most vulnerable women, 
infants, and children. And Food for Progress provided nearly 
70,000 people to apply improved technologies, and Food for 
Peace, and title II programs served over 35 million 
beneficiaries.
    And to paraphrase a great comment that President Reagan 
indicated, it is, as opposed to providing food which is always 
so necessary, to teach people how to, using a fishing analogy, 
but if you teach people how to grow food then they can be 
subsistent on their own. And that is what these programs 
attempt to do, to enhance our national security, obviously, put 
our best food forward, and that increases global security, 
stability, resiliency, and cooperation.
    Other efforts like the Farmer-to-Farmer Program, the 
Borlaug Program, and the Cochran Fellowship help expand 
technical skills across agricultural value chains in the 
developing world. I have seen that firsthand in India, and it 
really is a program in which the Indians take a great deal of 
pride in and support, and it is has obviously changed India's 
ability to provide food for themselves.
    Through these efforts, we are promoting international 
partnerships that are critical in this day and age, harmonizing 
standards that lead to mutually beneficial trading 
relationships, because when we have the same standard of food 
quality and food safety, obviously we can engage in greater 
trade. Through these efforts we are providing international 
efforts that reflect Congress's bipartisan support.
    We will request from this Administration that these 
programs continue to bring together a diverse set of important 
domestic stakeholders, and these stakeholders are American 
farmers, ranchers, dairymen and -women who provide that food, 
who produce that food. Nobody does it better than the American 
farmer. And in providing that support, we improve livelihoods 
and we build partnerships throughout the breadbasket of 
America, and at the same time we address disasters that occur 
for a combination of reasons around the world.
    It is in that role that this Subcommittee will ensure, and 
we want to hear this morning how these programs, including 
changes from the 2018 Farm Bill, are fully implemented.
    I look forward to hearing from our witnesses today, and I, 
in consultation with the Ranking Member, pursuant to Rule 
XI(e), excuse me, I want to make sure that Members of the 
Subcommittee are aware that other Members of the full Committee 
may join us today.
    [The prepared statement of Mr. Costa follows:]

Prepared Statement of Hon. Jim Costa, a Representative in Congress from 
                               California
    Thank you all for joining us today as we evaluate the 
implementation of farm bill food international assistance and 
development programs.
    Last year, 80 million people around the world required emergency 
food assistance. Over 150 million children under the age of 5 are 
stunted as a result of malnutrition. More than 11 million people in 
Syria and Yemen alone have been displaced due to conflict. And, 
according to the United Nations, the risk of hunger and malnutrition 
could increase by up to 20 percent by 2050 due to climate shocks.
    As the chair of this Subcommittee and a Member of the Foreign 
Affairs Committee, I have the privilege of overseeing how the U.S. is 
working to mitigate and solve these problems through impactful 
leadership around the globe.
    Programs like McGovern-Dole Food for Education, Food for Progress, 
and Food for Peace help build a more prosperous world by providing 
assistance from the American people, and in the cases of many of these 
programs, providing assistance directly from American farmers.
    In Fiscal Year 2018, the McGovern-Dole Food for Education program 
directly reached over four million of the most vulnerable women, 
infants, and children, Food for Progress helped nearly 70,000 people 
apply improved technologies, and the Food for Peace title II program 
served 35 million beneficiaries. With all our efforts included, the 
U.S. spent nearly $4 billion on international food assistance programs 
in 2018.
    These programs also help to enhance our national security by 
increasing global stability, resiliency, and cooperation. Other efforts 
like the Farmer-to-Farmer program and Borlaug and Cochran Fellowships 
help expand technical skills across agricultural value chains in the 
developing world.
    Through these efforts, we are promoting international partnerships 
and harmonizing standards that lead to mutually beneficial trading 
relationships.
    Despite past budget requests from this Administration, these 
programs continue to bring together a diverse set of important domestic 
stakeholders to improve livelihoods, build partnerships, and respond to 
the worst disasters around the world. It is the role of this 
Subcommittee to ensure these programs, including changes from the 2018 
Farm Bill, are fully implemented.

    The Chairman. I will defer to the Ranking Member for his 
comments at this time.
    Mr. Rouzer. Thank you, Mr. Chairman. I will defer to the 
former Chairman.
    The Chairman. And the Ranking Member would like to defer to 
the Ranking Member of the full Committee, former Chairman of 
the House Agriculture Committee, the gentleman from Texas.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Thank you, Jim. David, I appreciate that. 
Thank you, Mr. Chairman. Many thanks to our witnesses for 
taking time to be here today.
    I won't take much time, but I would like to say that we 
worked hard on the provisions of the 2018 Farm Bill that made 
adjustments to our international food assistance and 
agriculture development programs. And as a proud supporter of 
the important work these programs do, I am ready to hear more 
about how implementation is going.
    There is a strong partnership between USDA and USAID to 
carry out these programs, which I am sure we will hear more 
about today. We also have a broad coalition of stakeholders 
both in the United States and internationally, which is 
essential. Still, it is critical and absolutely crucial that 
food assistance and agriculture development efforts focus on 
building resilience, whether it is for disaster, economic 
downturns, or conflicts. Those we are helping are in countries 
around the world in places like Ethiopia, Nicaragua, Jordan, 
and Cambodia. Our efforts must lead to greater capacity for 
them to weather their own challenges that come before them, and 
ultimately reduce hunger, poverty, and the need for U.S. 
intervention.
    With that, I yield back. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman from Texas and I will 
now defer to the Ranking Member of this Committee, Member 
Rouzer, for his opening statement.

  OPENING STATEMENT OF HON. DAVID ROUZER, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Mr. Rouzer. Thank you, Mr. Chairman, and I want to thank 
our witnesses for being here today. I look forward to your 
testimony regarding international food assistance and 
development programs authorized in the farm bill and subsequent 
implementation by both the USDA and USAID.
    Now, this is our first hearing on international food 
assistance and agriculture development in this Congress. The 
food we deliver and development activities we promote are 
critical tools that feed people, build agriculture capacity, 
and foster good will between the United States and our friends 
around the world.
    This hearing today allows us an opportunity to review how 
the changes made in the farm bill have been executed thus far.
    American farmers play an important role in producing the 
crops that are delivered through in-kind food aid. A bag of 
rice, wheat, flour, or any one of dozens of other products 
grown by U.S. farmers are powerful symbols of the productivity 
and generosity of America, but it is not just farmers who are 
involved.
    As we know, in addition to the fine farm families and food 
processors here in the United States, food assistance and 
international agriculture development rely on partnerships 
among USDA, USAID, the shippers and associated transportation 
industries, non-governmental organizations, international 
organizations such as the World Food Programme, host-country 
governments, other donor governments, third-party auditors, and 
American volunteers, among many, many others. This coalition of 
participation and support is what allows American agriculture 
assistance to fulfill such an important need around the world, 
and it is the rich history of U.S. generosity through in-kind 
food aid that makes this coalition possible.
    Food for Peace, an example of this important coalition in 
action, celebrated its 65th anniversary this year. Many other 
programs like Food for Progress, McGovern-Dole, the Bill 
Emerson Humanitarian Trust, and Farmer-to-Farmer have also 
built similar success.
    These programs help those in other countries produce their 
own food, learn more about production agriculture, and in the 
case of McGovern-Dole, encourages school attendance and 
learning by delivering a nutritious meal.
    This is, however, over time these programs lay the 
groundwork for individuals and families in impoverished 
countries to stand on their own two feet.
    In recent years, particularly since 2010, the U.S. has 
provided locally and regionally-procured food and cash-based 
assistance in addition to in-kind food aid. Certainly, these 
are important tools in the toolkit of food aid delivery. There 
are certain circumstances, such as during conflict or where 
local markets are well functioning, where U.S. agriculture 
commodities may not be the best option. But overwhelmingly, 
overwhelmingly, in many cases, U.S. agriculture products are in 
fact the best option.
    It is U.S. farm products covered with an American flag and 
delivered in countries of need that are the true backbone of 
the assistance the United States provides. It is critical that 
American agriculture in-kind assistance remains as the backbone 
for years to come.
    Thank you again to our witnesses for being here today, and 
I look forward to your testimony.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman. And we will now begin 
with our witnesses and the presentation of their testimony.
    The Members who request an opening statement, we have for 
the record they provide their testimony and we will forego so 
there will be ample time for questions.
    I would like to obviously welcome our witnesses. The first 
is Ken Isley, Administrator of Foreign Agricultural Service of 
the United States Department of Agriculture. He was appointed 
March 2018 and he leads the agency staff not only here in 
Washington, but 93 offices around the world that expand trade 
and export opportunities for American agriculture. If he seems 
familiar, it is because he is. He has been around for a while 
and he grew up on his family's farm in Iowa. And so we look 
forward to hearing your comments, and please begin. You know 
the routine here. You have 5 minutes and when the light turns 
yellow you have a minute left, so, please proceed.

        STATEMENT OF KEN ISLEY, ADMINISTRATOR, FOREIGN 
           AGRICULTURAL SERVICE, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Isley. Thank you very much, and good morning Ranking 
Member Conaway, Chairman Costa, and other Members of the 
Subcommittee.
    I am pleased to appear today with my colleague Trey Hicks, 
Director of USAID's Office of Food for Peace. I appreciate the 
opportunity to discuss the implementation of the international 
food assistance and capacity-building programs administered by 
USDA.
    As Administrator of the Foreign Agricultural Service, I am 
proud to represent the dedicated and talented women and men 
from our agency, and I want to thank you for your continued 
support.
    Last December when Congress passed and President Trump 
signed the 2018 Farm Bill, the Department immediately 
prioritized implementation and we hit the ground running. The 
bill includes authorization, and in some cases funding, for 
USDA's agricultural development and capacity-building programs. 
I am pleased to report that we effectively implemented all such 
programs for Fiscal Year 2019, publishing new regulations when 
necessary, and positioning ourselves to seamlessly implement 
programs as funded in Fiscal Year 2020.
    Our reauthorized programs include the Food for Progress 
Program, the McGovern-Dole International Food for Education and 
Child Nutrition Program, and the Local and Regional Food Aid 
Procurement Program. The farm bill also amended two important 
fellowship programs, the Borlaug International Agricultural 
Science and Technology Fellowship Program and the Cochran 
Fellowship Program. Each is being implemented without 
interruption.
    In August we announced Fiscal Year 2019 Food for Progress 
awards of more than $138 million to improve agriculture 
productivity in developing countries, and expand trade projects 
planned for Africa, Asia, and South America are intended to 
reach over 238,000 beneficiaries directly over the next 5 
years.
    Most recently, an updated Food for Progress regulation was 
published to reflect a farm bill required expansion of eligible 
entities to include U.S. public and nonprofit colleges and 
universities.
    From McGovern-Dole, Fiscal Year 2019 awards of $170 million 
were announced this summer to support school feeding programs 
in Cambodia, Guinea-Bissau, Haiti, Malawi, Mauritania, 
Mozambique, Togo, and Uzbekistan. These projects will provide 
school meals and nutrition programs for pregnant women, nursing 
mothers, infants, and children in countries with high food 
insecurity.
    Entering Fiscal Year 2020, McGovern-Dole had a total of 40 
active projects valued at $961 million in 30 countries that are 
expected to reach over 4.5 million beneficiaries this year.
    In November, FAS published an updated McGovern-Dole 
regulation to implement a 2018 Farm Bill required change to 
provide for not more than ten percent of program funds for 
local and regional procurement of commodities. This reflects 
new authority, separate from an existing stand-alone LRP 
program. Fifteen million of Fiscal Year 2019 funds were 
provided for that stand-alone local and regional procurement 
program.
    USDA announced allocations in August for projects in 
Burkina Faso, Cambodia, and Nicaragua. These projects are 
estimated to reach more than 100,000 school children, 
augmenting over 20 million meals.
    Cochran and Borlaug Fellowship programs offer mentoring to 
agribusiness representatives, researchers, policy makers, with 
the aim to promote food security, trade, and economic growth. 
Under the 2018 Farm Bill, the programs continued operating this 
year without interruption with fellowships awarded on a rolling 
basis.
    Recent training of Cochran fellows from Brazil's food 
marketing and distribution industries at the University of 
Nebraska led to a Brazilian company's purchases of high-quality 
U.S. beef.
    From selecting countries and priorities, to reviewing 
proposals, evaluating project performance, and reporting 
projects, USDA's food assistance staff coordinate with 
colleagues at USAID. Collaboration does not just occur in 
Washington. It occurs throughout the world.
    Thank you for the opportunity to testify. I would be 
pleased to answer any questions, including providing examples 
to illustrate these programs implemented by USDA.
    [The prepared statement of Mr. Isley follows:]

 Prepared Statement of Ken Isley, Administrator, Foreign Agricultural 
       Service, U.S. Department of Agriculture, Washington, D.C.
    Chairman Costa, Ranking Member Rouzer, Members of the Subcommittee, 
I am pleased to appear before you with my colleague, Trey Hicks, 
Director of the Office of Food for Peace, U.S. Agency for International 
Development (USAID). I appreciate the opportunity to discuss the 
implementation of the international food assistance and capacity 
building programs administered by the United States Department of 
Agriculture (USDA) as authorized by the Agriculture Improvement Act of 
2018 (2018 Farm Bill). As Administrator of the Foreign Agricultural 
Service (FAS), I want to thank the Subcommittee for your continued 
support for the work of the Agency and the Department.
Introduction
    Last December, when Congress passed and President Trump signed the 
2018 Farm Bill, the Department immediately prioritized implementing 
new, updated, and reauthorized programs quickly and effectively. The 
Trade and Foreign Agricultural Affairs mission area, which includes 
FAS, hit the ground running. The trade title of the 2018 Farm Bill 
includes authorization, and in some cases funding, for USDA's 
agricultural development and capacity building programs. I am pleased 
to report that we effectively implemented all such programs for Fiscal 
Year 2019. Additionally, we have published new regulations for USDA 
international food assistance programs that position the Agency to 
seamlessly implement these programs in Fiscal Year 2020 when full year 
appropriations are finalized.
International Food Assistance Programs
    FAS-administered international food assistance programs 
reauthorized through FY 2023 by the 2018 Farm Bill include: the Food 
for Progress Program (FFPr); the McGovern-Dole International Food for 
Education and Child Nutrition Program (McGovern-Dole); and the Local 
and Regional Food Aid Procurement Program (LRP). The 2018 Farm Bill 
also amended two fellowship programs which received FY 2019 funding: 
the Borlaug International Agricultural Science and Technology 
Fellowship Program (Borlaug) and the Cochran Fellowship Program 
(Cochran).
    I would note that the President's 2020 Budget is focused on 
eliminating duplication and increasing efficiency, effectiveness, 
performance and accountability. The Budget prioritizes USAID bilateral 
assistance, including food security programs led by USAID's Bureau of 
Food Security (the interagency lead for Feed the Future), food aid, 
education, and related development programs and does not seek funds for 
the FFPr or McGovern-Dole.
Implementation Launch
    With the challenges created by the late December reauthorization of 
farm bill programs, the partial government shutdown through most of 
January, and mid-February securing of full year 2019 appropriations 
behind us, FAS launched the implementation of our FY 2019 food 
assistance programs. Importantly, the programs are authorized to be 
implemented by Private Voluntary Organizations (PVOs), 
intergovernmental organizations, and other eligible entities. In March, 
we held a public meeting with eligible entities and stakeholders to 
solicit input on implementing farm bill programs.
Food for Progress
    For FFPr, FAS issued the FY 2019 Notice of Funding Opportunity 
(NOFO) in March.
    Proposals were solicited to meet the two principal objectives of 
FFPr: to improve agricultural productivity in developing countries and 
emerging democracies and to expand trade in agricultural products. 
Donated U.S. agricultural commodities are shipped to recipient 
countries and sold on the local market in a process that is often 
referred to as monetization. The proceeds, which we recently reported 
averaged about 72 percent of the cost to U.S. taxpayers in FY 2018, 
support agricultural, economic, or infrastructure development projects. 
FFPr projects have trained farmers in animal and plant health, improved 
farming methods, developed road and utility systems, established 
producer cooperatives, provided microcredit, and developed agricultural 
value chains. FFPr project implementers have included PVOs, foreign 
governments, universities, and intergovernmental organizations.
    In August, we announced awards of more than $138 million to improve 
agricultural productivity in developing countries and expand trade in 
agricultural products. The countries to be covered through these 
projects in FY 2019 include Ethiopia, Indonesia, Paraguay, the 
Philippines, Benin, Burkina Faso, Cote d'Ivoire, Ghana, Nigeria, and 
Venezuela. There is also a project focused across the East African 
Community. The allocation for Venezuela is contingent upon initiation 
of a democratic transition. Together, these projects are intended to 
reach over 238,000 beneficiaries directly over the next 5 years.
    A FFPr project in East Timor has helped to support the export of 
locally cultivated crops that do not compete with U.S. production and 
created opportunities for subsistence farmers to increase their income. 
USDA's FFPr activities in East Timor touch along the entire 
agricultural value chain from providing seedlings to farmers, to 
equipment purchases and assistance in exporting harvested crops. FFPr-
supported activities have resulted in new commercial market 
relationships between U.S. companies and East Timor producers. The 
program benefits local producers of several commodities, including 
cloves, vanilla, coffee, black pepper, and cacao. After improved 
agricultural techniques were implemented, the project's first yields of 
organic, fair-trade certified coffee commenced in 2019 with more than 
19 tons headed to international buyers, including U.S. importers. Each 
year thereafter production is expected to increase gradually to a total 
of 1,000 tons by 2029. U.S. companies have also recently purchased more 
than 50 tons of cloves and 4 tons of vanilla.
    Most recently, an updated FFPr regulation was published in August 
to reflect a 2018 Farm Bill-required expansion of eligible entities to 
include U.S. public and nonprofit colleges and universities.
McGovern-Dole
    The McGovern-Dole program's statutory objectives are to improve 
food security; reduce hunger; improve literacy and primary education, 
with an emphasis on girls; and carry out maternal, infant, and child 
nutrition programs. Awards are made for multi-year McGovern-Dole 
projects. Entering FY 2020, McGovern-Dole had a total of 40 active 
projects valued at $961 million in 30 countries. The projects are 
expected to reach over 4.5 million beneficiaries in FY 2020.
    FAS issued the FY 2019 NOFO for McGovern-Dole in March. Proposals 
were solicited to provide school meals for preschool and primary school 
children, and nutrition programs for pregnant women, nursing mothers, 
infants, and children 5 years of age or younger, in countries with high 
food insecurity. FY 2019 awards were announced in August. $170 million 
in funding was awarded to support school feeding programs in Cambodia, 
Guinea-Bissau, Haiti, Malawi, Mauritania, Mozambique, Togo, and 
Uzbekistan.
    Last year, Kenya, whose school feeding program was originally 
launched by the World Food Programme (WFP) in 1980 and which was funded 
by McGovern-Dole starting in 2004, became the first country in Africa 
to transition all schools previously supported by McGovern-Dole to a 
government-supported national school meal program. The Government of 
Kenya has become a leader in school feeding, developing home grown 
school meals policies and programs. USDA worked closely with our 
implementing partner, WFP, to support Kenya's efforts. McGovern-Dole 
projects in Kenya in the past have supported more than 4,000 schools.
    In November, FAS published an updated McGovern-Dole regulation to 
implement a 2018 Farm Bill-required change to provide for not more than 
ten percent of program funds to be used directly for local and regional 
procurement of commodities. This reflects new authority separate from 
authority for an existing, stand-alone LRP program.
Local and Regional Food Aid Procurement Program
    First authorized as a permanent program in the 2014 Farm Bill, the 
LRP program was designed to provide a complementary mechanism for 
delivering international food assistance. Including local commodities, 
such as fruits and vegetables, can increase the acceptability and 
palatability of nutritious meals, strengthen supply chains, and boost 
local support for sustainability. LRP is also authorized to help 
expedite provision of safe and quality foods to populations affected by 
food crises and disasters. Some key objectives of LRP include 
strengthening the ability of local and regional farmers, community 
farmer groups, farmer cooperatives and associations, processors, and 
agribusinesses to provide safe and nutritious high-quality commodities. 
Funding preference is given to entities incorporating locally or 
regionally procured commodities into activities under McGovern-Dole, 
with the aim to strengthen the ability of local host governments to 
take ownership of McGovern-Dole projects.
    The FY 2019 appropriations Act directed $15 million of FY 2019 
McGovern-Dole funds to be used to conduct the LRP program. USDA 
announced a preliminary allocation of these funds in August to projects 
in Burkina-Faso, Cambodia, and Nicaragua. These three USDA LRP projects 
are estimated to reach more than 105,000 school-age children, 
augmenting over 20 million meals.
    A recent example of an LRP award was funding for a $2 million, 2 
year project designed to incorporate orange-fleshed sweet potatoes into 
daily school meals in Mozambique. Farmers received assistance growing 
sweet potatoes that were then harvested and purchased for use at 
schools, to improve the diet of 25,000 school-aged children. With the 
proceeds earned from selling the sweet potatoes, the farmers were able 
to reinvest in the following year's crops.
Borlaug and Cochran Fellowship Programs
    Borlaug and Cochran fellowship programs offer mentoring to 
policymakers with the aim to promote food security, trade, and economic 
growth. Both programs award funds on a rolling-basis. Opportunities to 
host Borlaug and Cochran fellows are circulated through the U.S. Land 
Grant University System, USDA, other Federal Government agencies, the 
U.S. Agricultural Export Development Council, U.S. private 
agribusinesses, and agricultural consultants.
    Under the 2018 Farm Bill, both programs were subject to minor 
amendments, but remained operating without interruption.
Cochran Fellowship Program
    As directed, Cochran now allows for training in the U.S. or at 
colleges or universities overseas with specific U.S. ties. For FY 2019 
funds, FAS published its first NOFOs in March and began to award funds 
under the 2018 Farm Bill amendments in April.
    Since 1984, Cochran has provided short-term training for over 
18,500 international Fellows from 126 countries worldwide. Cochran 
operates in middle-income and emerging market countries, providing 
training opportunities for senior and mid-level specialists and 
administrators working in agricultural trade and policy; agribusiness 
development; management; animal, plant, and food sciences; extension 
services; agricultural marketing; and many other areas representing the 
public- and private-sectors of interest to agriculture. Cochran 
supports existing and potential foreign trade partners to expand 
markets for U.S. exports and strengthen and assist eligible countries 
in developing agricultural systems that can strengthen and enhance 
trade opportunities for U.S. exporters.
    For example, a 2018 Cochran program, conducted in partnership with 
the University of Nebraska-Lincoln, provided training to eight Fellows 
from Brazil's food marketing and distribution industries. The objective 
of the training was to expose the Fellows to the marketing, usage, and 
availability of U.S. beef. As a result of this Cochran training, a 
Brazilian company purchased U.S. beef valued at $200,000, marking the 
first sale of U.S. beef as a direct result of Cochran intervention.
Borlaug Fellowship Program
    For Borlaug, FAS issued a NOFO for FY 2019 funds in May and began 
awarding funds under the 2018 Farm Bill in June.
    The Borlaug International Agricultural Science and Technology 
Fellowship Program (Borlaug) was established in March 2004 to honor the 
Nobel Laureate Dr. Norman E. Borlaug. The program promotes agricultural 
productivity, food security, trade, and economic growth by providing 
training and collaborative research opportunities to early and mid-
career scientists, researchers, or policymakers from developing and 
middle-income countries. Borlaug Fellows spend 8 to 12 weeks in the 
United States and work individually with U.S. scientists in their 
fields to learn new research techniques, gain exposure to the latest 
scientific developments in agriculture, and access fully-equipped 
laboratories. Since the program's inception, USDA has supported more 
than 850 Borlaug Fellows from 69 countries.
    For example, a Borlaug Fellow from Thailand's National Bureau of 
Agricultural Commodity and Food Standards attended Oregon State 
University where she evaluated models to improve pesticide dietary risk 
assessments for maximum residue levels (MRLs). She developed a dietary 
risk assessment tool which supports the Thai Government when defending 
their pesticide MRLs from challenges. This contributes to strengthening 
the capacity of the Thai Government as a U.S. trading partner by 
establishing MRLs for pesticides through enhanced adoption of science-
based standards.
Coordinating USDA Food Aid Programs
    From selecting countries and priorities to reviewing proposals, 
monitoring agreements, evaluating project performance, and reporting 
progress, USDA's food assistance staff coordinate with colleagues 
across the Department and the U.S. Government, particularly USAID, as 
well as with donors, stakeholders, and recipients. USDA food assistance 
staff work daily with their colleagues at USAID and meet regularly with 
USAID's Office of Food for Peace to discuss issues related to priority 
country selections, commodity specifications, leveraging resources, and 
managing constraints. Collaboration with our interagency partners and 
stakeholders does not occur just in Washington. As Administrator of 
FAS, I know the benefits of FAS staff collaborating in posts around the 
world. USDA's food assistance program staff work also closely with our 
overseas posts and their overseas colleagues from USAID, the State 
Department, the Department of Commerce, the Office of the U.S. Trade 
Representative, the Millennium Challenge Corporation, and numerous 
other agencies and stakeholders.
Conclusion
    Thank you for the opportunity to testify. I am pleased to report 
that the implementation of the international food assistance and 
capacity building programs administered by the USDA as authorized by 
the 2018 Farm Bill has been successful. I would be pleased to answer 
any questions of the Subcommittee.

    The Chairman. Thank you very much for your testimony.
    And our next witness is Mr. Trey Hicks, Director of the 
Office of Food for Peace at the U.S. Agency for International 
Development. He was appointed Director on October 29, 2018. He 
brings more than a decade of experience to the United States 
Senate and he also served with Congressman Ted Poe, and so he 
is a familiar face. And we appreciate his oversight efforts on 
foreign assistance.
    Thank you for your testimony, and please begin.

 STATEMENT OF TREY HICKS, DIRECTOR, OFFICE OF FOOD FOR PEACE, 
              BUREAU FOR DEMOCRACY, CONFLICT, AND 
           HUMANITARIAN ASSISTANCE, U.S. AGENCY FOR 
          INTERNATIONAL DEVELOPMENT, WASHINGTON, D.C.

    Mr. Hicks. Chairman Costa, Chairman Peterson, Ranking 
Member Rouzer, Ranking Member Conaway, and other Members of the 
Subcommittee, thank you for the invitation to discuss 
international food assistance programs.
    My name is Trey Hicks. I am the Director of USAID's Office 
of Food for Peace, the largest provider of food assistance to 
the world's most vulnerable people. Our work represents 
America's generosity and it is crucial and critical to our 
national security. We save lives, assist fragile countries 
recovering from crises, and help poor people take their first 
steps on their journey to self-reliance.
    Most of our work helps the hungriest people affected by 
conflict and natural disasters, including refugees. This year, 
90 percent of Food for Peace funding supported emergency 
responses in 55 countries, helping tens of millions of people.
    We have also development programs that address the root 
causes of hunger in areas of chronic crisis. These programs 
equip people with the tools to feed themselves, reducing the 
need for future assistance.
    Food for Peace provides life-saving food assistance in 
several ways. In some instances, we provide in-kind food grown 
in the United States or buy food locally or regionally. Other 
times we provide vouchers or money, usually through electronic 
debit cards, so people can buy food at local markets. None of 
these options are better than the other. It depends on the 
context of each emergency.
    Given the jurisdiction of this Subcommittee, I will focus 
on title II programs which are primarily used to buy food in 
the United States. When Food for Peace uses U.S. commodities, 
we work with NGOs like Catholic Relief Services or 
international organizations like the World Food Programme. Our 
partners choose from dozens of U.S. commodities, which Food for 
Peace approves and buys on the open market. Next, we ship food 
from U.S. ports to a recipient country. Upon arrival, the food 
is prioritized to reach the most vulnerable, primarily young 
children, women, and the elderly.
    U.S. food is critical in places like Yemen, where there are 
20 million hungry people, more than the combined populations of 
Minnesota and North Carolina. In Yemen, conflict has led to 
less food in local markets, rising food prices, fewer job 
opportunities, and plummeting wages. Five years into this 
conflict, families have used up their savings and can't afford 
to buy food. In response, Food for Peace provided more than 
775,000 metric tons of food to partners in Yemen this year 
alone. One partner, the World Food Programme, feeds up to 12 
million people every month.
    We invest U.S. tax dollars responsibly. Food for Peace 
works under very difficult circumstances, like in Yemen, but we 
try to mitigate the risk through rigorous oversight, including 
third-party monitoring, biometric registration, and hotlines. 
We work with partners, other donors, and our Inspector General 
to identify risks and take steps to protect our assistance.
    We do not do this work alone. As Administrator Green has 
said, tackling hunger requires an all-hands-on-deck approach. 
We work with the State Department's Bureau of Population, 
Refugees, and Migration on overseas refugee efforts. The U.S. 
Department of Agriculture helps us buy title II food. Our 
development activities are a central component of Feed the 
Future led by USAID's Bureau for Food Security.
    USAID has a long history of working with U.S. farmers, food 
manufacturers, and others to buy and transport food. We also 
look for opportunities to partner with private companies.
    While our programs are impactful, there is always room for 
improvement. The Famine Early Warning System Network predicts 
more than 88 million people will need emergency food assistance 
in 2020. To meet these needs, our programs must continue to 
evolve.
    The changes you have made to the Food for Peace Act in the 
last farm bill improved efficiency and effectiveness, allowing 
us to save more lives. For example, Provision 207(f) gives us 
more funds for early warning, monitoring, and oversight, which 
makes our programs more effective. And in the Fiscal Year 2020 
budget request, we include a single international humanitarian 
assistance account that would give us maximum flexibility to 
program food assistance using the most appropriate tool for 
each context to best meet needs.
    USAID is also undergoing a transformation to improve our 
work. Currently, Food for Peace works alongside the Office of 
U.S. Foreign Disaster Assistance. We provide emergency food and 
nutrition assistance while they tackle needs like shelter, 
medical care, and hygiene.
    The forthcoming Bureau for Humanitarian Assistance will 
bring our offices together, streamlining our humanitarian 
response.
    Before closing, I want to thank the Food for Peace team and 
our partners for delivering food assistance on behalf of the 
American people.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Hicks follows:]

 Prepared Statement of Trey Hicks, Director, Office of Food for Peace, 
   Bureau for Democracy, Conflict, and Humanitarian Assistance, U.S. 
         Agency for International Development, Washington, D.C.
Introduction
    Chairman Costa, Ranking Member Rouzer, and Members of the 
Subcommittee, thank you for the invitation to speak with you today 
about international food assistance programs.
    My name is Trey Hicks, and I am the Director of the Office of Food 
for Peace (FFP) within the Bureau for Democracy, Conflict, and 
Humanitarian Assistance (DCHA) at the U.S. Agency for International 
Development (USAID), the largest provider of food assistance to the 
world's most vulnerable people.
Overview of the Office of Food for Peace
    For 65 years, our mission has been to save lives and end hunger by 
providing food assistance. We do this work because alleviating global 
hunger represents the best of America's generosity and goodwill. It can 
also advance U.S. security by helping to stabilize fragile regions, 
which can make the world a safer place. By helping them recover from 
crises, our work supports people as they take their first steps on the 
Journey to Self-Reliance. These efforts complement the work of other 
parts of USAID, including the Bureau of Food Security (BFS). My remarks 
today focus on DCHA/FFP's efforts and mainly on title II.
Responding to Emergencies
    The majority of our work helps the hungriest people affected by 
conflict and natural disasters, including refugees. During Fiscal Year 
2019, about 90 percent of DCHA/FFP's funding supported emergency 
responses in 55 countries, which helped tens of millions of people.
    DCHA/FFP continuously monitors food insecurity levels worldwide and 
makes emergency funding decisions on a monthly basis, often to meet 
anticipated emergency food needs several months in the future. Natural 
disasters, such as hurricanes and earthquakes, evolving conflicts, and 
political crises that result in population displacements often require 
immediate assistance. DCHA/FFP balances these changing needs by 
continuously adjusting programming priorities to ensure our food 
assistance is reaching the most vulnerable populations worldwide.
    When making funding decisions, DCHA/FFP carefully considers many 
factors, including the severity of needs, the availability of funds, 
contributions from other donors and the extent to which other donors 
are doing their fair share, access and security constraints in affected 
countries, as well as the capacity of our partners, all to ensure that 
we invest our humanitarian resources responsibly and effectively.
    To anticipate food insecurity, DCHA/FFP uses data from the Famine 
Early Warning Systems Network, or FEWS NET, which USAID funds--
including analyses of weather, markets, and trade conditions--to inform 
our programmatic decisions. This information is critical in enabling 
DCHA/FFP to respond early and robustly so our assistance has maximum 
impact.
    In addition to data from FEWS NET, DCHA/FFP often looks to a 
disaster declaration from a U.S. Embassy, an emergency appeal issued by 
the United Nations (UN), or a request from local authorities for 
assistance because they do not have the capacity to respond adequately. 
Most important, our staff and partners on the ground assess needs and 
serve as critical sources of information. All of these inputs are 
critical to help us determine if, when, and how to respond.
Tackling Chronic Hunger
    We recognize that repeatedly responding to emergencies, while life-
saving, is an expensive stop-gap measure that will not end hunger nor 
improve long-term food security. BFS leads Feed the Future, a whole-of-
government food security effort, that seeks to reduce the root causes 
of hunger and future emergency food needs in areas subject to recurrent 
food crises. While the FY 2020 Budget has proposed to eliminate title 
II, Feed the Future programs include ongoing DCHA/FFP development 
programs that also equip people with the knowledge and tools to feed 
themselves.
    In Fiscal Year (FY) 2019, DCHA/FFP invested over $365 million in 
development food security activities in 12 countries, including several 
Feed the Future target countries. These activities aim to reduce 
chronic malnutrition among children under 5 and pregnant or lactating 
women, increase and diversify household incomes, provide opportunities 
for microfinance and savings, and support agricultural programs to 
build resilience, reduce shocks, and the vulnerability to future shocks 
and stresses.
Options for Emergency Food Assistance
    Typically, DCHA/FFP provides people with life-saving emergency food 
assistance in four ways: (1) food procured and shipped from the United 
States; (2) food procured near crises (locally or regionally from 
developing countries); (3) food vouchers; or, (4) cash or electronic 
transfers for families to buy food in local markets. How we respond 
depends on the context of the emergency, and includes factors such as 
appropriateness, timeliness, effectiveness, and efficiency. For 
example, access to vulnerable communities can be a challenge, 
especially in conflict areas, where security may be a concern and may 
make the logistics of moving in-kind assistance unmanageable. Increased 
flexibility allows us to use the right tool at the right time to feed 
more people. I'd like to share a few examples.
    Even before the conflict began in Yemen, the country relied on 
imports for the vast majority of its food. Today, conflict has left 
more than 20 million Yemenis hungry, the largest food security 
emergency in the world. USAID-provided in-kind food aid, such as 
authorized under title II of the Food for Peace Act, is critical 
because many Yemeni households cannot support themselves and food is 
extremely expensive in local markets. In partnership with the UN World 
Food Program[me] (WFP), we are reaching up to 12 million people in 
Yemen every month with title II and other types of food aid.
    In Jordan, where local, urban markets are functioning, DCHA/FFP 
provides food assistance to refugees through electronic food vouchers. 
In-kind food assistance is not a feasible option, because it would be 
difficult to reach such a dispersed population in urban centers. 
Vouchers, however, allow people to buy food in markets that are close 
to where they live, while supporting the local economy in refugee-
hosting areas.
    In the Federal Democratic Republic of Ethiopia, DCHA/FFP uses 
different types of food assistance to respond to drought, displacement, 
and other shocks. For refugees in eastern Ethiopia, DCHA/FFP provides 
in-kind food, including U.S. title II food aid, as well as food 
purchased in local and regional markets, because refugees live in 
remote areas with limited local production, restricted access to 
markets, and high food prices. Where markets are functioning, DCHA/FFP 
uses market-based assistance to help people affected by drought or 
displacement. Cash and vouchers enable them to choose food that meet 
their needs best and provide dietary diversity, while bolstering local 
markets.
Funding for the Office of Food for Peace
    DCHA/FFP provides assistance primarily via two types of funding: 
(1) Funds under title II of the Food for Peace Act, most recently 
amended by the Agriculture Improvement Act of 2018, over which this 
Subcommittee has jurisdiction; and, (2) International Disaster 
Assistance (IDA) funds under the Foreign Assistance Act (FAA) of 1961, 
as amended.
    Under title II, USAID provides U.S. commodities such as wheat, 
beans, sorghum, and vegetable oil to meet emergency food needs. We also 
use these funds to carry out development activities that address the 
root causes of food insecurity and malnutrition.
    IDA funds finance the full spectrum of emergency humanitarian 
assistance operations in response to international crises, including 
emergency food security activities. The Global Food Security 
Reauthorization Act of 2017 recently amended the FAA and reauthorized 
IDA, as well as the Emergency Food Security Program (EFSP), USAID's 
market-based food assistance programs.
    In his Budget Request for FY 2020, the President has not requested 
funds for title II, IDA, or overseas humanitarian assistance in the 
Migration and Refugee Assistance account, managed by the Bureau of 
Population, Refugees, and Migration (PRM) at the U.S. Department of 
State. Instead, the President proposes to create a new International 
Humanitarian Assistance (IHA) account to provide food and non-food 
humanitarian assistance to all populations in need through the most 
effective and appropriate means for each crisis. The IHA account would 
consolidate all overseas humanitarian assistance funding into a single 
new, flexible account administered by USAID. Through the IHA account, 
we would continue to be the world's largest humanitarian donor and 
purchase food from U.S. farmers, which would remain a vital part of 
U.S. food assistance programs overseas.
    I will provide highlights about our current food assistance 
operations including oversight, recent and forthcoming changes, and 
coordination efforts within and beyond the U.S. Government for DCHA/
FFP's programs. Given the jurisdiction of this Subcommittee, I will 
start with our current procurement of title II commodities.
Procuring U.S. In-Kind Food Aid
    Dozens of U.S. commodities are available for programs authorized 
under title II, and we work with the U.S. Department of Agriculture 
(USDA), agriculture organizations, and university researchers to 
constantly improve them.
    Once we assess and determine that a U.S. in-kind food assistance 
program is appropriate, we engage with partners to do the work--either 
Private Voluntary Organizations, such as Catholic Relief Services and 
World Vision, or international organizations, such as the WFP. Partners 
choose from the list of eligible commodities, based on local 
assessments of markets and needs. We help them to identify the types 
and amounts of U.S. commodities required, as well as a schedule for 
their delivery. Once approved by DCHA/FFP, they place an order for the 
commodities. Via USDA, we send a bid to U.S. producers, evaluate the 
resulting offers, and purchase the commodities on the open market.
    After we procure the commodities, we work closely with our partners 
to ship them from a U.S. port to the recipient country. Upon arrival in 
that country--typically 4 to 6 months from when we decide to respond--
the food is targeted to the hungriest people: children under age 5, 
pregnant and lactating women, the elderly, and other vulnerable 
populations.
Programmatic Oversight
    USAID delivers emergency food assistance in accordance with the 
core humanitarian principles of humanity, neutrality, impartiality, and 
operational independence. In short, we intend and design our assistance 
to reach the most vulnerable people. We take the responsibility of 
investing U.S. taxpayer dollars seriously, work to ensure that we are 
as effective and efficient as possible under current law, and target 
and monitor our assistance so it gets to those who need it most.
    We deliver our assistance under very difficult circumstances, often 
in conflict environments, but we try to mitigate risks through 
monitoring and regular reporting. DCHA/FFP uses a variety of approaches 
to verify our aid is reaching its intended beneficiaries, including 
third-party monitoring, geo-tagged photos and videos of distributions, 
and feedback hotlines for beneficiaries. We also work closely with our 
partners, other donors, and our Inspector General to identify risks and 
take steps to protect our assistance.
Evolving To Meet Today's Crises
    While our programs are stronger and more sophisticated than ever, 
that does not mean there is not room for improvement. According to FEWS 
NET, more than 88 million people will likely experience acute hunger 
and need urgent emergency food assistance in 2020. Many of them are 
among the 70 million people who are displaced. After they flee their 
homes, many rely on humanitarian assistance in the places they settle. 
Conflict is the largest driver of increased hunger and displacement. 
Conflict-driven crises are happening more frequently, often compounded 
by natural disasters like drought and can result in multiple 
displacements of families. As a result, today's crises are bigger, last 
longer, and are more complex. To meet the humanitarian needs of today, 
and the future, our programs continue to evolve and improve.
2018 Farm Bill
    With respect to title II, the 2018 Farm Bill, the House Agriculture 
Committee made modest technical changes to the Food for Peace Act that 
helps DCHA/FFP be more efficient and effective with U.S. taxpayer 
dollars within the limits of the statute's constraints, which 
ultimately means that we can save more lives. Some of the key changes 
include the following:

  <bullet> Eliminating the requirement to monetize food aid, which will 
        help promote greater efficiency in the title II program;

  <bullet> Increasing funds for programmatic monitoring and oversight 
        of title II, from a cap of $17 million to 1.5 percent of the 
        annual title II appropriation, which also covers contracts for 
        studies to improve the quality of food aid, FEWS NET, and 
        others;

  <bullet> Attributing Community Development Funds from the State, 
        Foreign Operations appropriation for the Development Assistance 
        account towards the title II non-emergency directive; and,

  <bullet> Allowing more effective use of 202(e) funding by 
        streamlining categories of associated costs by clarifying what 
        are administrative costs and what are the costs of getting 
        commodities to the final distribution point, including 
        transportation, storage, and distribution.
USAID's Transformation
    Through Transformation, USAID is positioning its structure, 
workforce, programs, and processes to advance our national security 
effectively and support host-country partners on their Journey to Self-
Reliance. These efforts include significant improvements in the way 
USAID promotes food security and conducts humanitarian efforts.
Bureau for Humanitarian Assistance
    We work extremely closely with the Office of U.S. Foreign Disaster 
Assistance (OFDA) within DCHA to respond to humanitarian emergencies. 
We tackle food insecurity, while OFDA addresses other sectors like 
shelter, medical care, and hygiene. We work together to save lives, 
reduce suffering, and help communities recover as quickly as possible.
    The forthcoming Bureau for Humanitarian Assistance (BHA) will bring 
together FFP and OFDA, the two USAID humanitarian offices now within 
DCHA, by unifying and elevating our humanitarian assistance 
capabilities and expertise, eliminating the artificial distinction 
between emergency food and non-food response, and preventing 
unnecessary duplication in the field. The new Bureau will advance 
USAID's goal of creating a more strategic and seamless approach to 
delivering food and non-food international disaster aid in humanitarian 
crises. It will also manage certain programs that link humanitarian 
assistance to the rest of the Agency's work, like ongoing DCHA/FFP's 
development food security activities and DCHA/OFDA's programs to reduce 
the risk of disasters. BHA creates a strong platform for unified USAID 
humanitarian leadership and policy with respect to UN organizations, 
other implementers, and donors so USAID's humanitarian programs are 
effective, efficient and fully accountable.
Bureau for Resilience and Food Security
    DCHA/FFP also coordinates closely with BFS to address the 
underlying root causes of hunger and malnutrition, while building the 
resilience of vulnerable populations. USAID's programs work with the 
most vulnerable households and families to reduce the risk of disasters 
and improve agriculture, livelihoods, maternal and child health, and 
women's empowerment. In the same country, BFS works at a systems level 
to improve agricultural productivity and supply-chain development to 
benefit poor farmers and businesses--people slightly farther along on 
the Journey to Self-Reliance than the populations DCHA/FFP typically 
serves. We also collaborate with BFS by co-investing Community 
Development Funds in places like Burkina Faso, Haiti, Kenya, Niger, and 
Uganda.
    After USAID's Transformation, BFS will become the Bureau for 
Resilience and Food Security (RFS) and we will work together even more 
closely. RFS and BHA will both fall under the Relief, Response, and 
Resilience (R3) suite of Bureaus at the Agency. Together, the R3 
Bureaus will form an even more robust and comprehensive link across the 
development spectrum from mitigating to responding to crises through to 
sustainable development, including food security.
Coordinating the U.S. Government's Food Assistance Efforts
    DCHA/FFP is the U.S. Government's leader in food assistance, but we 
do not do this work alone. As Administrator Green has said, ``Tackling 
hunger requires an all-hands-on-deck approach.''
    DCHA/FFP's ongoing development food security activities are part of 
Feed the Future, led by BFS. Feed the Future brings together a broad 
array of partners, including other U.S. Government departments and 
agencies, to coordinate efforts to end global hunger.
    At both the policy and programmatic levels, DCHA/FFP also works 
with PRM at the State Department, which has the primary responsibility 
for formulating policies on refugees. Together, we respond to assist 
refugees in need: DCHA/FFP addresses food needs and PRM tackles non-
food needs.
    We also work closely with USDA. In addition to USDA's role in 
purchasing title II commodities in coordination with USAID, we 
collaborate in other ways. For instance, USDA and USAID staff have the 
opportunity to review applications for each other's development food-
security activities to increase coordination and alignment between our 
programs.
    Beyond the U.S. Government, we also coordinate with other donors 
and private businesses to meet growing humanitarian needs more 
sustainably. Over the last 5 years, governments and European Union 
institutions have increased their humanitarian assistance by 30 
percent. While we welcome the increased contributions many have already 
made in the last few years, the U.S. Government is putting more 
emphasis on working persistently and effectively to get other donors to 
do their fair share. We applaud France, which recently ratified the 
Food Assistance Convention, and as part of this commitment, announced a 
plan to increase its annual commitment to food assistance.
    With respect to title II, DCHA/FFP has a long history of working 
alongside U.S. growers, commodity aggregators, logistics operators, 
food manufacturers, packagers, and others, to purchase and transport 
millions of tons of food commodities and nutrition products. For 
example, we work with companies like Edesia based in Rhode Island that 
produce a therapeutic, peanut-based paste we use to treat severely 
malnourished children. We also meet twice a year--including yesterday--
with the Food Aid Consultative Group, comprised of members from the 
agriculture industry, maritime, and non-governmental organizations, to 
discuss U.S. Government international food assistance programs.
    We are continually exploring mutually beneficial ways to bring new 
private-sector partners into our work, as well as to tap into private-
sector technical expertise. For example, we are working with the 
Humanitarian Supply Chain Lab at the Massachusetts Institute of 
Technology to test new and improved packaging for commodities, which, 
if successful, we would ultimately purchase from private-sector 
packaging companies.
Conclusion
    Before closing, I want to take this opportunity to thank the Food 
for Peace team and our partners for delivering life-saving food 
assistance on behalf of the American people. Thank you for the 
opportunity to testify before you today, and I look forward to your 
questions.

    The Chairman. We thank you, Mr. Hicks, for your testimony. 
And we are pleased this morning to have both the Chairman of 
the full Committee and the Ranking Member of the full Committee 
here, because they obviously put a great deal of effort in last 
year's reauthorization of the farm bill and are very interested 
in the implementation of these programs.
    As such, I will defer to the Chairman of the Committee for 
any questions that he may have at this time.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. And thank you for 
your leadership.
    A question I have, I don't know which one of you can answer 
this, if you can. Dry pea and lentil prices have dropped 
between 40 and 50 percent since we have had these trade tariffs 
put in place, and peas and lentils are a staple in a lot of 
international food assistance programming, and they have been 
since the 1980s because they are widely eaten in diets around 
the world.
    But in recent years, Food for Peace and the McGovern-Dole 
Food for Education Programs have purchased between 150,000 and 
170,000 metric tons, but according to the industry estimates 
2019 purchases of dry peas and lentils dropped to 110,000 
metric tons without a major shift in recipient countries. Can 
you explain to me why there was such a drop in purchases on 
these commodities when you have extremely low prices and high 
stock levels?
    Mr. Hicks. Sure. Currently, we purchase commodities using 
basically a zero-based budgeting approach where every year we 
assess what the needs are in all the different contexts where 
we respond. We look at the availability of what is on the 
market and we match the needs on the ground to what is 
available for purchase. We don't have any kind of quotas or 
like set parameters. Every year is new and we approach every 
year based on whatever the needs are.
    We are limited to how much is appropriated to us every year 
for what we can go out and purchase with title II funding; but, 
year to year things are going to look different depending on 
the availability and kind of the context for each year. There 
isn't a decision to increase or decrease based on pricing, but 
it is more based on the context year to year based on need.
    Mr. Peterson. It doesn't make any sense to me. I mean, 
these countries have not reduced their demand for these 
products and they actually cost less, I don't get it. It 
doesn't make sense whatever you guys are up to.
    Mr. Hicks. Well, the drivers are, is, the context, and so 
for example, in Yemen, the most appropriate commodity for the 
needs that are driven by the demand in the context is wheat, so 
wheat tends to be one of our higher commodities that we use 
because of the need in Yemen is so great and there aren't other 
alternatives for other commodities to be used in those kind of 
contexts.
    Pulses and beans are our third-highest purchase right 
behind wheat as well as the fortified corn-soy blends. While 
there might be a greater availability on the market, we have to 
look at each of the contexts and what the driving demand is for 
our programs to determine which crops are appropriate for us, 
or which commodities are appropriate for us to purchase.
    Mr. Peterson. Well, as I understand it, there hasn't been a 
big shift in these recipient countries in terms of what they 
are asking for.
    Mr. Hicks. There has been an uptick in the food insecurity 
in Yemen, for example. We did a review an IBC review in 
December of last year, and it did show a spike of increase of 
need in Yemen, for example. And Yemen, again, is heavily 
reliant on wheat commodities for the response there. Every year 
the context does shift and change. We have sudden onsets that 
appear, like the response in Mozambique or the response in the 
Caribbean. And so the context is constantly shifting and 
changing, so there is changes in context. And I am happy to 
provide more information on----
    Mr. Peterson. Well, my time has expired, so I would 
appreciate that if you could get me some information.
    Mr. Hicks. Sure.
    [The information referred to is located on p. 45.]
    Mr. Peterson. As I understand it, these purchases have been 
kind of constant as a 150 to 170 metric ton ratio, so I don't 
understand why it is different. Get me whatever information you 
have, and I will see if I can make sense out of it.
    Mr. Hicks. Sure. No problem.
    Mr. Peterson. Thank you. I yield back.
    The Chairman. We thank the gentleman from Minnesota.
    And at this time, we would like to defer to the Ranking 
Member of the full Committee, the gentleman from Texas.
    Mr. Conaway. Well, thank you, Jim. I appreciate that.
    Mr. Hicks, there was some conversation in the 2018 Farm 
Bill process about how USAID distinguishes between the costs 
that are considered ITS[H], Internal Transportation Storage and 
Handling, and the funds that USDA is allowed to use to enhance 
program delivery through authorities under Section 202(e) of 
the Food for Peace Program. There have been concerns regarding 
the claiming of costs for the uncapped ITS[H]'s purposes that 
should more appropriately be considered under the capped 
section 202(e) spending.
    Please walk us through how those costs fall under each 
account and how the funds are tracked in each country.
    Mr. Hicks. Sure. The internal transportation storage and 
handling cost is the cost that we have when food arrives in the 
country where we are going to deliver the food, and it includes 
the transportation to get to the warehouse as well as the 
storage and the security for the warehouse. And then it also 
covers things now because of the change such as milling, which 
is extremely important in countries like Yemen where we are, 
even right now today we have 150,000 metric tons of wheat on 
the water on its way to Yemen, that if we weren't able to use 
the change that you made to the ITSH cost to include milling, 
we wouldn't have been able to use quite that large amount of 
wheat and have it last as long as we need it to last to get to 
all the people we need to send it to.
    As far as like tracking, we require vigorous reporting and 
monitoring at every stage of our response, so not just during 
the transportation stage, but also when we are targeting 
beneficiaries or actually delivering the food. We have various 
stages where we ensure that the food is getting where it needs 
to go and----
    Mr. Conaway. Yes, sir, I am familiar with that, but I 
didn't hear anything about the section 202(e) spending. What 
costs go under that program?
    Mr. Hicks. The section 202(e) funding, the majority of that 
goes to the actual cost of administering the program, so it is 
staff salaries, it is monitoring and oversight, it is the 
programmatic overhead. Because of the changes that were made a 
couple of times, a couple of farm bills ago, a portion of 
section 202(e) does go to the flexibility of being able to use 
things like local regional purchases. But that is only about 
seven percent of the total 20 percent. But the large majority 
of it goes to the actual administration of the program.
    Mr. Conaway. A couple of times in your testimony, Mr. 
Hicks, you used the phrase, ``the best or most appropriate tool 
or modality.'' I have always been concerned that there is a 
bias in your shop for cash and vouchers and that in-kind 
purchases are going to get short-shifted. Somebody has to 
decide best. There is no real definition of that. It comes to 
the eye of the beholder, and like Mr. Peterson was getting at, 
as we see actual food purchases drop in an era where the food 
costs have gone down, that doesn't make any sense to us that 
that would be the case.
    And so I am worried that your shop will push the blend 
which is pretty close to 50/50 now and which is a lot higher 
than I thought it should be, but nevertheless, whatever we 
decided on it, that using your judgment that you will push it 
the other direction. How can you assure the Committee that 
those commodities which come in big 100 pound, or big 50-kilo 
sacks with an American flag on it, don't get pushed to the 
side? Because, the American people support those programs more 
so than they do necessarily cash or vouchers. How can you 
assure us that those of us who prefer in-kind aren't getting 
shut out in the decision making in your shop?
    Mr. Hicks. Sure. Excellent question. I assure you, first 
and foremost, that we don't favor any type of response over the 
other. We sincerely look at every context individually to 
determine what the best response is, and when it comes to title 
II we use every dollar that you send us in the most efficient 
way we can to buy as much commodities as we can, to feed as 
many people as we can. But the increased cost is coming from, 
largely from, security and access. We are increasingly using 
title II in places like Yemen and South Sudan. We have to have 
title II U.S. commodities or we can't respond in places like 
Yemen and South Sudan, but there is also an increase in 
security costs. But every single dollar that we receive from 
you on title II, we are spending those dollars. We are not----
    Mr. Conaway. I am really confident you are spending them. 
It is just whether the blend is being spent how we want. I want 
American farmers participating in this, and American people 
support these programs in large part because they think it is 
American-grown products that are being used over there. As you 
make those decisions, just know that American support for these 
programs lies in the fact that most folks think it is food that 
can't be stolen as easily as a hundred dollar bill can be 
stolen. I appreciate your efforts, but we are going to watch 
because we sense a push in the wrong direction.
    With that, Mr. Chairman, I yield back. Thank you for 
allowing me to ask questions.
    The Chairman. Thank you, Congressman Conaway. And the 
sentiment that you expressed is a concern that is shared on a 
bipartisan basis by this Committee, and I thank both you and 
the Chairman for your participation this morning.
    When you provide, Mr. Hicks, that information for the 
Chairman that was referenced earlier, please provide it for the 
entire Committee. I think that is something that we would all 
like to be aware of and we will continue to provide oversight 
as we are doing today on the efforts of these programs.
    The farm bill, as a conferee, we all worked hard to ensure 
that various aspects were implemented, and on a bipartisan 
basis, the Ranking Member and I are carrying a resolution that 
will reflect the success of the Food for Peace Program. And 
obviously we welcome everyone's participation in that 
resolution.
    Given the effectiveness of the Food for Peace Program, I 
believe, and the support from stakeholders, it is clear and 
important that we maintain that bipartisan effort. I am a 
little bit baffled, and I would like to ask this to both of you 
why the Administration's repeated budget request to zero out 
these programs, and it just doesn't make sense based upon both 
of your testimonies and the support that you noted here by the 
Subcommittee.
    Mr. Hicks, would you like to respond, and then would you 
like your counterpart to also respond as well?
    Mr. Hicks. Sure. No problem. The current budget request 
seeks to combine all humanitarian accounts, not just title II, 
but also IDA as well as the Population Refugee Migration 
account that the State Department manages. The request merges 
all of those accounts into one new account, but this reflects 
an effort that goes back two Administrations, back as far as 
2008, where prior Administrations including the current 
Administration are seeking greater flexibility in how they can 
choose between the modalities of a response.
    The Chairman. Mr. Isley, you can respond.
    Mr. Isley. Yes, Mr. Chairman. It is a question of 
efficiency in terms of the ability to effectively implement the 
program. I have some context in my written testimony in terms 
of the Administration's desire to consolidate these type 
programs under USAID and implement them on a more bilateral 
basis to improve efficiency, monitoring, evaluation.
    The Chairman. How would the two of you work together then 
if in fact that were to take place?
    Mr. Hicks. What we currently do, we would continue to do, 
we would continue to partner with USDA for purchasing of 
commodities. They would continue to provide technical expertise 
on such things as supply chain management, the improvements 
that we are doing to the bulk bags that we are using to keep 
pests out.
    The Chairman. Well, my sense is when you zero it out, 
though, that sends an entirely different message.
    Mr. Isley, in your written testimony you specifically noted 
that the President's 2020 budget does not seek funds for Food 
for Progress or McGovern-Dole and instead prioritizes, as you 
noted, the USAID bilateral assistance. Knowing that the 
programs help open doors to better trading relationships, why 
does the Administration want to diminish USDA and by proxy U.S. 
farmers' and ranchers' role in this international food 
assistance effort?
    Mr. Isley. Well, we would continue that, Mr. Chairman, with 
the coordination with USAID, U-S-A-I-D, in terms of the 
implementation. In addition to the testimony from Mr. Hicks, 
USDA would be able to continue to assist because of our 
presence in the many Embassies and----
    The Chairman. It seems that it is diminishing the role of 
the USDA.
    Mr. Isley. Well, it would still include our Agricultural 
Marketing Service in terms of the procurement of the 
commodities that would go into the programs, and we would 
continue with our assistance with the expertise we have both in 
D.C. and around the world.
    The Chairman. Due to instability and food insecurity as a 
result of conflict and climate change, what role do you think 
these programs play in our national security? And I guess you 
noted I heard in your testimony that you do consult with the 
State Department. Do you consult with the Defense Department 
when targeting and prioritizing? As I noted in my opening 
comments, the civil war in Syria has resulted in displacement 
of millions of people in refugee camps. How does that 
coordination take place between yourselves and the State 
Department and the Department of Defense based on 
prioritization and need?
    Mr. Hicks. Sure. At USAID we participate in multiple 
interagency fora. We coordinate not only with ourselves but 
also Office of Foreign Disaster Assistance, which is the other 
half of Humanitarian Assistance. And we have humanitarian 
advisers that are at all the----
    The Chairman. You meet in real-time as these events take 
place?
    Mr. Hicks. Real-time.
    The Chairman. Okay.
    Mr. Hicks. In real-time. We have advisors at all the COCOMs 
that help advise them.
    The Chairman. And you meet periodically, and of course with 
your 93 offices around the world, you----
    Mr. Hicks. Yes, sir, we meet periodically. Sometimes we 
have our staff in the field interfacing directly with DOD 
personnel at AFRICOM, different theaters.
    The Chairman. My final question. I will take the liberty of 
the chair. I chair, another hat I wear, Transatlantic 
Legislators' Dialogue. We work closely with the European Union. 
How well do you coordinate with the EU and other countries in 
different regions of the world?
    Mr. Hicks. I actually hold regular bilateral meetings with 
the EU as well as others, and in fact later this week I am 
meeting with a representative from Germany that leads their 
humanitarian effort. It is something that we regularly do 
bilaterally. We also meet together at the World Food Programme 
board meetings and other type of donor meetings throughout the 
year.
    The Chairman. So that is a regular occurrence? Because, 
certainly, our partnership with our allies allows us to do more 
where the need is the greatest.
    Mr. Hicks. Absolutely. And we also coordinate with them in 
each response in the field as well.
    The Chairman. All right.
    Mr. Hicks. There is a lot of coordination.
    The Chairman. Well, thank you. My time has expired.
    I would like to now recognize the Ranking Member of the 
Subcommittee, Mr. Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman.
    And I want to identify myself with Ranking Member Conaway 
and his concerns about the split. That is in fact, as Chairman 
Costa mentioned, a major point of concern that is very much 
bipartisan, and I just want to stress that.
    Let me focus in at a little broader level. I am quite 
concerned with efforts by China and the EU in terms of their 
efforts around the world, China in the case of putting in 
infrastructure in a lot of different places, EU in their anti-
biotech bias, and the role that these programs play in helping 
to maintain American influence in the world.
    Mr. Isley and Mr. Hicks, can either one of you be willing 
to respond to that?
    Mr. Isley. Sure, Congressman Rouzer. The programs play an 
important role in addressing and reacting to some of the 
influences, and we share the concerns that you mentioned.
    I would highlight in particular Food for Progress and some 
of the objectives in terms of the agricultural production 
regulations, the food safety regulations of some of the 
countries where we are implementing. These projects 
specifically address some of the influence of the EU around 
adoption of technology, key technologies like biotechnology, 
the responsible use of crop protection products in all. They 
are critical in our ability to fund and to educate policy 
makers, decision makers in these countries.
    Also in terms of branding U.S. agriculture support for the 
school feeding and the Food for Progress projects, it is 
important to get recognition to the United States in terms of 
all the money, humanitarian and otherwise, that we provide. But 
it is real in the field, in the influence of the countries you 
mentioned.
    Mr. Rouzer. Mr. Hicks?
    Mr. Hicks. I would just add that China really isn't a 
donor, humanitarian donor. There are some places where there 
might be claims that they are providing humanitarian 
assistance, but it is not through humanitarian principles. 
There are a lot of strings attached.
    I will also say that we at Food for Peace, we have no 
problem with using technology such as GMO and other types of 
technologies that maybe the EU is slow to take on. But Mr. 
Isley and I yesterday were at the swearing in of Ambassador Kip 
Tom, who is our Ambassador to Rome-based agencies for 
agriculture and food assistance, and he is a very strong 
supporter of pushing EU in the right direction to embrace 
technologies that could help us feed more people more safely, 
more efficiently.
    Mr. Rouzer. Well, I just think it is important to 
underscore the role that these programs play in terms of 
maintaining and enhancing America's influence in the world when 
we have a lot of actors out there that don't share the same 
values that we have.
    Mr. Hicks, moving on, you mentioned in your written 
testimony with regard to Food for Peace, the variety of 
approaches used to verify aid is reaching the intended 
beneficiary. You listed out some of those methods. Can you 
provide some examples of how those programs are monitored to 
ensure the right aid is getting to the correct recipients? That 
is obviously the key component.
    Mr. Hicks. Yes, sir, I agree. We actually do monitoring and 
oversight at every stage of our delivery. And the most 
important stage is at the beginning when we actually identify 
who the beneficiary is. We use an extensive amount of data 
collection through our Famine Early Warning Systems Network 
which many of you are familiar with. We have staff in the 
field, our partners assist us and help us to identify exactly 
who has the highest need of food insecurity, and we target 
those people and those are our beneficiaries.
    During the food distribution itself, we use things like 
biometrics, either iris scans, thumbprints. We have many ways 
that we go. We have onsite visits to make sure that during the 
distribution the right people that we have targeted at the 
beginning are getting the food when we are distributing the 
food.
    We also do re-verification of beneficiaries throughout the 
program, so just because we started with a beneficiary list, we 
then verify it throughout the course of the program to make 
sure that there is no deviation in the targeting of the 
beneficiary.
    And then after the beneficiary, we also do constant 
monitoring. We have hotlines in places like Yemen where it is 
hard to get access, or people that our beneficiaries can call. 
We do random calls to beneficiaries if they have phone lines. 
We have the Inspector General that goes and does independent 
assessments. And we have third-party monitoring. There is quite 
a wide variety of tools that we have that we are constantly 
making sure that our program is working the way it should be 
working.
    Mr. Rouzer. Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back because time has 
expired.
    And the chair will now recognize the gentlewoman from 
Connecticut.
    Mrs. Hayes. Thank you for being here.
    I have spoken on many occasions about my commitment to 
ensuring that all children receive healthy meals, because I 
have been on the other side of a classroom where a kid returned 
on a Monday morning having not eaten, with their head on a 
desk, and the one thing that I know for sure is that hungry 
kids do not learn. That reality holds true across international 
borders as well.
    In 2016 I was the National Teacher of the Year and I 
traveled with the USDA Department to many of the countries that 
we are discussing today, and I saw firsthand how our aid 
improves the safety and stability of nations across the globe, 
and fosters goodwill. I also saw how those communities relied 
on this aid.
    Right now in many of those countries that I visited, I see 
how drought has caused food shortages, jeopardizing school 
meals for more than 800,000 children. McGovern-Dole is one of 
the most effective tools to prevent against such threats and 
ensure students across the globe are not distracted from 
learning because they are wondering where their next meal will 
come from.
    Since the establishment of this program we have fed more 
than 40 million children in 41 countries. The budget that was 
proposed in March suggested cutting this program completely.
    Mr. Isley, what would have happened to children in those--I 
guess if we had cut this program as the budget suggested, can 
you just tell us a little bit what that looks like and estimate 
how many children in schools would have lost access to school 
meals and nutrition programs?
    Mr. Isley. Well, with--thank you, Congresswoman. And with 
respect to the ongoing projects, we would have continued to 
implement those and work with the host governments on 
transitioning those programs.
    One of the key goals of the Administration is to work very 
closely with those host countries and to work with them 
actually on the implementation of laws, the appropriation of 
money to take over those programs, and for them to graduate 
from U.S. assistance. We would have continued to implement the 
programs existing but would not have put in place new programs 
with respect to new countries or continued existing.
    Mrs. Hayes. It is your belief that none of those children 
would have lost access to meals if the funding had been cut?
    Mr. Isley. Not the existing programs that have been already 
awarded and implemented, but with respect to any future new 
programs, correct, they would not have received new awards. Any 
programs that would have required rollover, if they would have 
been at their expiration, they obviously would have not 
received U.S. funding. We would have worked very hard though to 
see if there was an alternative with respect to our 
implementing partner or with respect to the host government in 
terms of taking over that responsibility.
    Mrs. Hayes. They are very important programs. In the USDA's 
latest International Food Assistance Report it noted that, and 
I quote, ``USDA food assistance and capacity-building programs 
are embedded with strategies intended to promote sustainability 
so recipient countries could continue to benefit well beyond 
the funding period.'' Much like what you just said.
    And you mentioned that Kenya was a major success story in 
those efforts. Can you please share some examples of these 
strategies and your efforts in other nations to promote 
sustainability of these programs and continued support from 
those domestic governments?
    Mr. Isley. Yes, Congresswoman. Another example besides 
Kenya, and Kenya was implemented by USDA I believe starting in 
2004, and this past year we celebrated the turnover of that 
program to the Government of Kenya, which is a key graduation 
success story.
    Another one I would highlight is in Burkina Faso where we 
are improving literacy, health, and dietary outcomes. Since 
2011, a McGovern-Dole project has aimed at improving literacy, 
health, dietary outcomes for preschool and primary school 
students in north-central Burkina Faso. As of 2018, the project 
covers nearly 1,000 schools and preschools, serving nearly 40 
million meals to more than 265,000 children. The multifaceted 
program has enabled a 17 percent rise in on-grade level 
literacy rates. The Government of Burkina Faso has increased 
its public spending on school feeding in the country, 
allocating a budget of more than $36 million for 2018-2019 
school year to cover 3 months of healthy meals for 
schoolchildren in 43 out of the nation's 45 provinces. That 
would be an example of us working with the Government of 
Burkina Faso on school feeding and nutrition.
    Mrs. Hayes. Thank you. My time has expired, but I would 
just ask that as you look towards the next round of identifying 
priority countries that you develop a system of feedback and 
soliciting input so that we can make sure that we are 
addressing the countries that are most in need.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. And I thank the gentlewoman for her line of 
questioning, and it would be helpful for the Subcommittee, Mr. 
Isley, if in fact you provided that feedback as we go forward 
in your implementation of the programs you administer.
    Mr. Isley. Very good, Mr. Chairman.
    The Chairman. The next Member of the Subcommittee is Mr. 
Hagedorn from Minnesota. The gentleman has 5 minutes.
    Mr. Hagedorn. Thank you, Mr. Chairman, Ranking Member 
Rouzer. Pleasure to be with you today. Thanks for your 
testimony.
    I think that the programs that you are implementing are 
kind of twofold; show the greatness of America. First, the 
generosity of the American people, that we work so hard to try 
to make sure that our own citizens have food and are in good 
shape, but also millions of people around the world. And these 
programs also demonstrate the wonderful system of agriculture 
that we have, the expertise and the technology and in ag land 
with our farmers' hard work and the work that is done by our 
agribusinesses puts us in a position not just to trade with 
other countries and help provide food, but to literally give it 
away in many instances here to help people all around the 
world.
    So, those are two things that we should always keep in 
mind. And that second one, I know the Committee works very hard 
to make sure that we do everything to sustain our way of 
agriculture and that we continue to do that on behalf of 
literally everyone around the world.
    With that having been said, I also want to associate myself 
with the comments of the folks on the Committee. We are very 
much interested in you taking products from our farmers and 
sending them to other countries, and not necessarily distribute 
cash payments. We think that that is very important.
    With that, how do you select which commodities are 
utilized, and how do you also make sure that when we send those 
commodities around the world that they are not taken by some 
foreign leader and used for other purposes. What types of steps 
do you take to protect from that type of corruption?
    I will leave it up to both of you.
    Mr. Hicks. Sure. To answer the first question, we, like as 
I said earlier, we do a basic zero-based budget approach. Every 
year we don't start with any assumption. We just look out at 
the world and see what the needs are and we do an assessment on 
what the needs are. Each context is different, so in Yemen 
there is no local market to really rely upon to provide food, 
so we must provide food from U.S. farmers. And in this case, it 
is wheat, and right now on the water we have 150,000 metric 
tons of wheat on its way to Yemen, coming directly from U.S. 
farmers. It is a very important part of our response there. We 
can't respond without it.
    Same thing goes in south Sudan. But if you look at a 
different context, like in Lebanon or Jordan, most of the 
refugees from Syria in those two countries are dispersed in 
urban areas. They are not in a central location, so it would be 
impossible to utilize a centralized food distribution program 
with large bags of commodities to reach such a dispersed 
population. It also has a very vibrant market, food market 
system there, so in that context we wouldn't be able to meet 
the refugees with U.S. commodities, but we can meet them using 
debit cards at local markets.
    And when it comes to the oversight, it again depends on the 
commodity, but in places like Yemen we utilize third-party 
monitoring. We have hotlines that are very successful and 
people calling in to let us know if there are problems. In 
places like Jordan and Lebanon, the debit cards use electronic 
banking systems where we are immediately alerted if anyone is 
trying to abuse those systems.
    It depends on the context and the modality, but we have a 
whole buffet of options that we can use to conduct very 
rigorous oversight at every stage of the response.
    Mr. Isley. Yes, and with respect to the two USDA programs, 
both of those are implemented with in-kind commodities. From 
McGovern-Dole we have a list of eligible commodities that are 
appropriate to go into school meals based on nutrition. There 
is a set of criteria if we want to add eligible commodities to 
that list that is in the interagency process.
    For Food for Progress it is a little more complicated 
because it is a monetization program, so we purchase the U.S. 
commodities, donate those in the local markets that are then 
sold to generate the money to implement those programs. There 
are several criteria for that in terms of rate-of-return at 
least 70 percent. But also one that is very important and 
impacts seasonality and other things, is we have to undergo a 
study to ensure there is no disruption to the local 
marketplace. It is a combination of those factors in terms of 
which commodities we select, but we implement fully with 
commodities we purchase.
    Mr. Hagedorn. Do you account when certain ag sectors are 
maybe at a little bit of a low point and there is excess 
production? Would that be an area where you would go in and 
especially try to utilize those?
    Mr. Isley. Well, yes. That could be one of the criteria. It 
is also the criteria in terms of impact on the ground where we 
are implementing in terms of what the market reaction would be 
to the sale of that size of commodity purchases. And often we 
are working with host governments in that respect as well.
    Mr. Hagedorn. Thanks. My time is up. I yield back.
    The Chairman. The gentleman yields back.
    And the chair will now recognize the gentlewoman from 
Minnesota, Ms. Craig.
    Ms. Craig. Thank you so much, Mr. Chairman. And thank you 
both for being here this morning. It is always a pleasure to 
talk about farm bill oversight and the need for international 
food aid.
    I am fiercely passionate about career skills and technical 
education and finding ways to add opportunities for our young 
people in agriculture in particular.
    Section 3307 of the farm bill creates the International 
Agricultural Education Fellowship Program to build capacity for 
school-based ag education in developing countries. Our public 
commitment to land-grant universities and school-based ag 
education programs such as 4-H and FFA help prepare American 
students for careers in agriculture.
    Mr. Isley, what steps has the agency taken to develop this 
fellowship program and ensure its focus remains on school-based 
agricultural education capacity-building efforts?
    Mr. Isley. Thank you, Congresswoman. I am equally 
passionate about child education in agriculture. I was a member 
of 4-H, I was a member of FFA growing up on a farm in Iowa, so 
I understand the importance of those.
    I have had meetings with people that are familiar with this 
program. USDA stands ready, willing, and able to implement. Of 
course, as you know, it was not appropriated money in the 2019 
period. We are awaiting for, if that appropriation occurs, and 
will rapidly implement and provide that assistance as laid out 
in the farm bill. It is just a matter of receiving the 
appropriation and we will swiftly put in place the program when 
necessary to implement.
    Ms. Craig. I look forward to hopefully seeing that happen 
and to that swift implementation.
    I would also just like to continue this dialogue and 
continue working with the agency on this important issue. Thank 
you again both for being here.
    And, Mr. Chairman, I will yield the remainder of my time.
    The Chairman. All right. The gentlewoman yields the 
remainder of her time, and the chair will now recognize the 
gentleman from Kansas, Mr. Marshall.
    Mr. Marshall. Okay, thank you so much, Chairman Costa.
    Kansas has a long, long reputation for working with Food 
for Peace and McGovern-Dole. The Food for Peace actually 
started in 1953 when a farmer from Cheyenne County, Kansas, 
Peter O'Brien, had the concept of sharing our commodities with 
people in need around the world. He went through his local 
county farm bureau, the state farm bureau, the American Farm 
Bureau Federation, and eventually a Senator from Kansas, Andy 
Schoeppel, introduced it and it became legislation in 1954, 
signed by then, another Kansan, President Dwight D. Eisenhower. 
And of course the McGovern-Dole bill is a phenomenal 
legislation that supports almost a billion dollars a year 
helping millions of people.
    With that in mind I would like to submit for the record, 
Mr. Chairman, a letter from 26 nonprofit, non-governmental 
organizations working to end hunger, poverty, and malnutrition 
throughout the world in support of our House Resolution 189, 
which recognizes the importance of sustaining United States 
leadership to accelerating global progress against maternal and 
child malnutrition.
    [The letter referred to is located on p. 37.]
    Mr. Marshall. As an obstetrician, those first thousand days 
are so important, from the moment of conception being day 
number one, the moment of conception when the neurological 
systems in those babies are developing inside the woman's womb, 
all the way to breastfeeding, making sure that mom has proper 
nutrition in those first thousand days of life. I want to 
submit these for the record, please.
    My question is, always in Congress we are happy to help 
other people out, want to make sure that we are doing this as 
most efficiently as possible, and one of my concerns is that 
indeed we are using agriculture products made here, and that is 
obviously a theme going on around here. I am trying to go back 
to the big picture. It looks like a lot of the cash is spent in 
emergency situations. And my question is, do you all--I worked 
with Rotary, something called a shelter box, and we didn't know 
exactly where the emergency was going to happen, but you could 
pretty much count on there was going to be one or two in 
Africa, the Middle East, the Far East, Central America, the 
Caribbean. We would have warehouses of these shelter boxes 
ready and waiting. Do we have warehouses like that across the 
world full of commodities ready to respond as opposed to always 
just throwing dollars at it?
    Mr. Hicks. Excellent question. We absolutely do preposition 
commodities. There are different types of responses. They are 
all emergency responses. Some of them are these long protracted 
conflicts, like in Syria and Yemen, but some of them are sudden 
onset that happen very quickly like hurricanes like we had in 
the Caribbean with Dorian or the earthquake a few years ago in 
Haiti. And so we have to be ready for everything. Again, 
context matters. In certain circumstances we are going to need 
a lot of commodities to respond and if we don't have them 
already nearby we can glean into what we have----
    Mr. Marshall. Could you get us a map of where those are 
staged at?
    Mr. Hicks. Of course. There is Djibouti, Durban, Malaysia 
and Houston are where our warehouses are, but I can provide you 
information on the numbers and kind of how we utilize those.
    Mr. Marshall. If we had more warehouses, would we be able 
to use more American commodities?
    Mr. Hicks. If we needed more warehouses, we would procure 
more warehouse space. Right now we are operating at the most 
efficient capacity that we can have for prepositioning versus 
actually using the commodity.
    Mr. Marshall. Well, what else could we do to use more 
American commodities as opposed to cash?
    Mr. Hicks. The costs that go into using commodities, a lot 
of it is security, a lot of it is transportation. In fact, half 
of it is transportation, [storage] and handling plus the 
administrative costs, so anything we can do to reduce those 
costs. Having to rely more on U.S. flag vessels, for example. 
They are twice as expensive as normal vessels from other 
countries. That is a significant driver. Security is a 
significant driver. It is the overhead costs that prevent us 
from using more commodities in title II.
    Mr. Marshall. Last question: Could you get us a graph of 
since its conception in 1954, year-to-year basis, how much of 
the budget is being spent on Kansas--no, Kansas--American 
commodities versus cash. And I am just trying to get a feel for 
where we are today compared to a decade ago.
    Mr. Hicks. Sure, just real quickly, title II is only U.S. 
commodities, so except for about one percent is used for the 
flexibility, the only cash comes from the IDA account which is 
a separate account, and that started probably around 2009 or 
2010.
    Mr. Marshall. Okay. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back. His time has 
expired. And the chair will now recognize the gentleman from 
Pennsylvania, Mr. Thompson.
    Mr. Thompson. You skipped Ms. Plaskett.
    Ms. Plaskett. No, that is okay.
    The Chairman. Oh, I am sorry.
    Ms. Plaskett. No, that is fine.
    The Chairman. No, no, no, we are glad to have you here. 
Excuse me. The chair recognizes the gentlewoman, please.
    Ms. Plaskett. Yes. Good afternoon, gentlemen. Good morning, 
gentlemen.
    Mr. Isley. Good morning.
    Ms. Plaskett. I wanted to ask a couple of questions about 
Food for Progress, and I was hoping that some of you could tell 
us, either of you could tell us, as individual food programs 
conclude, how is the team working to bridge those efforts into 
mutually productive training technology relationships?
    Mr. Isley. Well, thank you, Congresswoman. And that is a 
key objective is to ultimately bridge to trading relationships.
    We have numerous examples in terms of the Food for Progress 
Project's objectives that fit that objective. The sanitary and 
phytosanitary objectives of some of the programs establish or 
help establish regulations in country. This support trade 
enables our farmers to utilize the technology that is approved 
in the U.S. to be ultimately traded with those partners. We 
have projects that are implementing spice, coffee, cacao, that 
don't directly compete with U.S. agriculture that ultimately 
are available for purchase from a lot of our U.S. companies to 
utilize within the United States on their food processing and 
ultimate sale. Those are a couple key examples.
    The programs also that are extraordinarily important but 
smaller are Cochran and Borlaug, the Fellowship Exchange 
Programs where we are working with key thought leaders in 
foreign countries around adoption of technologies and some of 
the food safety production agriculture practices that we 
implement in the U.S. They take those back to host countries, 
implement those, and we continue to stay engaged with them 
throughout their careers that build those relationships that 
are critical ultimately to trade.
    Ms. Plaskett. Do you do any of that in the Caribbean Basin?
    Mr. Isley. Yes. We have projects, I believe, in the 
Caribbean Basin.
    Ms. Plaskett. I would love to get some information about 
that, as well.
    Mr. Isley. Okay. We will follow up on that.
    [The information referred to is located on p. 44.]
    Ms. Plaskett. Thank you. And then, Mr. Hicks, I wanted to 
ask you if you could provide some examples in Food for Peace in 
recent situations where in-kind food aid has been the most 
effective source of aid to meet the demands of the region in 
need.
    Mr. Hicks. Sure. I have mentioned Yemen several times, but 
Yemen is a great example of where we don't have other options, 
but we have to use U.S. commodities. When it comes to 
nutrition, our nutrition programs use U.S. peanut-based 
products to do therapeutic foods for that first thousand days 
that was mentioned earlier. And in a lot of contexts like in 
Ethiopia and other places, we have a mixture and it really just 
depends on if there are any other--if there aren't other 
options, we have to use U.S. commodities.
    Ms. Plaskett. Yes.
    Mr. Hicks. And so it is context-specific, but a lot of the 
countries where we do respond, we use a mixture of everything. 
The needs are growing. They are not shrinking, and so we have 
to use every single dollar that you give us. We have title II 
which is for U.S. commodities. We have IDA which is market-
based responses. We are going to use every single dollar you 
give us because the need is huge, but we have to look at the 
responses to be able to use the, wherever the modality is going 
to get us the farthest, what can we use to feed the most people 
in each response.
    Ms. Plaskett. Yes.
    Mr. Hicks. That flexibility and efficiency that drives our 
decision.
    Ms. Plaskett. And if you could tell me, Mr. Isley, what are 
the lasting impacts on the programs where they build technical 
capacities for local innovation?
    Mr. Isley. Well, there are many lasting impacts in terms of 
the targeted objectives under Food for Progress. As indicated, 
we specifically try to build with the foreign governments' 
regulatory systems and processes that are very similar that 
provide food safety, that provide standardization, that allow 
trade among the U.S. with them and other countries. They also 
develop agriculture sectors. They develop the capacity of those 
agricultural sectors that provide stability for those local 
farmers. I mentioned spices, coffee, cacao.
    Ms. Plaskett. Yes.
    Mr. Isley. Some of those displace alternatives that are 
less palatable like drugs and other things and provide that 
economic stability and local market opportunities for the 
farmers there.
    Ms. Plaskett. Thank you. Thanks for the time and thank you 
for the work that you are doing.
    I yield back.
    The Chairman. Well, I thank the gentlewoman and her 
question as it relates to the comments of your efforts in the 
Caribbean. I think we are all interested in.
    The Representative from the American Virgin Islands has 
told us firsthand of the devastation that they have felt as a 
result of the hurricane and still are recovering from. And so 
it is other parts of the Caribbean that have also as well been 
impacted, but we also need to take care of our own citizens and 
we can and should do a better job, and we thank you for your 
valued input in all of these areas.
    The chair will now recognize the gentleman from 
Pennsylvania, Mr. Thompson, for the second time.
    Mr. Thompson. Mr. Chairman, thank you. Thank you, Ranking 
Member, and thank you gentlemen for being here. Thank you for 
your leadership with these programs. These are the programs 
that you have been entrusted to assist in leading are 
incredibly important, obviously. Important part of the farm 
bill really deals with food insecurity.
    I have had the opportunity to visit the warehouse in 
Djibouti, Africa, and quite frankly, that food is pretty 
effective diplomacy. And the way it is labeled, the American 
flag, the nutrition, it is most important the nutrition that is 
inside those packages, but how they are packaged as well and 
labeled are incredibly important.
    I have been to Yemen, and so, we know that how--I have seen 
the, in countries such as Djibouti, Africa and Yemen, other 
places, I have seen the end result of food insecurity and it is 
not good. And I know that our mission is about dealing with 
hunger, but I was curious to get just some quick responses from 
each of you, your thoughts of in serving the greater good and 
addressing hunger, what other positive outcomes are we seeing 
in those countries? Because I believe there are some real 
tangible deliverables that happen as a result of these programs 
beyond making sure that individuals and families have access to 
nutrition and have achieved food security.
    Mr. Hicks. Sure. I would love to answer that question. 
Thank you.
    When people are trying to escape the conflicts and the 
disasters, they are on the run and they are going to keep 
running until they find shelter and food and a safe place away 
from the conflict. And so if we are able to provide food closer 
to where they are at, they are not going to keep running and 
destabilize areas where we have very keen national security 
interest, so we definitely have a stabilizing effect. But there 
are other aspects of title II that have long-lasting change 
effects on the population, and I want to talk a little bit 
about the non-emergency side that you guys also authorize.
    Mr. Thompson. Right.
    Mr. Hicks. And have oversight of. This is where we are 
spending development funding that you provide. We are spending 
development funding to places where there is recurrent shocks 
like drought, for example, and we are teaching those 
communities how to adapt so they don't fall into humanitarian 
need. And that is a very important piece of the program that 
you all administer and provide for us. It is our way of 
preventing future hunger and future problems. It is a 
preventative measure and it is also our way to connect the 
programs that you guys authorize into the greater development 
piece. It is that resilience piece that links our programs into 
the other development programs that get communities on their 
journey to self-reliance, which is something Administrator 
Green has made a very top priority.
    The programs you have, yes, we are resolving the hunger 
issue, but there is national security, there is stabilization, 
we are creating markets, we are creating communities that are 
resilient and able to withstand shock. It is having a very 
significant impact in the world.
    Mr. Thompson. Mr. Isley?
    Mr. Isley. Yes, thank you very much. Going back to the Food 
for Progress Program, one of the key stabilities is economic 
stability and building capacity of agriculture industries in 
some of these countries. Northern Triangle is an example. 
Pakistan, we have an aquaculture project going where they are 
developing a whole source of protein through aquaculture, which 
ties directly to soybean meal coming from the United States. It 
has expanded trade in soybeans. We are now up to $700 million 
of exports of U.S. soybeans to Pakistan, and that is one just 
example of how that can be developed and built.
    But it is that economic stability of teaching those 
practices, and also our technologies that we help implement, 
provide environmental stability around preventing soil erosion, 
water conservation and things of that nature; long-term lasting 
effects that provide for the sustainability of agriculture in 
those locations.
    Mr. Thompson. My observation, having been in countries of 
Iraq, Afghanistan, the two that I mentioned, Pakistan, where 
you have food insecurity, you have civil unrest, you have not 
just hunger but you wind up with infant mortality, with 
illiteracy, and quite frankly, it creates conditions where 
terrorism is fostered. Our investments that we proudly 
authorize within the farm bill process are the return on 
investment of that of working towards stability, preventing 
terrorism which is something that we are going to have to live 
with as a world for some time. We try to manage that and 
mitigate it and the programs we have in the farm bill are to go 
a long way.
    Just one last question, just a yes or no. Just kind of 
curiosity. Do either of the agencies partner with our Institute 
for Peace, which is not authorized through the Agriculture 
Committee, it is through the Education and Labor Committee? I 
would recommend because of what you do you all need to be 
talking, because Institute for Peace is about conflict 
resolution and identifying the, sort of these variables, and 
food security is obviously a part of that.
    Thank you, Chairman.
    The Chairman. Was that a nod that the two of you----
    Mr. Hicks. USAID definitely partners with USIP on all kinds 
of issues including conflict issues. Yes.
    Mr. Isley. Not that I am aware of in terms of USDA's 
programs.
    The Chairman. All right. All right.
    Ms. Plaskett. Mr. Costa, may I just say, just your 
indulgence?
    The Chairman. Yes.
    Ms. Plaskett. Mr. Thompson talking about those ROIs was 
really important to our nation in these food programs, and I 
just want to also add that we just received a blessing by being 
that for the rest of the world. Thank you for recognizing that.
    The Chairman. We thank the gentlewoman for her comments.
    The, I believe the last Member of the Subcommittee here, 
although he didn't make it before 11 o'clock and it was kind of 
a close call here by your colleagues as to whether or not you 
should be given 5 minutes. But the chair is in a holiday 
spirit, so I recognize the gentleman from Nebraska for 5 
minutes.
    Mr. Bacon. Well, Mr. Chairman, thank you, and I appreciate 
your holiday spirit. We embrace it.
    I was in an Afghanistan hearing from the Commander of 
Afghan, our forces in Afghanistan, so, but this also important.
    I will tell you that Nebraska is proud of being like the 
lead exporter for beef, and go up and down the line and 
agriculture is one of our nation's strengths and it is a source 
of our nation's power and prosperity. And I just tell you, our 
farmers and our agriculture sector in Nebraska are proud to 
help feed the world, and we prefer not handing a check. We like 
providing our surplus, which we have. And so I really 
appreciate y'all's part in doing that. It is a blessing, as was 
just mentioned, that we can help so many people out of hunger 
and poverty and be a, just a real aid to millions of people 
across this globe.
    My first question is for Mr. Hicks. There is a crucial 
coalition of American farmers, shippers, non-governmental, and 
international organizations who work together to deliver food 
aid. How does USAID coordinate and accept input from all these 
stakeholders?
    Mr. Hicks. That is a great question. Yesterday we actually 
held, the way we coordinate, it is called the Food [Aid] 
Consultative Group, where we bring in the maritime industry and 
the commodity groups and USDA, as well as our implementing 
partners. It is something we do [bi]annually where we have 
various committees that look at different issues and we 
exchange the best and latest data and information and 
techniques that we do on a regular basis. And we just did it 
yesterday. We just chaired it yesterday, Ken and I.
    Mr. Bacon. Okay, thank you very much. And turning over to 
our USAID leadership. Can you give some examples of typical 
McGovern-Dole Food for Education Program and how these programs 
help achieve U.S. assistant goals?
    Mr. Isley. Yes, I would be happy to. We awarded eight 
McGovern-Dole projects this past year based on the priority 
countries. I gave an example earlier in terms of a project we 
have going in Burkina Faso, and the number of children that are 
impacted by that at 265,000. There was also mentioned earlier 
in the hearing, the project in Kenya that World Food Programme, 
who is one of our implementing partners on McGovern-Dole, has 
implemented for many years before USDA assistance. We got 
involved in 2004 and worked very closely with the Government of 
Kenya to graduate that program and turn it over to them, and 
that is continuing through funding through Kenya.
    Numerous projects, numerous programs throughout the world 
that we implement with World Food Programme, Catholic Relief 
Services, many other implementing partners to deliver those 
nutritious meals.
    Mr. Bacon. Thank you very much. And I will just close again 
with a statement. America has the ability to help so many in 
need and so I appreciate you both for giving Nebraska farmers 
and ranchers and our ag industry a chance to be a part of that, 
and a force for good, and we have the ability to do it, so we 
ought to.
    Thank you.
    The Chairman. I thank the gentleman from Nebraska, and I 
was making light earlier. Obviously your meeting, getting with 
Afghanistan, is important. I have been there multiple times and 
it is a real challenge for our country as we try to assess 
where we are in that difficult part of the world.
    I will defer to the Ranking Member of the Subcommittee now 
for a closing statement and then I will conclude the hearing.
    Mr. Rouzer. Thank you, Mr. Chairman, and I just want to 
thank our witnesses for being here today.
    This is a very important topic. These programs are 
critically important to our maintaining and enhancing our 
influence in the world, in addition to the humanitarian aspect 
and the economic development aspect of them. We take this very, 
very seriously, and as I stated and Ranking Member Conaway 
addressed and Chairman Costa has too, there is strong, strong 
bipartisan support for as much in-kind food aid as possible, 
and I look forward to working with you to enhance that aspect 
as we move forward.
    And if I can add, Mr. Chairman, just a quick request from 
both of you. If you can, for example, and to preface this and 
give you an idea of what I am looking for, when a bank makes a 
loan they know there is a two percent default, three percent 
default, whatever it may be. I would be curious to get the 
information from you all in terms of in-kind food aid, what 
percentage has been abused or misused, and then also from a 
cash standpoint or voucher standpoint, what percentage have you 
identified has been abused or misused? I would like to know 
those metrics and how they stack up over time.
    With that, I yield back.
    The Chairman. If you could provide that information to the 
Subcommittee so that we can share that, the Ranking Member and 
I, with the full membership of the Committee? Obviously, there 
is an interest in that as well as some of the other information 
that we have requested from you. If you can coordinate that.
    [The information referred to is located on p. 44.]
    The Chairman. I would like to make a close, but before I do 
I would like to make a statement that probably everyone is 
aware of at this point in time because it was released I 
believe at about 10:30, but we reached an agreement, Chairman 
Richie Neal from House Ways and Means Committee, with the 
Administration on the United States-Mexico-Canada Trade 
Agreement. There were important negotiations that took place 
here over recent months to try to ensure that issues of 
enforcement, production of American workers, a monitoring 
system, accountability, and preserving Congress's power to 
legislate in this area as we all work to ensure fair 
competition was reached, and we are pleased it was reached. And 
my understanding is that we will get a chance to vote on this 
bipartisan agreement next week, which is a good sign as we see 
the new year coming soon.
    In closing, I would like to indicate to both witnesses 
today, we thank you for your good work and for your efforts. We 
will obviously continue to provide our oversight role as it 
relates to USDA's efforts in the International Food Assistance 
Program. Some of the points that we are talking about in terms 
of the various types of assistance that we use, and which is 
most effective, will be a continuing focus.
    And we will also monitor the implementation of the new 
flexibilities that we provided last year in the reauthorization 
of the farm bill, which was part of our efforts to make our 
efforts more effective in the totality of the food aid that we 
provide, as I noted, almost $4 billion in the last fiscal year, 
and how it relates to local regional procurement.
    When we talk about all the various modes of assistance that 
we provide, as I noted, as the Chair of the Transatlantic 
Legislators' Dialogue, I am very interested in, we had this as 
part of our conversation with our allies within the European 
Union that we coordinate, because when we coordinate well we 
are more effective at providing that assistance where it is 
needed.
    While it wasn't discussed here today, although it was noted 
that transportation is another important question, and the cost 
of that transportation obviously is important as we try to get 
that food to where it is needed as efficiently and as 
effectively as possible. And that is something that we need to 
have a further discussion about.
    Overall, we noted this morning that there is strong 
bipartisan support as the Ranking Member stated in his close. 
And we will look forward to continuing to find ways to promote 
America's efforts as we put our best foot forward in terms of 
our responsibility as the richest country in the world to 
provide support where it is most needed for humanitarian 
efforts, whether it be as a result of civil strife or natural 
disasters or the impacts of climate change. All of the above 
clearly are things that we have a role and a responsibility to 
play, and American farmers, ranchers, dairymen and -women 
throughout the country feel a great sense of pride when they 
can not only produce enough of the finest food in the world for 
America's dinner table, but also enough to provide for others 
who are in hunger and who need it.
    And so for all of those reasons, we are moving forward with 
the resolution which is a bipartisan resolution as it relates 
to our responsibility and role that we play, and we will 
continue to work with all of you. Please provide that 
information.
    And we have, what is it, how many working days under the 
Rules of the Committee for the record today's hearing? The 
record will be open for 10 calendar days. We will receive any 
additional material, supplementary written responses from 
witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Livestock and Foreign 
Agriculture is now adjourned.
    Thank you for your testimony.
    [Whereupon, at 11:32 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    Submitted Letter by Hon. Roger W. Marshall, a Representative in 
                          Congress from Kansas
November 12, 2019

 
 
 
Hon. Nancy Pelosi,
Speaker,
U.S. House of Representatives,
Washington, D.C.;
 
Hon. Steny H. Hoyer,                 Hon. Kevin McCarthy,
Majority Leader,                     Minority Leader,
U.S. House of Representatives,       U.S. House of Representatives,
Washington, D.C.;                    Washington, D.C.;
 
Hon. James E. Clyburn,               Hon. Steve Scalise,
Majority Whip,                       Minority Whip,
U.S. House of Representatives,       U.S. House of Representatives,
Washington, D.C.;                    Washington, D.C.
 

    Dear Speaker Pelosi, Majority Leader Hoyer, Minority Leader 
McCarthy, Majority Whip Clyburn, and Minority Whip Scalise:

    As nonprofit, non-governmental organizations working to end hunger, 
poverty, and malnutrition throughout the world, we join together to 
support House Resolution 189 (H. Res. 189), a resolution recognizing 
the importance of sustained United States leadership to accelerating 
global progress against maternal and child malnutrition and supporting 
United States Agency for International Development's commitment to 
global nutrition through its multi-sectoral nutrition strategy. This 
resolution unanimously passed out of the House Foreign Affairs 
Committee on Wednesday, October 30.
    Maternal and child nutrition, especially in the 1,000 days between 
a woman's pregnancy and her child's second birthday, is foundational to 
our shared goals of prosperity and well-being for all people, 
regardless of where they were born.
    While child mortality has been cut in half over the last decades, 
malnutrition continues to be responsible for nearly \1/2\ of child 
deaths each year. Nearly one in four children around the world suffers 
from stunting, a consequence of chronic childhood malnutrition. This 
impairs a child's physical development as well as her brain development 
during this critical time for growth. Wasting, or acute malnutrition, 
continues to threaten the lives of 49 million children, yet only \1/4\ 
of malnourished children have access to treatment.
    We urge you to take up and pass this strongly bipartisan global 
nutrition resolution, which, as of this date, has 140 cosponsors. 
Passage of this resolution would recognize the importance of continued 
U.S. leadership in developing innovative nutrition solutions to save 
and improve lives. Now is the time to build on America's legacy as a 
leader in the fight against global hunger, disease and poverty.
            Sincerely,

 
 
 
1. 1,000 Days                        14. Helen Keller International
2. Action Against Hunger             15. Harvest Plus
3. American Academy of Pediatrics    16. Interaction
4. Bread for the World               17. John Snow, Inc.
5. CARE USA                          18. Management Sciences for Health
6. Church World Service              19. RESULTS
7. Edesia Nutrition                  20. RTI
8. Elizabeth Glaser Pediatric AIDS   21. Save the Children
 Foundation
9. Farm Journal Foundation           22. The Hunger Project
10. Feed the Children                23. UNICEF USA
11. FHI 360                          24. WFP USA
12. Food for the Hungry              25. Women of the Evangelical
                                      Lutheran Church in America
13. Global Communities               26. World Vision
 

                                 ______
                                 
 Submitted Legislation by Hon. Roger W. Marshall, a Representative in 
                          Congress from Kansas
                          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Supplementary Material Submitted by Ken Isley, Administrator, Foreign 
          Agricultural Service, U.S. Department of Agriculture
Insert 1
          Ms. Plaskett. I wanted to ask a couple of questions about 
        Food for Progress, and I was hoping that some of you could tell 
        us, either of you could tell us, as individual food programs 
        conclude, how is the team working to bridge those efforts into 
        mutually productive training technology relationships?
          Mr. Isley. Well, thank you, Congresswoman. And that is a key 
        objective is to ultimately bridge to trading relationships.
          We have numerous examples in terms of the Food for Progress 
        Project's objectives that fit that objective. The sanitary and 
        phytosanitary objectives of some of the programs establish or 
        help establish regulations in country. This support trade 
        enables our farmers to utilize the technology that is approved 
        in the U.S. to be ultimately traded with those partners. We 
        have projects that are implementing spice, coffee, cacao, that 
        don't directly compete with U.S. agriculture that ultimately 
        are available for purchase from a lot of our U.S. companies to 
        utilize within the United States on their food processing and 
        ultimate sale. Those are a couple key examples.
          The programs also that are extraordinarily important but 
        smaller are Cochran and Borlaug, the Fellowship Exchange 
        Programs where we are working with key thought leaders in 
        foreign countries around adoption of technologies and some of 
        the food safety production agriculture practices that we 
        implement in the U.S. They take those back to host countries, 
        implement those, and we continue to stay engaged with them 
        throughout their careers that build those relationships that 
        are critical ultimately to trade.
          Ms. Plaskett. Do you do any of that in the Caribbean Basin?
          Mr. Isley. Yes. We have projects, I believe, in the Caribbean 
        Basin.
          Ms. Plaskett. I would love to get some information about 
        that, as well.
          Mr. Isley. Okay. We will follow up on that.

    A McGovern-Dole (MGD) program in Haiti that was awarded to the 
World Food Program[me] in FY19 plans to utilize 7,600 metric tons of 
U.S. commodities to provide school meals for more than 100,000 children 
across more than 400 schools. The program, which follows a previous MGD 
award in Haiti, is designed to improve the literacy of school age 
children and the quality of instruction in classrooms through teacher 
trainings and an early grade reading curriculum; promote good nutrition 
and water, sanitation, and hygiene and school level interventions; and 
strengthen national capacities and institutions with a view of enabling 
a lasting school feeding program.
    USDA currently administers two active Food for Progress (FFPr) 
projects in the Dominican Republic: ``Export Quality'' (2015-2019) and 
``Safe Agricultural Food Export'' (2015-2020). Together, these programs 
are monetizing 47,390 MT of U.S. soybean meal, crude degummed soybean 
oil and yellow grease tallow to fund activities. The Export Quality 
program works to improve product quality, increase production 
efficiency, increase the value of post-harvest products, and improve 
marketing and market linkages in the strategic value chains of avocado, 
cocoa, pineapple, and greenhouse and oriental vegetables. The Safe 
Agricultural Food Export Program works with dairy and beef sector 
across 11 provinces to improve agricultural productivity for livestock.
Insert 2
          Mr. Rouzer. . . .
          And if I can add, Mr. Chairman, just a quick request from 
        both of you. If you can, for example, and to preface this and 
        give you an idea of what I am looking for, when a bank makes a 
        loan they know there is a two percent default, three percent 
        default, whatever it may be. I would be curious to get the 
        information from you all in terms of in-kind food aid, what 
        percentage has been abused or misused, and then also from a 
        cash standpoint or voucher standpoint, what percentage have you 
        identified has been abused or misused? I would like to know 
        those metrics and how they stack up over time.
          With that, I yield back.
          The Chairman. If you could provide that information to the 
        Subcommittee so that we can share that, the Ranking Member and 
        I, with the full membership of the Committee? Obviously, there 
        is an interest in that as well as some of the other information 
        that we have requested from you. If you can coordinate that.

    Each Food for Progress, McGovern-Dole, and Local and Regional 
Procurement program includes a requirement for semi-annual performance 
reports. These reports are reviewed by our professional monitoring and 
evaluation staff. Further, USDA conducts regular site visits to ensure 
compliance. Specifically, our compliance staff conducts headquarters-
based financial monitoring visits with our implementing partners; our 
monitoring and evaluation staff conduct in-the-field, performance-based 
monitoring visits; and our program team conducts program and 
administrative-based monitoring visits to the projects in the field. As 
a result of these compliance visits and the reviews of the semi-annual 
reports, our programs have not incurred any direct defaults or clear 
abuses of funds.
    Our programs do, however, encounter periodic commodity losses that 
can be attributed to various factors ranging from theft, to shipping 
and handling issues, and other unforeseen circumstances or incidents. 
On an annual basis, our programs' commodity losses average less than 
two percent of the overall tonnage. If an implementing partner incurs a 
commodity loss in excess of $1,000, they are required to report it 
within 15 days. At that point, our program analysts will determine an 
appropriate course of action. For damaged commodities, this will 
require a plan from the implementing partner for destruction of said 
commodities. For theft or other potentially preventable incidents, the 
implementing partner will be required to develop a plan to mitigate the 
likelihood of a similar event reoccurring. This entire process is also 
included as part of the semi-annual reports.
                                 ______
                                 
  Supplementary Material Submitted by Trey Hicks, Director, Office of 
   Food for Peace, Bureau for Democracy, Conflict, and Humanitarian 
         Assistance, U.S. Agency for International Development
          Mr. Peterson. . . .
          A question I have, I don't know which one of you can answer 
        this, if you can. Dry pea and lentil prices have dropped 
        between 40 and 50 percent since we have had these trade tariffs 
        put in place, and peas and lentils are a staple in a lot of 
        international food assistance programming, and they have been 
        since the 1980s because they are widely eaten in diets around 
        the world.
          But in recent years, Food for Peace and the McGovern-Dole 
        Food for Education Programs have purchased between 150,000 and 
        170,000 metric tons, but according to the industry estimates 
        2019 purchases of dry peas and lentils dropped to 110,000 
        metric tons without a major shift in recipient countries. Can 
        you explain to me why there was such a drop in purchases on 
        these commodities when you have extremely low prices and high 
        stock levels?
          * * * * *
          Mr. Hicks. Well, the drivers are, is, the context, and so for 
        example, in Yemen, the most appropriate commodity for the needs 
        that are driven by the demand in the context is wheat, so wheat 
        tends to be one of our higher commodities that we use because 
        of the need in Yemen is so great and there aren't other 
        alternatives for other commodities to be used in those kind of 
        contexts.
          Pulses and beans are our third-highest purchase right behind 
        wheat as well as the fortified corn-soy blends. While there 
        might be a greater availability on the market, we have to look 
        at each of the contexts and what the driving demand is for our 
        programs to determine which crops are appropriate for us, or 
        which commodities are appropriate for us to purchase.
          Mr. Peterson. Well, as I understand it, there hasn't been a 
        big shift in these recipient countries in terms of what they 
        are asking for.
          Mr. Hicks. There has been an uptick in the food insecurity in 
        Yemen, for example. We did a review an IBC review in December 
        of last year, and it did show a spike of increase of need in 
        Yemen, for example. And Yemen, again, is heavily reliant on 
        wheat commodities for the response there. Every year the 
        context does shift and change. We have sudden onsets that 
        appear, like the response in Mozambique or the response in the 
        Caribbean. And so the context is constantly shifting and 
        changing, so there is changes in context. And I am happy to 
        provide more information on----
          Mr. Peterson. Well, my time has expired, so I would 
        appreciate that if you could get me some information.

    USAID's Office of Food for Peace (FFP) purchased 103,900 metric 
tons (MT) of peas and lentils in FY 2019 (89,600 MTs of peas and 14,300 
MTs of lentils). The quantities of peas and lentils purchased since FY 
2011 are provided below:
Title II Procurement of Peas and Lentils from FY 2011-2019

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Peas and lentils are two of the twenty-five commodities eligible 
for procurement under the title II program. Food for Peace implementing 
partners select which commodities to use from these eligible items 
based on country context and need. Decisions are not based on country 
demand for a specific commodity. Food security needs assessments, 
market assessments, and gender analyses help determine the composition 
and quantity of the food assistance basket for each country. 
Implementing partners ensure proposed food and nutrition assistance 
aligns with cultural preferences and host government priorities and 
programs.
    USAID coordinates with USDA to monitor price and availability of 
title II commodities. USAID receives quarterly price estimates from 
USDA and shares these estimates with implementing partners. Final 
commodity selections are made based on all of the factors mentioned 
above, including estimated purchase price. The largest title II 
response in FY 2019 was in Yemen, which relied heavily on wheat, mainly 
procured in the United States.
                                 ______
                                 
                          Submitted Questions
Response from Ken Isley, Administrator, Foreign Agricultural Service, 
        U.S. Department of Agriculture
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
    Question 1. Food for Progress and McGovern Dole Food for Education 
programs are currently being implemented in some fragile contexts like 
Mali, Burkina Faso, and Niger. And Venezuela was also on the list of 
countries that FAS was considering programming in over the last year. 
Please describe how you work in these environments and to what extent 
you coordinate with USAID's ongoing humanitarian and development 
efforts in these more fragile contexts.
    Answer. USDA works alongside our award recipients in difficult 
environments to assist them in undertaking projects under USDA's food 
assistance programs. Whether they are U.S.-based Private Voluntary 
Organizations (PVOs) or International Organizations such as the World 
Food Program[me], these award recipients are required to provide 
updates as well as performance metrics throughout the life of 
agreements. USDA's program staff also coordinate with the U.S. Embassy 
representatives in each country where we maintain programs. USDA's 
program staff and foreign service officers working in U.S. embassies 
collaborate with host-country government officials to ensure the 
programs receive governmental support. As part of our country 
prioritization analysis and development of the Notice of Funding 
Opportunity (NOFO), USDA consults directly with USAID's Office of Food 
for Peace and the Bureau of Education to coordinate programmatic 
efforts and leverage efficiencies to increase program impact.
    During times of urgent or fragile security situations, USDA relies 
on U.S. Embassy security, including the Regional Security Officer (RSO) 
who is the principal security attache and advisor to the U.S. 
Ambassador at American embassies and consulates. If security situations 
warrant, USDA program activities can be modified depending on the RSO 
assessment of safety concerns.

    Question 2. Degraded lands and the impacts of desertification are 
increasing, threatening the food security of farmers and communities 
around the world. Please provide an explanation of the efforts your 
offices are taking to proactively tackle this issue, especially to 
promote good soil management.
    Answer. Each year, Food for Progress (FFPr) Program projects train 
over 100,000 farmers in improved farm production practices and good 
soil management techniques such as intercropping, crop rotations, 
maintaining soil cover, planting perennials, establishing live 
barriers, and installing water catchments.
    Our investment in the West African cashew sector provides one 
example. The Benin Cashew Program established nurseries to promote 
replanting and revival of old trees to maintain a live tree barrier 
that slows erosion and desertification at the foot of the Sahel in 
Benin. As part of this project, over 26,000 farmers and agricultural 
extension agents were trained on soil fertility management, water 
conservation, tillage practices, and other good soil management 
techniques.
    USAID, which is the interagency lead for the U.S. Government's 
Global Food Security Strategy, is providing a separate response.\1\
---------------------------------------------------------------------------
    \1\ See Mr. Hicks's Answer to Mr. Costa's Question 2, p. 52.

    Question 3. With several countries around the world having been 
declared a famine or on the verge of being declared a famine, please 
share a detailed explanation on how you prioritize the limited 
resources available.
    Answer. USDA food assistance programs are authorized as development 
programs and not targeted at countries on the verge of, or already in, 
a famine environment. USAID programs, such as Food for Peace, are 
designed to address these immediate humanitarian needs. USAID is 
providing a separate response.\2\
---------------------------------------------------------------------------
    \2\ See Mr. Hicks's Answer to Mr. Costa's Question 3, p. 53.

    Question 4. Please provide a detailed explanation as to how USAID, 
USDA, and your implementing partners determine which modality is most 
appropriate for each emergency response project, and how USAID, USDA, 
and your implementing partners determine which commodity to use for in-
kind projects.
    Answer. USAID is the lead agency on emergency responses and 
deciding appropriate modalities. USDA programs promote non-emergency, 
capacity building assistance. For McGovern-Dole and Food for Progress, 
potential award recipients must justify commodities as appropriate in 
their application. USAID is providing a separate response.\3\
---------------------------------------------------------------------------
    \3\ See Mr. Hicks's Answer to Mr. Costa's Question 4, p. 53.

    Question 5. Given that USDA is in the process of streamlining the 
proposal and award process for McGovern-Dole Food for Education 
projects that use Local Regional Procurement instead of requiring 
multiple proposals, how will these changes impact McGovern-Dole 
projects that are already being implemented?
    Answer. Previous awards will operate under the terms of existing 
agreements without impact. Fiscal Year 2020 awards will be governed by 
revised program regulations. These regulations, which implement the 
authority for local and regional procurement that was added to the 
McGovern-Dole Program by the 2018 Farm Bill, will facilitate a 
streamlined process.

    Question 6. Please provide an explanation for how USDA and USAID 
obligate funding for multi-year projects, and what potential impacts 
decreases in program funding could have on funding for multi-year 
projects.
    Answer. USDA obligates funding for its food assistance programs 
through awards that enable recipients to implement projects with a 
duration of 3-5 years. Our multi-year approach is critical for creating 
sustainable investments in agriculture capacity building and school 
feeding programs. Since our programs provide for multi-year funding of 
projects, and the funding for a multi-year project is obligated in full 
upon signature of the award agreement, a decrease in future year 
funding generally will not impact USDA's ability to support a currently 
active multi-year project. USAID is providing a separate response.\4\
---------------------------------------------------------------------------
    \4\ See Mr. Hicks's Answer to Mr. Costa's Question 5, p. 54.

    Question 7. Please provide an outline of how USDA plans to solicit 
and review stakeholder input in the selection of priority countries and 
objectives for Food for Progress and McGovern-Dole Food for Education 
Programs.
    Answer. USDA will issue a Request for Information (RFI) for Fiscal 
Year 2020, seeking stakeholder input on priority countries. USDA will 
review the responses received from the RFI prior to finalizing the 
Fiscal Year 2020 priority countries. USDA will hold a public meeting on 
the selection of the priority countries and the feedback will be 
considered in our evaluation based on program guidelines.

    Question 8. Please provide an explanation of the guidance USDA 
provides to implementers on closing out Food for Progress projects in 
order to support continued success and capacity building, including 
guidance specifically related to building trade capacity.
    Answer. USDA requires award recipients to perform a final 
evaluation to document overall project activity success and impact. The 
evaluations include quantitative and qualitative data related to trade 
capacity building. The evaluations are made available to the public and 
uploaded to USAID's Development Experience Clearinghouse system for the 
purposes of continued learning and providing future programs with 
insight on how capacity building efforts can leverage past efforts and 
existing resources. In the Notice of Funding Opportunity, applicants 
are advised to leverage past, current, and planned capacity building 
projects and to avoid duplication of efforts.

    Question 9. As you noted in your testimony, the 2018 Farm Bill 
expanded the list of Food for Progress implementing eligible entities 
to include colleges and universities. Please share a detailed 
accounting for what outreach you have conducted to make these entities 
aware of their ability to participate.
    Answer. At the end of Fiscal Year 2019, U.S. Land-Grant Colleges 
and Universities (LGCUs) were visited to promote partnership 
opportunities with FAS global programs. During these visits, USDA 
highlighted LGCU eligibility to apply for Food for Progress (FFPr) 
Program awards. USDA staff visited the University of Georgia; the 
University of California, Berkley; the University of California, Davis; 
and the University of Puerto Rico, Mayaguez. Each of the universities 
have specialized programs that are relevant to FFPr thematic areas or 
have previously collaborated on FFPr projects. In visiting these 
institutions, USDA sought to understand their experiences and potential 
challenges to LGCU participation. The FFPr Program objectives, Notice 
of Funding Opportunity application process, proposal selection 
criteria, and monetization details were presented and discussed. USDA 
also provided the LGCUs with program area points of contact to reach 
with any additional questions. The new LGCU eligibility to apply for 
awards under the FFPr Program was highlighted in the FY 2019 NOFO. USDA 
will continue to provide outreach to LGCUs throughout the U.S., 
including Historically Black Colleges and Universities.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. Please provide a detailed explanation on how 
commodities are selected for donation in each local context and what 
bearing commodity price and availability have on these considerations.
    Answer. USDA includes specific requirements in the annual Notice of 
Funding Opportunity (NOFO) for the McGovern-Dole Program to ensure the 
appropriateness of the commodities selected. Applicants must offer a 
combination of USDA-approved commodities to be utilized in a food 
basket that includes at least three separate items. The requested 
commodities and ration size must address the nutritional deficiencies 
of the beneficiaries. The list of available commodities is maintained 
by the Kansas City Commodity Office and USDA requires applicants to 
provide a justification of the appropriateness of commodities selected 
for projects.
    As stated in the NOFO, each McGovern-Dole Program project is 
required to meet \1/3\ of age-appropriate daily nutritional 
requirements if one meal is provided or \1/4\ of the daily requirements 
if a snack is provided. If a preferred commodity either becomes cost-
prohibitive or otherwise unavailable, USDA works with the award 
recipient to identify a cost-effective alternative that provides the 
requisite nutritional value.
    USAID is providing the responses for Food for Peace programs 
separately.\5\
---------------------------------------------------------------------------
    \5\ See Mr. Hicks's Answer to Mr. Peterson's Question 1, p. 55.

    Question 2. Please provide a detailed accounting of the commodities 
used in Food for Peace Emergency, Food for Peace Non-emergency, Food 
for Progress, and McGovern-Dole Food for Education programs, 
disaggregated by program and country, for each of the last 5 fiscal 
years.
    Answer. A detailed accounting of the commodities used in USDA's 
Food for Progress and McGovern-Dole Food for Education programs is 
provided in Attachment 1. No local-sourced commodities were sourced 
under McGovern-Dole authority in the last 5 years. This authority 
became available in the 2018 Farm Bill, and the first funding to be 
used under this new authority will be made available in 2020.
    USAID is providing the responses for Food for Peace programs 
separately.\6\
---------------------------------------------------------------------------
    \6\ See Mr. Hicks's Answer to Mr. Peterson's Question 2, p. 55.
---------------------------------------------------------------------------
                              attachment 1

                McGovern-Dole Food for Education Program
------------------------------------------------------------------------
         Country                    Commodities             Metric Tons
------------------------------------------------------------------------
                            Fiscal Year 2015
------------------------------------------------------------------------
Africa:
  Cameroon                 Milled Rice, Pinto Beans,               1,910
                            Vegetable Oil
  Cote d'Ivoire            Fortified Rice, Vegetable              22,350
                            Oil, Yellow Split Peas
  Guinea-Bissau            Milled Rice, Pinto Beans,              12,583
                            Vegetable Oil
  Mali                     Fortified Rice, Vegetable               8,840
                            Oil, Green Split Peas,
                            Lentils
  Mozambique               Corn Soy Blend Plus                     4,810
  Mozambique               Corn Soy Blend Plus                     7,950
  Rwanda                   Corn Soy Blend Plus,                    5,195
                            Vegetable Oil
  Sierra Leone             Fortified Rice, Lentils,                3,400
                            Vegetable Oil
                                                         ---------------
    Subtotal Africa                                               67,038
                                                         ---------------
Caribbean:
  Haiti                    Bulgur, Green Whole Peas,               6,050
                            Roasted Peanuts, Vegetable
                            Oil
                                                         ---------------
    Subtotal Caribbean                                             6,050
                                                         ---------------
Central America:
  Honduras                 Corn Soy Blend, Corn Soy               13,380
                            Blend Plus, Milled Rice, Red
                            Beans, Vegetable Oil, Yellow
                            Corn
                                                         ---------------
    Subtotal Central                                              13,380
     America
                                                         ===============
    Worldwide                                                     86,468
------------------------------------------------------------------------
                            Fiscal Year 2016
------------------------------------------------------------------------
Africa:
  Guinea Bissau            Vegetable Oil, Pinto Beans,             1,258
                            Bagged Rice
  Ethiopia                 Corn Soy Blend Plus,                   19,635
                            Vegetable Oil
  Kenya                    Bulgur, Green Split Peas,              23,220
                            Vegetable Oil
  Malawi                   Corn Soy Blend Plus                    10,570
  Tanzania                 Pinto Beans, Sunflower Seed             6,200
                            Oil, Rice
                                                         ---------------
    Subtotal Africa                                               60,883
                                                         ---------------
East Asia:
  Cambodia                 Fortified Rice, Vegetable Oil           6,230
  Laos                     Lentils, Rice, Vegetable Oil            6,390
                                                         ---------------
    Subtotal East Asia                                            12,620
                                                         ---------------
Central America:
  Guatemala                Black Beans, Corn Soy Blend            19,880
                            Plus, Rice, Soybean Meal,
                            Textured Soy Protein,
                            Vegetable Oil
  Guatemala                Black Beans, Corn Soy Blend             6,230
                            Plus, Rice, Soybean Meal,
                            Vegetable Oil
                                                         ---------------
    Subtotal Central                                              26,110
     America
                                                         ---------------
Caribbean:
  Haiti                    Vegetable Oil, Bulgur, Green            6,050
                            Peas, Peanuts
  Haiti                    Bulgur, Whole Green Peas,               5,440
                            Vegetable Oil
                                                         ---------------
    Subtotal Caribbean                                            11,490
                                                         ===============
      Worldwide                                                  111,103
------------------------------------------------------------------------
                            Fiscal Year 2017
------------------------------------------------------------------------
Africa:
  Benin                    Fortified Rice, Green Split             6,610
                            Peas, Soy Fortified
                            Cornmeal, Lentils, Vegetable
                            Oil
  Republic of Congo        Fortified Milled Rice, Split            9,950
                            Yellow Peas, Vegetable Oil
  Liberia                   Split Yellow Peas, Fortified           7,520
                            Milled Rice, Vegetable Oil
                                                         ---------------
    Subtotal Africa                                               24,080
                                                         ---------------
Asia:
  Bangladesh               Soft White Wheat                        4,900
  Kyrgyz Republic          Sunflower Seed Oil, Split               2,290
                            Green Peas, Fortified Milled
                            Rice, Flour
  Laos                     Milled Rice, Vegetable Oil,             8,750
                            Lentils
  Nepal                    Fortified Milled Rice,                 15,640
                            Lentils, Vegetable Oil
                                                         ---------------
    Subtotal Asia                                                 31,580
                                                         ---------------
Central America:
  Nicaragua                Corn-Soy Blend Plus,                    4,340
                            Fortified Milled Rice, Wheat
                            (HRW), Beans, Vegetable Oil
                                                         ---------------
    Subtotal Central                                               4,340
     America
                                                         ===============
      Worldwide                                                   60,000
------------------------------------------------------------------------
                             Fiscal Year 2018
------------------------------------------------------------------------
Africa:
  Burkina Faso             Cornmeal, Lentils, Soy                  8,910
                            Fortified Bulgur, Vegetable
                            Oil
  Cameroon                 Corn-Soy Blend Plus,                    9,290
                            Fortified Milled Rice, Pinto
                            Beans, Vegetable Oil
  Senegal                  Fortified Milled Rice, Green            3,380
                            Split Peas, Soy-Fortified
                            Cornmeal, Vegetable Oil
  Sierra Leone             Fortified Milled Rice,                  6,940
                            Lentils, Vegetable Oil
  Ethiopia                 Fortified Rice, Vegetable              15,570
                            Oil, Corn Soy Blend Plus
                                                         ---------------
    Subtotal Africa                                               44,090
                                                         ---------------
Central America:
  Guatemala                Black Beans, Fortified Milled           7,740
                            Rice, Vegetable Oil
                                                         ---------------
    Subtotal Central                                               7,740
     America
                                                         ---------------
East Asia:
  Sri Lanka                Pink Salmon, Split Yellow               4,220
                            Peas
  Timor-Leste              Dark Red Kidney Beans,                  3,240
                            Fortified Milled Rice,
                            Vegetable Oil
                                                         ---------------
    Subtotal East Asia                                             7,460
                                                         ===============
      Worldwide                                                   59,290
------------------------------------------------------------------------
                             Fiscal Year 2019
------------------------------------------------------------------------
Africa:
  Guinea-Bissau            Fortified Rice, Lentils,                7,870
                            Yellow Peas, Vegetable Oil
  Malawi                   Corn Soy Blend Plus,                    5,130
                            Vegetable Oil, Fortified
                            Rice, Peanut Paste
  Mauritania               Fortified Rice, Vegetable               5,800
                            Oil, Corn Soy Blend Plus,
                            Yellow Peas, Lentils
  Mozambique               Corn Soy Blend Plus,                    6,210
                            Vegetable Oil
  Togo                     Soy Bulgur, Green Peas,                 5,060
                            Lentils, Corn Soy Blend
                            Plus, Vegetable Oil,
                            Fortified Rice
                                                         ---------------
    Subtotal Africa                                               30,070
                                                         ---------------
Caribbean:
  Haiti                    Black Beans, Lentils, Soy               7,600
                            Bulgur, Fortified Rice,
                            Vegetable Oil
                                                         ---------------
    Subtotal Caribbean                                             7,600
                                                         ---------------
Asia:
  Uzbekistan               Flour, Fortified Rice, Yellow           1,590
                            Peas, Sunflower Seed Oil
  Cambodia                 Fortified Rice, Vegetable Oil           6,280
                                                         ---------------
    Subtotal Asia                                                  7,870
                                                         ===============
      Worldwide                                                   45,540
------------------------------------------------------------------------

Question Submitted by Hon. Jahana Hayes, a Representative in Congress 
        from Connecticut
    Question. Please submit a detailed plan for soliciting public input 
and reviewing feedback to inform USDA's identification of priority 
countries for Foreign Agricultural Service programs.
    Answer. In late January, USDA issued a Request for Information 
(RFI) seeking stakeholder input on country-specific opportunities and 
challenges for McGovern-Dole. USDA is reviewing the responses received 
from the RFI, prior to finalizing the Fiscal Year 2020 priority 
countries. USDA intends to announce the finalized FY 2020 priority 
country list in mid-March, via publication on the FAS website. Once 
USDA releases the FY 2020 Notice of Funding Opportunity (NOFO), also 
expected in mid-March, USDA will schedule a public meeting to allow for 
public questions from stakeholders, including private voluntary 
organizations, eligible universities, and interested stakeholders 
regarding the NOFO. The meeting is scheduled to be held in early April, 
approximately 2 weeks after publication of the NOFO. This meeting will 
be publicized through the NIFA university listserv, the Food Aid 
Consultative Group, and on the FAS and FAIS websites.
    In 2019, as Food for Progress sought to develop multi-year thematic 
areas around which to focus its programming, USDA published two 
Requests for Information and then held two public sessions to deepen 
the understanding around proposed themes. Additionally, USDA published 
RFIs under FFPr in February 2019 and again in February 2020 to capture 
stakeholder input into the NOFO process. USDA is reviewing the 
responses received from the RFI, prior to finalizing the Fiscal Year 
2020 priority countries. USDA intends to announce the finalized FY 2020 
priority country list in mid-March, via publication on the FAS website. 
Once USDA releases the FY 2020 Notice of Funding Opportunity (NOFO), 
also expected in mid-March, USDA will schedule a public meeting to 
allow for public questions from stakeholders, including private 
voluntary organizations, eligible universities, and interested 
stakeholders regarding the NOFO. The meeting is scheduled to be held in 
early April, approximately 2 weeks after publication of the NOFO. This 
meeting will be publicized through the NIFA university listserv, the 
Food Aid Consultative Group, and on the FAS and FAIS websites.
Questions Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
School Meals in Protracted Crises
    Question 1. Protracted crises--the result of armed conflict, forced 
displacement, and natural disasters--are disrupting both the food 
security and education of millions of children around the world. We are 
seeing today in both Syria and Yemen, where the United Nations has 
declared system-wide Level 3 Emergencies. In these contexts, missing 
school meals has more than a physical impact on children. Chronic food 
insecurity impacts a child's ability to learn and their overall well-
being. The United Nations World Food Programme administers the majority 
of American emergency food aid.
    I was pleased to learn that earlier this year, WFP announced a 
partnership with an education nonprofit called Education Cannot Wait, 
to address this very issue. Through this partnership, the two 
organizations will work together to increase access to both quality 
education and quality nutrition for vulnerable children in emergency 
and crisis settings.
    Mr. Isley, I know USDA's Food for Education program looks to 
support similar goals. How does that program build on work done in 
emergency settings and eventually `graduate' countries from needing 
this level of fundamental assistance?
    Answer. The McGovern-Dole Program, as a development program, 
ensures that coordination with the local government and other agencies 
is established to build upon work accomplished through humanitarian 
efforts. This includes activities to support the local government in 
developing a graduation strategy and sustained handover.
USDA Technical Assistance to Build Safety Net Systems
    Question 2. U.S. policy with regard to international food 
assistance has evolved over its long history. Today, food assistance is 
linked to international stability, climate-smart agricultural 
practices, market development, poverty reduction, nutritional 
improvement, and even our own national security interests.
    The broad array of missions at USDA include many that could be used 
to address world hunger. Among them are the traditional safety net 
systems that we all recognize throughout America such as school lunch 
programs and other nutrition-based programs that meet the needs of all 
our citizens. The expertise at USDA that has developed alongside these 
programs is the best in the world. International agencies, humanitarian 
organizations, academics, and other commentators today speak of the 
importance that safety net systems can provide to make international 
food security a reality and, equally important, a permanent part of 
social and economic development throughout the world.
    The Agriculture Improvement Act of 2018 included section 3308 which 
provides for the compilation and dissemination of USDA expertise on the 
use of safety net systems as a way to promote international food 
security through the provision of technical assistance to relevant 
organizations.
    Mr. Isley, can you explain what steps USDA is taking to implement 
this provision and the date by which we should expect to see an 
announcement by USDA on when the program will become effective?
    Answer. USDA is aware of Section 3308 of the Agriculture 
Improvement Act of 2018, which authorizes appropriations for this 
purpose. In Fiscal Years 2019 and 2020, Congress did not appropriate 
funding for Section 3308 activities.
Response from Trey Hicks, Director, Office of Food for Peace, Bureau 
        for Democracy, Conflict, and Humanitarian Assistance, U.S. 
        Agency for International Development
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
    Question 1. As you noted in your testimony, the 2018 Farm Bill 
expanded the list of Food for Progress implementing eligible entities 
to include colleges and universities. Please share a detailed 
accounting for what outreach you have conducted to make these entities 
aware of their ability to participate.
    Answer. I defer to USDA to answer this question, as USDA implements 
Food for Progress.\1\
---------------------------------------------------------------------------
    \1\ See Mr. Isley's Answer to Mr. Costa's Question 1, p. 46.

    Question 2. Degraded lands and the impacts of desertification are 
increasing, threatening the food security of farmers and communities 
around the world. Please provide an explanation of the efforts your 
offices are taking to proactively tackle this issue, especially to 
promote good soil management.
    Answer. USAID's Office of Food for Peace (FFP) targets the most 
vulnerable people and communities who typically live and farm in 
degraded areas with a broad range of tools to address both the 
immediate impacts and long-term solutions to degraded lands and 
desertification.
    USAID addresses the immediate impacts by supporting short-term 
interventions to re-establish productive capacity to farmlands degraded 
by disaster. For example, after Tropical Cyclone Idai destroyed farm 
fields across Mozambique, USAID supported rapid restoration of communal 
planting areas, recovery of erosion-prevention terraces, and 
rehabilitation of soil and water management infrastructures. In 
Somalia, food-insecure farmers participated in Cash-for-Assets (CFA) 
programming to rehabilitate community rangelands which support food 
production, and to implement improved grazing practices to promote soil 
conservation. Quickly restoring productive capacity to those affected 
by weather events is integral to restoring food security and preventing 
further land degradation. In Niger and Burkina Faso, USAID supports 
rehabilitation of degraded land, soil, and water management, as well as 
land use planning to better manage resources and reduce conflict. This 
work includes partnerships with the National Aeronautics and Space 
Administration (NASA) and the United States Geological Survey (USGS) to 
take advantage of U.S. Government (USG) expertise in satellite 
information and mapping.
    USAID addresses longer-term impacts through the Global Food 
Security Strategy, including Development Food Security Activities 
(DFSAs) that layer multiple objectives over a 5 year period, targeting 
the roots of food insecurity (including mitigation of degraded lands), 
and longer-term resilience programming aimed at areas of recurrent food 
insecurity. USAID trains farmers to conserve soil, and improve 
productivity and sustainability all around the world. In Malawi, for 
example, crop rotations and mulching-enhanced crop production reduced 
soil erosion, helped conserve soil moisture, and protected crops from 
being washed away by storms. In Ethiopia, USAID supports large-scale, 
whole watershed development. This holistic approach combines soil 
conservation, water harvesting, tree planting, and community 
infrastructure development with community-driven efforts to manage the 
improved resources sustainably. Ethiopian communities have experienced 
notable improvements including reduced flood hazards, improved soil 
quality, increased ground water availability, and increased feed supply 
for livestock that benefit everyone living in the watershed.
    These longer-term efforts support the Global Food Security 
Strategy, which is implemented through Feed the Future. Feed the Future 
draws on the agricultural, trade, investment, development, and policy 
resources and expertise of a number of USG [U.S. Government] 
Departments and Agencies and their related programs (including USDA). 
USAID's Bureau for Food Security is the interagency lead for these 
long-term food security and resilience efforts, to which FFP's DFSAs 
contribute.
    Throughout its programming, FFP promotes interventions including 
permagardens, hillsides restoration to prevent erosion, agroforestry, 
farmer field schools (teaching soil and water conservation), rotational 
grazing, rangeland management, terracing, mulching, intercropping, crop 
rotations, and many more--all of which protect and/or regenerate soil. 
Layering these interventions with those to improve health and economic 
well-being helps promote the sustainability and impact of conservation 
practices that address many of the underlying causes of land 
degradation and desertification.

    Question 3. With several countries around the world having been 
declared a famine or on the verge of being declared a famine, please 
share a detailed explanation on how you prioritize the limited 
resources available.
    Answer. There are currently no countries with famine declarations, 
though the Famine Early Warning Systems Network notes that famine 
threatens South Sudan, Yemen, and northeast Nigeria in 2020, should 
conditions in those countries continue to deteriorate.
    USAID's Office of Food for Peace continuously monitors food 
insecurity levels worldwide and makes emergency funding decisions on a 
monthly basis, often to meet anticipated emergency food needs several 
months in the future. If agricultural, market, or political indicators 
improve, future emergency contributions are reconsidered. Natural 
disasters, such as hurricanes and earthquakes, and political crises 
resulting in population displacements often require immediate 
assistance to meet life-saving food needs. USAID balances these 
changing needs, adjusting programming priorities and plans to ensure 
that food assistance is reaching the most vulnerable populations 
worldwide.
    Recognizing that the United States will not and should not meet the 
need for emergency food assistance alone, the United States engages 
with fellow donors and actors in the international humanitarian 
architecture in a variety of fora, including organized coordination 
mechanisms and ad hoc gatherings. USAID is working closely with the 
U.S. Department of State to develop and implement a robust global 
burden-sharing strategy during FY 2020 that includes utilizing 
bilateral and multilateral fora to encourage other countries and 
stakeholders to take on a greater share of humanitarian assistance 
funding. Among other fora, the United States holds permanent seats on 
the executive boards of the World Food Programme (WFP) and the United 
Nations Children's Fund (UNICEF), and participates in the Food 
Assistance Convention, a 16-member donor group committed to promoting 
food security. These positions provide ongoing opportunities for donor 
engagement and coordinated evaluation of and response to needs 
worldwide.

    Question 4. Please provide a detailed explanation as to how USAID, 
USDA, and your implementing partners determine which modality is most 
appropriate for each emergency response project, and how USAID, USDA, 
and your implementing partners determine which commodity to use for in-
kind projects.
    Answer. USAID aims to use the right tools, in the right place, at 
the right time. USAID's Office of Food for Peace (FFP) makes food 
assistance decisions by using data and context from the field to 
determine which combination of tools (in-kind commodities, cash, and 
vouchers) will be most effective to combat acute food insecurity. When 
deciding which tool to use, FFP applies the following criteria: (1) 
whether the modality is appropriate, given market conditions; (2) 
whether the proposed modality and delivery mechanism is likely to be 
successful, considering the context, infrastructure, and programming 
risks; (3) whether the modality is best-suited to meet programming 
objectives; and (4) whether the modality is cost-efficient and/or cost-
effective, relative to others. Our implementing partners use these 
criteria to determine which combination of modalities to use in each 
response. The decision justification is detailed in Emergency Food 
Security Program (EFSP) applications and award documentation. The 
flexibility to use a combination of modalities allows us to spend U.S. 
taxpayer dollars efficiently and responsibly, and target in-kind 
assistance where it can be most effective.
    Our implementing partners determine which commodities are 
appropriate for in-kind programming. The implementing partners conduct 
needs assessments, market assessments, and gender analyses to determine 
the composition and quantity of the food assistance basket. They ensure 
proposed food and nutrition assistance aligns with host government 
priorities and programs and meet the demonstrated need.
    I defer to USDA to respond to how they determine which modality is 
most appropriate.\2\
---------------------------------------------------------------------------
    \2\ See Mr. Isley's Answer to Mr. Costa's Question 4, p. 47.

    Question 5. Please provide an explanation for how USDA and USAID 
obligate funding for multi-year projects, and what potential impacts 
decreases in program funding could have on funding for multi-year 
projects.
    Answer. USAID's Office of Food for Peace (FFP) provides development 
food assistance to help vulnerable communities address the root causes 
of hunger and malnutrition so people are able to feed themselves in the 
long-term. These activities aim to reduce chronic malnutrition among 
children under 5 and pregnant or lactating women, increase and 
diversify household income, provide opportunities for microfinance and 
savings, and support agricultural programs that build resilience and 
reduce vulnerability to shocks and stresses.
    For multi-year development projects, USAID first selects countries 
that meet three criteria: (1) align with the Global Food Security 
Strategy and USAID's Resilience Strategy; (2) are defined as ``low-
income'' by the World Bank; and (3) have received recurrent FFP 
emergency assistance in the past 5 years. For the countries that meet 
these criteria, FFP undertakes a comprehensive review of the 
operational context, staffing, and resource requirements associated 
with potential activities, opportunities to positively and sustainably 
influence the food security situation in-country, and the allowability 
and appropriateness of FFP resources. This diligent review informs 
country selection for multi-year development projects. Upon successful 
application, awards are incrementally funded on an annual basis based 
on the availability of funds. Awardees submit Pipeline and Resource 
Estimate Proposals (PREPS) each year, which include updated 
implementation plans and budgets for annual funding. Development 
programming levels can be adjusted as necessary to prioritize emergency 
needs. USAID also funds substantial multi-year food security and 
resilience programming through Feed the Future with Development 
Assistance funding using similar criteria.
    I defer to USDA to respond to how they obligate funding for multi-
year projects.\3\
---------------------------------------------------------------------------
    \3\ See Mr. Isley's Answer to Mr. Costa's Question 6, p. 47.

    Question 6. Given the pending reorganization of USAID, please share 
how your office view its responsibility for Food for Peace non-
emergency programs and what role will those programs fill in the 
future.
    Answer. USAID is restructuring as an Agency and, as part of this, 
is bringing together our two offices focused primarily on emergency 
response--the Office of Food for Peace and the Office of U.S. Foreign 
Disaster Assistance--into one elevated Bureau for Humanitarian 
Assistance (BHA). BHA's mission is to save lives, alleviate human 
suffering, and reduce the physical, social, and economic impact of 
rapid and slow-onset disasters by supporting at-risk populations to 
build stable foundations for their Journey to Self-Reliance. In 
addition, USAID is standing up a sister bureau, the Bureau of 
Resilience and Food Security, to address related longer-term 
development.
    Under USAID's reorganization, BHA remains responsible for all food 
assistance programming, including title II non-emergency programs. As 
BHA, we have access to remarkable technical expertise and capabilities, 
as well as diverse acquisition and assistance mechanisms. This enables 
a comprehensive and holistic approach linking relief and development 
programming in partnership with USAID Missions, other field offices, 
and other USAID bureaus. The proposed structure improves collaboration 
within BHA and across bureaus on stabilization, resilience, and food 
security. Our close collaboration with Missions will improve our 
effectiveness in addressing crises, building resilience, and providing 
more cohesive engagement on high-level policy and planning issues.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. Please provide a detailed explanation on how 
commodities are selected for donation in each local context and what 
bearing commodity price and availability have on these considerations.
    Answer. Before providing in-kind assistance, USAID and its partners 
undertake market analyses to ensure that our assistance will not have 
adverse impacts on local markets. We look at a number of factors--
including commodity prices and food availability--to determine whether 
it is appropriate to provide in-kind resources.
    There are currently 25 items eligible for procurement under the 
title II program. These food items range from wheat and sorghum to 
therapeutic peanut-based products. Many products, programming, and 
process updates are based on recommendations from the Food Aid Quality 
Review (FAQR), an ongoing stakeholder consultation process that expands 
the body of scientific and programmatic evidence and helps drive 
continuous improvements in programming and procurement. The 
implementing partners select which commodities to use from these 
eligible items, based on country context and need. Food security needs 
assessments, market assessments, and gender analyses help determine the 
composition and quantity of the food assistance basket. Implementing 
partners ensure proposed food and nutrition assistance aligns with 
cultural preferences and host government priorities and programs. 
Cooking times and the amount of water and fuel required for cooking are 
also considerations.
    USAID works in close coordination with USDA to monitor the price 
and availability of title II commodities. USAID receives quarterly 
price estimates from USDA and shares these estimates with implementing 
partners. Final commodity selections are made based on all of the 
factors mentioned above, including estimated purchase price.

    Question 2. Please provide a detailed accounting of the commodities 
used in Food for Peace Emergency, Food for Peace Non-emergency, Food 
for Progress, and McGovern-Dole Food for Education programs, 
disaggregated by program and country, for each of the last 5 fiscal 
years.
    Answer. Please see the [following] table on commodities used in 
Food for Peace's emergency and non-emergency programming, disaggregated 
by program and country, for the last 5 fiscal years.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
                               By Country
------------------------------------------------------------------------
                              FY15 Programs
------------------------------------------------------------------------
Recipient Country     Commodity Type        Metric Tons   Commodity Cost
 Name
------------------------------------------------------------------------
Afghanistan                                      34,900      $11,594,819
                      Lentils Bag, 50 Kg            710         $532,535
                      Oil, Vegetable Can,         3,270       $3,833,649
                       6/4 L
                      Wheat, Soft White          30,920       $7,228,635
Burkina Faso                                      3,000       $1,972,523
                      Corn-Soy Blend Plus           150          $86,193
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           440         $540,448
                       6/4 L
                      Peas, Yellow, Split         1,310         $709,354
                       Bag, 50 Kg
                      Rice                        1,100         $636,528
Burundi                                           5,560       $3,066,106
                      Beans, Pinto Bag, 50           20          $12,029
                       Kg
                      Bulgur, Soy--Fort.            220          $88,888
                       Bag, 50 Kg
                      Cornmeal, Soy--Fort.          750         $277,675
                       Bag--HP, 25 Kg
                      Corn-Soy Blend Plus         4,080       $2,068,783
                       Bag--HP, 25 Kg
                      Emerg[e]ncy Fd.,               50         $168,450
                       RUTF
                      Oil, Vegetable Can,           390         $422,708
                       6/4 L
                      Peas, Yellow, Split            50          $27,573
                       Bag, 50 Kg
Central African                                   4,260       $2,008,538
 Republic
                      Cornmeal, Soy--Fort.        1,700         $609,074
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           250         $309,578
                       6/4 L
                      Peas, Yellow, Split           610         $335,274
                       Bag, 50 Kg
                      Rice                        1,700         $754,613
Cameroon                                         11,950       $7,700,363
                      Corn-Soy Blend Plus           240         $137,909
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           490         $586,322
                       6/4 L
                      Peas, Yellow, Split         1,420         $757,371
                       Bag, 50 Kg
                      Rice                        9,800       $6,218,762
Chad                                             11,340       $4,628,133
                      Corn-Soy Blend Plus           660         $392,080
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,650       $2,006,553
                       6/4 L
                      Sorghum                     9,030       $2,229,500
Colombia                                          1,200         $831,525
                      Oil, Vegetable Can,           200         $246,826
                       6/4 L
                      Rice                        1,000         $584,699
Democratic Republic                              20,710      $10,663,167
 of Congo
                      Cornmeal, Soy--Fort.       16,120       $8,068,612
                       Bag--HP, 25 Kg
                      Corn-Soy Blend Plus           290         $158,236
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           840       $1,026,298
                       6/4 L
                      Peas, Green, Split            300         $118,489
                       Bag, 50 Kg
                      Peas, Yellow, Split         1,660         $938,043
                       Bag, 50 Kg
                      Sorghum                     1,500         $353,490
Djibouti                                            130          $89,990
                      Wheat-Soy Blend Bag,          130          $89,990
                       25 Kg
Ethiopia                                        311,390      $91,891,618
                      Bulgur bag, 50 Kg             610         $200,147
                      Corn-Soy Blend Plus         7,440       $4,108,371
                       Bag--HP, 25 Kg
                      Hard Red Wheat            169,340      $38,801,456
                      Oil, Vegetable Can,         5,070       $6,067,560
                       6/4 L
                      Peas, Yellow, Split        43,970      $22,714,798
                       Bag, 50 Kg
                      Rice                          130          $67,210
                      Sorghum                    84,830      $19,932,077
Guatemala                                         5,840       $3,605,361
                      Beans, Pinto Bag, 50        1,640       $1,039,593
                       Kg
                      Corn-Soy Blend Plus         1,460         $812,447
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           630         $797,091
                       6/4 L
                      Rice                        2,110         $956,229
Haiti                                             3,720       $1,989,180
                      Bulgur, Soy--Fort.          1,220         $407,204
                       Bag, 50 Kg
                      Corn-Soy Blend Plus         1,710         $883,701
                       Bag--HP, 25 Kg
                      Lentils Bag, 50 Kg            380         $250,801
                      Oil, Vegetable Can,           410         $447,474
                       6/4 L
Kenya                                            57,880      $21,064,387
                      Emerg[e]ncy Fd.,               80         $269,520
                       RUTF
                      Flour, All Purpose         10,910       $5,145,810
                       Bag, 50 Kg
                      Flour, Bread                1,870         $854,129
                      Oil, Vegetable Can,         2,120       $2,364,296
                       6/4 L
                      Peas, Yellow, Split         7,810       $3,802,720
                       Bag, 50 Kg
                      Sorghum                    35,090       $8,627,912
Liberia                                           3,170       $1,716,725
                      Oil, Vegetable Can,           320         $394,752
                       6/4 L
                      Rice                        2,850       $1,321,973
Madagascar                                        7,090       $4,035,860
                      Beans, Great                   70          $69,666
                       Northern Bag, 50 Kg
                      Corn-Soy Blend Plus         3,080       $1,617,121
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           660         $771,462
                       6/4 L
                      Peas, Yellow, Split           450         $225,633
                       Bag, 50 Kg
                      Rice                        2,830       $1,351,978
Malawi                                            4,450       $3,161,798
                      Beans, Pinto Bag, 50          860         $559,081
                       Kg
                      Corn-Soy Blend Plus         1,670         $882,958
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,070       $1,272,401
                       6/4 L
                      Peas, Yellow, Split           850         $447,358
                       Bag, 50 Kg
Mali                                              3,620       $2,610,658
                      Corn-Soy Blend Plus           300         $178,218
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,020       $1,238,494
                       6/4 L
                      Peas, Yellow, Split         2,300       $1,193,945
                       Bag, 50 Kg
Mauritania                                        4,300       $1,882,772
                      Corn-Soy Blend Plus           500         $233,920
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           160         $194,028
                       6/4 L
                      Rice                        1,600         $710,224
                      Wheat, Soft White           2,040         $744,600
Niger                                            19,000      $10,498,818
                      Bulgur, Soy--Fort.            710         $253,713
                       Bag, 50 Kg
                      Corn-Soy Blend Plus        10,360       $5,709,861
                       Bag--HP, 25 Kg
                      Lentils Bag, 50 Kg             50          $27,327
                      Oil, Vegetable Can,           880       $1,002,840
                       6/4 L
                      Peas, Yellow, Split           470         $270,284
                       Bag, 50 Kg
                      Rice                        6,530       $3,234,793
Pakistan                                            530       $1,766,455
                      Emerg[e]ncy Fd.,              530       $1,766,455
                       RUTF
Somalia                                          29,670      $10,166,288
                      Corn                        5,330       $1,059,444
                      Corn-Soy Blend Plus         1,360         $768,464
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,560       $1,849,480
                       6/4 L
                      Peas, Yellow, Split         4,180       $2,137,728
                       Bag, 50 Kg
                      Sorghum                    17,240       $4,351,172
South Sudan                                      42,170      $11,559,078
                      Emerg[e]ncy Fd.,              180         $448,800
                       RUSF
                      Oil, Vegetable Can,           540         $659,000
                       6/4 L
                      Peas, Yellow, Split         1,800         $917,329
                       Bag, 50 Kg
                      Sorghum                    39,650       $9,533,950
Sudan                                           128,950      $38,623,872
                      Emerg[e]ncy Fd.,              250         $835,230
                       RUTF
                      Lentils Bag, 50 Kg         13,950      $11,297,223
                      Oil, Vegetable Can,         1,040       $1,211,756
                       6/4 L
                      Peas, Yellow, Split           110          $57,674
                       Bag, 50 Kg
                      Sorghum                   113,600      $25,221,990
Uganda                                            4,480       $2,029,304
                      Cornmeal Bag--HP, 25        1,510         $496,060
                       Kg
                      Cornmeal, Soy--Fort.        1,600         $542,449
                       Bag--HP, 25 Kg
                      Corn-Soy Blend Plus           520         $237,318
                       Bag--HP, 25 Kg
                      Lentils Bag, 50 Kg            510         $373,408
                      Oil, Vegetable Can,           340         $380,070
                       6/4 L
West Bank Gaza                                    4,740       $2,283,511
                      Beans, Garbanzo,              210         $145,285
                       Kabuli Bag-50 Kg
                      Flour, Bread                4,530       $2,138,225
Yemen                                            36,840       $8,364,144
                      Peas, Yellow, Split         1,040         $513,562
                       Bag, 50 Kg
                      Wheat, Soft White          35,800       $7,850,582
Zimbabwe                                          6,020       $2,914,592
                      Corn-Soy Blend Plus         2,280       $1,123,009
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           630         $817,535
                       6/4 L
                      Peas, Yellow, Whole           800         $341,600
                       Bag, 50 Kg
                      Sorghum                     2,310         $632,448
                                           -----------------------------
  Grand Total                                   766,910     $262,719,584
------------------------------------------------------------------------
                               FY15 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  21,560      $35,604,650
                      Corn-Soy Blend Plus         3,000       $1,701,409
                       Bag--HP, 25 Kg
                      CSB Super Cereal            3,000       $5,490,601
                       Plus Box, 10/1.5 Kg
                      Emerg[e]ncy Fd.,            1,320       $3,762,565
                       RUSF
                      Emerg[e]ncy Fd.,            4,500      $14,269,593
                       RUTF
                      Lentils Bag, 50 Kg            250         $192,333
                      Oil, Vegetable Can,         7,240       $9,053,084
                       6/4 L
                      Peas, Yellow, Split         2,250       $1,135,066
                       Bag, 50 Kg
Foreign Prepo.                                  113,790      $61,264,108
                      Corn-Soy Blend Plus         9,000       $4,534,942
                       Bag--HP, 25 Kg
                      Hard Red Wheat              4,530       $1,132,409
                      Lentils Bag, 50 Kg          5,000       $3,666,817
                      Oil, Vegetable Can,        21,000      $25,727,011
                       6/4 L
                      Peas, Yellow, Split        28,260      $14,633,289
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-          1,000         $477,190
                       MLD Bag, 50 Kg, F
                      Sorghum                    45,000      $11,092,450
                                           -----------------------------
  Grand Total                                   135,350      $96,868,758
------------------------------------------------------------------------
                              FY16 Programs
------------------------------------------------------------------------
Recipient Country     Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Afghanistan                                      13,870       $7,879,301
                      Oil, Vegetable Can,         4,090       $4,728,683
                       6/4 L
                      Peas, Yellow, Split         2,780       $1,784,918
                       Bag, 50 Kg
                      Wheat, Soft White           7,000       $1,365,700
Bangladesh                                      165,160      $35,671,509
                      Oil, Vegetable Can,           470         $541,843
                       6/4 L
                      Peas, Yellow, Split           710         $442,066
                       Bag, 50 Kg
                      Wheat, Soft White         163,980      $34,687,600
Burkina Faso                                      1,310         $737,200
                      Corn-Soy Blend Plus           120          $52,952
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           100         $112,938
                       6/4 L
                      Peas, Yellow, Split           240         $192,405
                       Bag, 50 Kg
                      Rice                          850         $378,905
Burundi                                           3,720       $2,012,894
                      Beans, Pinto Bag, 50          450         $276,390
                       Kg
                      Bulgur, Soy--Fort.             50          $14,453
                       Bag, 50 Kg
                      Cornmeal Bag--HP, 25        1,050         $311,546
                       Kg
                      Corn-Soy Blend Plus         1,880         $834,947
                       Bag--HP, 25 Kg
                      Emerg[e]ncy Fd.,              150         $424,950
                       RUSF
                      Oil, Vegetable Can,           130         $146,713
                       6/4 L
                      Peas, Yellow, Split            10           $3,897
                       Bag, 50 Kg
Central African                                   8,270       $4,529,622
 Republic
                      Cornmeal Bag--HP, 25        2,520         $848,184
                       Kg
                      Corn-Soy Blend Plus         1,200         $570,758
                       Bag--HP, 25 Kg
                      CSB Super Cereal              550         $878,094
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           300         $355,992
                       6/4 L
                      Peas, Yellow, Split         1,100         $740,332
                       Bag, 50 Kg
                      Rice                        2,600       $1,136,262
Cameroon                                         14,740       $7,511,754
                      Corn-Soy Blend Plus           440         $209,194
                       Bag--HP, 25 Kg
                      CSB Super Cereal              120         $179,291
                       Plus Box, 10/1.5 Kg
                      Peas, Yellow, Split         2,740       $1,951,615
                       Bag, 50 Kg
                      Rice                       11,440       $5,171,654
Chad                                             22,760       $6,709,713
                      Corn, Yellow Bag, 50        1,970         $561,194
                       Kg
                      Corn-Soy Blend Plus         2,290       $1,081,577
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           320         $394,896
                       6/4 L
                      Peas, Yellow, Split         3,160       $2,103,207
                       Bag, 50 Kg
                      Sorghum                    15,020       $2,568,840
Colombia                                          2,650       $1,314,809
                      Beans, Pinto Bag, 50          680         $380,537
                       Kg
                      Rice                        1,970         $934,273
Democratic Republic                               8,360       $3,689,390
 of Congo
                      Cornmeal Bag--HP, 25        5,740       $1,983,750
                       Kg
                      Corn-Soy Blend Plus           640         $292,277
                       Bag--HP, 25 Kg
                      Emerg[e]ncy Fd.,              170         $427,000
                       RUSF
                      Peas, Yellow, Split         1,410         $795,164
                       Bag, 50 Kg
                      Rice                          400         $191,200
Congo (Republic of)                                 460         $248,424
                      Peas, Yellow, Split           120          $88,199
                       Bag, 50 Kg
                      Rice                          340         $160,225
Djibouti                                          2,010         $888,846
                      Flour, All Purpose          1,300         $552,559
                       Bag, 50 Kg
                      Oil, Vegetable Can,           150         $180,311
                       6/4 L
                      Sorghum                       560         $155,977
El Salvador                                         600         $257,670
                      Rice                          600         $257,670
Ethiopia                                        602,750     $141,826,107
                      Corn-Soy Blend Plus         1,230         $539,942
                       Bag--HP, 25 Kg
                      Hard Red Wheat            448,390      $88,725,637
                      Oil, Vegetable Can,         4,680       $5,591,886
                       6/4 L
                      Peas, Yellow, Split        39,290      $27,337,318
                       Bag, 50 Kg
                      Sorghum                   109,160      $19,631,323
Guatemala                                           710         $426,863
                      Beans, Black Bag, 50          350         $249,340
                       Kg
                      Corn-Soy Blend Plus           360         $177,523
                       Bag--HP, 25 Kg
Haiti                                             1,820       $1,018,847
                      Bulgur bag, 50 Kg           1,200         $343,692
                      Lentils Bag, 50 Kg            180         $162,000
                      Oil, Vegetable Can,           200         $237,460
                       6/4 L
                      Oil, Vegetable                240         $275,695
                       Bottle, PLS, 6/4 L
                       670, F
Honduras                                            430         $212,286
                      Beans, Small Red               60          $48,985
                       Bag, 50 Kg
                      Corn-Soy Blend Plus            60          $27,459
                       Bag--HP, 25 Kg
                      Rice                          310         $135,842
Kenya                                            41,670      $11,010,005
                      Flour, All Purpose          5,400       $2,372,738
                       Bag, 50 Kg
                      Oil, Vegetable Can,         1,200       $1,468,152
                       6/4 L
                      Peas, Yellow, Split         2,020       $1,197,661
                       Bag, 50 Kg
                      Sorghum                    31,080       $5,492,666
                      Sorghum Bag, 50 Kg          1,970         $478,789
Madagascar                                       10,470       $5,438,305
                      Beans, Great                  120         $108,939
                       Northern Bag, 50 Kg
                      Cornmeal Bag--HP, 25          510         $162,533
                       Kg
                      Corn-Soy Blend Plus         3,160       $1,430,327
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,160       $1,398,273
                       6/4 L
                      Peas, Yellow, Split           630         $294,237
                       Bag, 50 Kg
                      Rice                        4,890       $2,043,996
Malawi                                           19,900      $11,498,589
                      Beans, Pinto Bag, 50        4,030       $3,233,167
                       Kg
                      Cornmeal Bag--HP, 25        8,160       $2,564,891
                       Kg
                      Corn-Soy Blend Plus         2,530       $1,160,144
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         2,130       $2,454,344
                       6/4 L
                      Peas, Yellow, Split         3,050       $2,086,044
                       Bag, 50 Kg
Mali                                              3,630       $2,118,687
                      Corn-Soy Blend Plus         1,500         $678,511
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           370         $446,971
                       6/4 L
                      Peas, Yellow, Whole         1,760         $993,205
                       Bag, 50 Kg
Mauritania                                        2,100       $1,468,042
                      Corn-Soy Blend Plus            70          $30,889
                       Bag--HP, 25 Kg
                      Lentils Bag, 50 Kg            430         $619,328
                      Oil, Vegetable Can,           100         $139,586
                       6/4 L
                      Rice                        1,500         $678,240
Mozambique                                          750         $651,135
                      Beans, Pinto Bag, 50          750         $651,135
                       Kg
Niger                                            21,920      $11,370,921
                      Bulgur, Soy--Fort.            670         $223,144
                       Bag, 50 Kg
                      Corn-Soy Blend Plus         3,710       $1,748,121
                       Bag--HP, 25 Kg
                      CSB Super Cereal              580         $919,027
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           160         $194,065
                       6/4 L
                      Peas, Yellow, Split         3,530       $2,364,075
                       Bag, 50 Kg
                      Rice                       13,270       $5,922,490
Pakistan                                          1,150         $765,975
                      Wheat-Soy Blend Bag,        1,150         $765,975
                       25 Kg
Somalia                                          10,430       $3,522,022
                      Corn-Soy Blend Plus           390         $169,346
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           720         $876,842
                       6/4 L
                      Sorghum                     9,320       $2,475,834
South Sudan                                     111,690      $28,755,080
                      Lentils Bag, 50 Kg          2,250       $2,368,360
                      Oil, Vegetable Can,         4,170       $5,104,646
                       6/4 L
                      Peas, Yellow, Split         4,240       $2,625,172
                       Bag, 50 Kg
                      Peas, Yellow, Whole         2,310       $1,093,970
                       Bag, 50 Kg
                      Sorghum                    98,720      $17,562,931
Sudan                                           121,250      $36,357,562
                      Lentils Bag, 50 Kg         10,840      $14,179,717
                      Oil, Vegetable Can,         2,910       $3,253,995
                       6/4 L
                      Sorghum                   107,500      $18,923,850
Tanzania                                          8,250       $3,940,678
                      Cornmeal Bag--HP, 25        4,360       $1,502,428
                       Kg
                      CSB Super Cereal              200         $295,628
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           680         $821,460
                       6/4 L
                      Peas, Green, Whole          3,010       $1,321,161
                       Bag, 50 Kg
Uganda                                            9,270       $3,903,677
                      Beans, Pinto Bag, 50        1,300         $978,529
                       Kg
                      Cornmeal Bag--HP, 25        2,240         $688,330
                       Kg
                      Corn-Soy Blend Plus         1,100         $487,586
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           630         $771,057
                       6/4 L
                      Sorghum                     1,600         $394,880
                      Sorghum Bag, 50 Kg          2,400         $583,296
Yemen                                           167,040      $48,268,726
                      Hard Red Wheat             86,900      $17,820,113
                      Oil, Vegetable Can,         8,050       $9,493,664
                       6/4 L
                      Peas, Yellow, Split        12,480       $8,277,988
                       Bag, 50 Kg
                      Peas, Yellow, Whole         1,970         $704,236
                       Bag, 50 Kg
Zimbabwe                                         10,530       $4,301,952
                      Corn-Soy Blend Plus           320         $149,354
                       Bag--HP, 25 Kg
                      CSB Super Cereal            1,590       $2,295,363
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           200         $231,740
                       6/4 L
                      Sorghum                     8,420       $1,625,495
                                           -----------------------------
  Grand Total                                 1,389,670     $388,306,590
------------------------------------------------------------------------
                               FY16 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  50,130      $27,264,954
                      Cornmeal Bag--HP, 25        6,880       $2,370,413
                       Kg
                      Corn-Soy Blend Plus         6,170       $2,938,078
                       Bag--HP, 25 Kg
                      CSB Super Cereal              200         $325,348
                       Plus Box, 10/1.5 Kg
                      Lentils Bag, 50 Kg            920       $1,142,447
                      Oil, Vegetable Can,         8,220      $10,122,203
                       6/4 L
                      Peas, Green, Split            740         $382,589
                       Bag, 50 Kg
                      Peas, Yellow, Split        10,000       $5,659,476
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-          2,000         $957,800
                       MLD Bag, 50 Kg
                      Sorghum Bag, 50 Kg         15,000       $3,366,600
Foreign Prepo.                                  318,650     $123,121,132
                      Beans, Great                  400         $356,678
                       Northern Bag, 50 Kg
                      Beans, Pinto Bag, 50        8,000       $6,530,762
                       Kg
                      Cornmeal Bag--HP, 25       10,700       $3,472,728
                       Kg
                      Corn-Soy Blend Plus        12,480       $5,570,450
                       Bag--HP, 25 Kg
                      CSB Super Cereal            5,340       $7,921,799
                       Plus Box, 10/1.5 Kg
                      Hard Red Wheat             82,860      $14,969,471
                      Oil, Vegetable Can,        26,500      $30,838,371
                       6/4 L
                      Peas, Yellow, Split        56,300      $32,342,975
                       Bag, 50 Kg
                      Rice                        1,000         $433,420
                      Rice, Fort.                 1,000         $528,410
                      Sorghum                   114,070      $20,156,068
                                           -----------------------------
  Grand Total                                   368,780     $150,386,086
------------------------------------------------------------------------
                              FY17 Programs
------------------------------------------------------------------------
Recipient Country     Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Bangladesh                                       73,140      $18,164,466
                      Oil, Vegetable Can,           360         $380,603
                       6/4 L
                      Peas, Yellow, Split           540         $253,087
                       Bag, 50 Kg
                      Wheat, Soft White          72,240      $17,530,776
Burkina Faso                                        200         $204,684
                      Corn-Soy Blend Plus            60          $36,832
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           120         $159,991
                       6/4 L
                      Rice                           20           $7,862
Burundi                                          10,400       $6,600,574
                      Bulgur, Soy--Fort.            210          $88,402
                       Bag, 50 Kg
                      Cornmeal Bag--HP, 25        1,540         $587,685
                       Kg
                      Corn-Soy Blend Plus         7,870       $5,000,267
                       Bag--HP, 25 Kg
                      CSB Super Cereal              220         $311,282
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           540         $602,587
                       6/4 L
                      Peas, Yellow, Split            20          $10,352
                       Bag, 50 Kg
Central African                                   5,420       $2,656,811
 Republic
                      Cornmeal Bag--HP, 25        4,400       $1,827,313
                       Kg
                      Corn-Soy Blend Plus           400         $271,277
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           120         $148,086
                       6/4 L
                      Peas, Yellow, Split           500         $410,135
                       Bag, 50 Kg
Cameroon                                         16,890       $7,132,075
                      Corn-Soy Blend Plus         1,470         $993,044
                       Bag--HP, 25 Kg
                      CSB Super Cereal              890       $1,384,186
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           980       $1,209,369
                       6/4 L
                      Peas, Green, Whole          2,850       $1,271,405
                       Bag, 50 Kg
                      Sorghum                    10,700       $2,274,071
Chad                                             17,090       $6,704,934
                      Corn-Soy Blend Plus         1,960       $1,326,920
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,060       $1,323,532
                       6/4 L
                      Peas, Yellow, Split         1,820       $1,420,006
                       Bag, 50 Kg
                      Rice, Fort.                   150          $62,864
                      Sorghum                    12,100       $2,571,613
Colombia                                          1,270         $675,838
                      Beans, Pinto Bag, 50          160         $130,160
                       Kg
                      Lentils Bag, 50 Kg             40          $31,715
                      Oil, Vegetable Can,           100         $132,676
                       6/4 L
                      Rice                          970         $381,288
Democratic Republic                              16,680       $8,477,052
 of Congo
                      Cornmeal Bag--HP, 25       11,830       $4,632,953
                       Kg
                      Oil, Vegetable Can,         1,510       $1,813,927
                       6/4 L
                      Peas, Green, Split            240         $130,800
                       Bag, 50 Kg
                      Peas, Yellow, Split         3,100       $1,899,372
                       Bag, 50 Kg
Congo (Republic of)                                 540         $373,425
                      Corn-Soy Blend Plus            60          $37,652
                       Bag--HP, 25 Kg
                      CSB Super Cereal               10          $16,105
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           100         $129,123
                       6/4 L
                      Peas, Yellow, Split            70          $59,220
                       Bag, 50 Kg
                      Rice, Fort.                   300         $131,325
Djibouti                                          2,960       $1,227,842
                      Flour, All Purpose          1,240         $517,350
                       Bag, 50 Kg
                      Oil, Vegetable Can,           260         $323,489
                       6/4 L
                      Peas, Yellow, Split           230         $122,236
                       Bag, 50 Kg
                      Sorghum                     1,230         $264,767
Ethiopia                                        447,710     $103,504,130
                      Corn-Soy Blend Plus         1,630         $845,623
                       Bag--HP, 25 Kg
                      Lentils Bag, 50 Kg            500         $302,921
                      Oil, Vegetable Can,         9,820      $12,043,718
                       6/4 L
                      Peas, Yellow, Split        29,140      $16,958,196
                       Bag, 50 Kg
                      Sorghum                    66,240      $11,293,395
                      Wheat, Soft Red           340,380      $62,060,276
                       Winter
Haiti                                               800         $445,961
                      Bulgur bag, 50 Kg             200          $57,118
                      Corn-Soy Blend Plus           400         $232,479
                       Bag--HP, 25 Kg
                      Lentils Bag, 50 Kg            150          $95,390
                      Oil, Vegetable Can,            50          $60,975
                       6/4 L
Kenya                                            54,030      $18,888,629
                      Oil, Vegetable Can,         5,200       $6,458,122
                       6/4 L
                      Peas, Yellow, Split         8,580       $5,041,664
                       Bag, 50 Kg
                      Sorghum                    30,720       $5,309,715
                      Wheat, Soft Red             9,530       $2,079,128
                       Winter
Madagascar                                        8,810       $6,013,416
                      Beans, Great                   60          $44,970
                       Northern Bag, 50 Kg
                      Corn-Soy Blend Plus         3,700       $2,134,216
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,740       $2,151,136
                       6/4 L
                      Peas, Yellow, Split         1,470         $902,140
                       Bag, 50 Kg
                      Rice                        1,840         $780,954
Malawi                                            4,110       $3,347,077
                      Beans, Pinto Bag, 50          860         $672,825
                       Kg
                      Corn-Soy Blend Plus         2,200       $1,408,157
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,050       $1,266,096
                       6/4 L
Mali                                              4,960       $3,679,376
                      Corn-Soy Blend Plus         2,750       $1,685,787
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           710         $943,484
                       6/4 L
                      Peas, Yellow, Split         1,500       $1,050,106
                       Bag, 50 Kg
Mauritania                                        2,010       $1,039,043
                      Corn-Soy Blend Plus            50          $24,584
                       Bag--HP, 25 Kg
                      CSB Super Cereal               50          $75,751
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           160         $212,616
                       6/4 L
                      Rice, Fort.                 1,750         $726,093
Mozambique                                        3,810         $631,241
                      Sorghum                     3,810         $631,241
Niger                                            24,360      $15,892,699
                      Corn-Soy Blend Plus         4,260       $2,596,188
                       Bag--HP, 25 Kg
                      CSB Super Cereal              910       $1,399,830
                       Plus Box, 10/1.5 Kg
                      Lentils Bag, 50 Kg          4,600       $4,039,796
                      Oil, Vegetable Can,         1,980       $2,604,389
                       6/4 L
                      Rice, Fort.                12,610       $5,252,497
Nigeria                                           5,600       $6,489,600
                      Corn-Soy Blend Plus           770         $483,198
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         4,830       $6,006,402
                       6/4 L
Somalia                                          31,470      $12,788,425
                      Corn-Soy Blend Plus         7,990       $5,044,625
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,700       $2,081,798
                       6/4 L
                      Peas, Yellow, Split         3,140       $1,834,423
                       Bag, 50 Kg
                      Sorghum                    18,640       $3,827,578
South Sudan                                     109,420      $26,760,391
                      Oil, Vegetable Can,         4,170       $5,085,709
                       6/4 L
                      Peas, Yellow, Split         3,030       $1,856,787
                       Bag, 50 Kg
                      Peas, Yellow, Whole         5,250       $2,271,395
                       Bag, 50 Kg
                      Sorghum                    96,970      $17,546,499
Sudan                                            89,470      $21,451,294
                      Lentils Bag, 50 Kg          7,870       $6,259,043
                      Oil, Vegetable Can,         1,670       $2,102,615
                       6/4 L
                      Sorghum                    79,930      $13,089,636
Tanzania                                          5,430       $3,200,825
                      CSB Super Cereal              200         $281,102
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,           510         $654,101
                       6/4 L
                      Peas, Green, Whole          4,720       $2,265,623
                       Bag, 50 Kg
Uganda                                           15,650       $9,928,317
                      Cornmeal Bag--HP, 25        4,360       $1,660,567
                       Kg
                      Corn-Soy Blend Plus         6,140       $3,820,810
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         2,720       $3,356,616
                       6/4 L
                      Peas, Yellow, Whole         2,430       $1,090,324
                       Bag, 50 Kg
Yemen                                           319,580     $104,738,818
                      Oil, Vegetable Can,        27,080      $33,349,599
                       6/4 L
                      Peas, Green, Split         18,540      $11,507,013
                       Bag, 50 Kg
                      Peas, Yellow, Split        17,200       $9,904,734
                       Bag, 50 Kg
                      Wheat, Soft White         256,760      $49,977,472
Zimbabwe                                          7,590       $3,460,848
                      Corn-Soy Blend Plus         1,930       $1,216,356
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           760         $916,539
                       6/4 L
                      Peas, Yellow, Split           700         $351,775
                       Bag, 50 Kg
                      Sorghum                     4,200         $976,178
                                           -----------------------------
  Grand Total                                 1,279,400     $394,477,791
------------------------------------------------------------------------
                               FY17 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  14,500      $11,823,073
                      Corn-Soy Blend Plus         1,000         $634,110
                       Bag--HP, 25 Kg
                      Lentils Bag, 50 Kg          2,000       $1,611,200
                      Oil, Vegetable Can,         4,500       $5,929,579
                       6/4 L
                      Peas, Green, Whole          2,000         $837,532
                       Bag, 50 Kg
                      Peas, Yellow, Split         5,000       $2,810,652
                       Bag, 50 Kg
Foreign Prepo.                                  107,340      $54,514,976
                      Cornmeal Bag--HP, 25        1,000         $381,581
                       Kg
                      Corn-Soy Blend Plus        10,250       $6,397,692
                       Bag--HP, 25 Kg
                      CSB Super Cereal              230         $334,540
                       Plus Box, 10/1.5 Kg
                      Lentils Bag, 50 Kg          2,500       $2,063,668
                      Oil, Vegetable Can,        15,500      $19,009,085
                       6/4 L
                      Peas, Green, Whole          5,500       $2,400,708
                       Bag, 50 Kg
                      Peas, Yellow, Split        23,000      $14,441,092
                       Bag, 50 Kg
                      Rice                          500         $195,220
                      Sorghum                    40,000       $7,559,350
                      Wheat, Soft Red             8,860       $1,732,041
                       Winter
                                           -----------------------------
  Grand Total                                   121,840      $66,338,048
------------------------------------------------------------------------
                              FY18 Programs
------------------------------------------------------------------------
Recipient Country     Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Bangladesh                                      101,000      $23,531,067
                      Oil, Vegetable Can,           310         $341,569
                       6/4 L
                      Peas, Yellow, Split           460         $201,728
                       Bag, 50 Kg
                      Wheat, Soft White           2,030         $558,149
                       Bag, 50 Kg
                      Wheat, Soft White          98,200      $22,429,621
                       Bulk
Burkina Faso                                        810         $436,539
                      Oil, Vegetable Can,            60          $66,922
                       6/4 L
                      Peas, Yellow, Split           130          $61,868
                       Bag, 50 Kg
                      Rice, 5/20 Mg, W-MLD          620         $307,749
                       Bag, 50 Kg
Burundi                                           4,360       $2,391,593
                      Beans, Pinto Bag, 50        1,160         $732,099
                       Kg
                      Rice, 5/20 Lg., W-          3,200       $1,659,494
                       MLD, Fort. Bag, 50
                       Kg
Central African                                   5,400       $2,643,353
 Republic
                      Cornmeal Bag--HP, 25        3,790       $1,806,107
                       Kg
                      Rice, 5/20 Lg., W-          1,610         $837,246
                       MLD, Fort. Bag, 50
                       Kg
Cameroon                                          8,840       $4,983,808
                      Corn-Soy Blend Plus           480         $303,065
                       Bag--HP, 25 Kg
                      CSB Super Cereal            1,540       $2,763,117
                       Plus Box, 10/1.5 Kg
                      Peas, Yellow, Whole         1,520         $618,013
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg          5,300       $1,299,613
Chad                                              5,800       $2,949,984
                      CSB Super Cereal              950       $1,840,839
                       Plus Box, 10/1.5 Kg
                      Sorghum Bag, 50 Kg          4,850       $1,109,145
Colombia                                          1,090         $572,122
                      Beans, Pinto Bag, 50          270         $165,099
                       Kg
                      Rice, 5/20 Mg, W-MLD          820         $407,023
                       Bag, 50 Kg
Congo, Dem. Repub.                               23,220      $12,047,497
                      Cornmeal Bag--HP, 25        6,460       $3,083,244
                       Kg
                      Corn-Soy Blend Plus         2,060       $1,426,942
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,            50          $56,108
                       6/4 L
                      Oil, Vegetable                120         $125,353
                       Substitutable, 6/4
                       L
                      Peas, Green, Split            690         $296,887
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-            410         $194,516
                       MLD, Fort. Bag, 50
                       Kg
                      Rice, Milled Bulk          13,430       $6,864,447
Congo, Repub. of                                    340         $157,104
                      Rice, 5/20 Lg., W-            340         $157,104
                       MLD Bag, 50 Kg
Djibouti                                            900         $309,691
                      Flour, All Purpose            420         $191,990
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg            480         $117,701
Ethiopia                                        291,610      $82,585,491
                      Corn-Soy Blend Plus         3,800       $2,492,278
                       Bag--HP, 25 Kg
                      CSB Super Cereal              870       $1,708,428
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,        11,050      $12,879,861
                       6/4 L
                      Oil, Vegetable                400         $427,374
                       Substitutable, 6/4
                       L
                      Peas, Yellow, Split        30,700      $13,848,907
                       Bag, 50 Kg
                      Sorghum Bulk               58,200      $10,889,220
                      Wheat, Hard Red           186,590      $40,339,423
                       Winter Bulk
Kenya                                            68,180      $16,367,916
                      Oil, Vegetable Can,           470         $570,028
                       6/4 L
                      Peas, Yellow, Split         7,460       $3,416,164
                       Bag, 50 Kg
                      Sorghum Bulk               46,800       $9,755,209
                      Wheat, Hard Red            13,450       $2,626,516
                       Winter Bulk
Madagascar                                        6,390       $1,739,189
                      Corn-Soy Blend Plus           200         $139,169
                       Bag--HP, 25 Kg
                      Oil, Vegetable Pail,           70          $92,752
                       20 L
                      Rice, 5/20 Lg., W-            290         $137,585
                       MLD, Fort. Bag, 50
                       Kg
                      Rice, 5/20 Mg, W-MLD          450         $261,189
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg          5,380       $1,108,495
Malawi                                            1,680       $1,345,296
                      Corn-Soy Blend Plus         1,270         $887,145
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           410         $458,151
                       6/4 L
Mauritania                                        1,790       $1,309,310
                      Corn-Soy Blend Plus            40          $25,648
                       Bag--HP, 25 Kg
                      CSB Super Cereal              140         $285,154
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Pail,          210         $304,808
                       20 L
                      Rice, 3/15 Lg., W-          1,400         $693,700
                       MLD Bag, 50 Kg
Mozambique                                        1,880         $932,068
                      Rice, 3/15 Lg., W-          1,880         $932,068
                       MLD Bag, 50 Kg
Niger                                            20,590      $13,473,440
                      Corn-Soy Blend Plus         3,520       $2,564,109
                       Bag--HP, 25 Kg
                      CSB Super Cereal            1,100       $2,155,262
                       Plus Box, 10/1.5 Kg
                      Lentils Bag, 50 Kg          3,660       $2,036,497
                      Oil, Vegetable Can,         1,350       $1,527,440
                       6/4 L
                      Rice, 5/20 Lg., W-         10,960       $5,190,133
                       MLD Bag, 50 Kg
Nigeria                                           6,260       $6,641,517
                      Corn-Soy Blend Plus         3,630       $2,521,235
                       Bag--HP, 25 Kg
                      CSB Super Cereal            1,300       $2,552,516
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,         1,330       $1,567,766
                       6/4 L
Republic of South                                51,460      $11,979,853
 Sudan
                      Oil, Vegetable Can,           930       $1,061,292
                       6/4 L
                      Peas, Yellow, Split         5,090       $2,269,787
                       Bag, 50 Kg
                      Sorghum Bulk               45,440       $8,648,773
Somalia                                          42,570      $16,644,726
                      Corn-Soy Blend Plus        11,110       $7,621,786
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         2,120       $2,388,986
                       6/4 L
                      Peas, Yellow, Split         3,780       $1,733,947
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg          6,720       $1,506,098
                      Sorghum Bulk               18,840       $3,393,910
Sudan                                           147,470      $45,505,515
                      Lentils Bag, 50 Kg         20,320      $10,882,627
                      Oil, Vegetable Can,         8,650      $10,410,213
                       6/4 L
                      Sorghum Bulk              118,500      $24,212,676
Tanzania                                          8,690       $4,653,829
                      Oil, Vegetable Can,           820         $914,866
                       6/4 L
                      Peas, Green, Whole          7,870       $3,738,963
                       Bag, 50 Kg
Uganda                                           16,020      $10,222,964
                      Cornmeal Bag--HP, 25        2,970       $1,369,408
                       Kg
                      Oil, Vegetable Can,         4,720       $5,506,903
                       6/4 L
                      Peas, Yellow, Whole         8,330       $3,346,654
                       Bag, 50 Kg
Yemen                                           315,550     $101,377,577
                      Oil, Vegetable Can,        28,320      $32,593,721
                       6/4 L
                      Peas, Green, Split         23,620      $12,448,801
                       Bag, 50 Kg
                      Wheat, Soft White         263,610      $56,335,055
                       Bulk
Zimbabwe                                          9,440       $4,023,432
                      Corn-Soy Blend Plus         1,970       $1,305,941
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,           840         $945,153
                       6/4 L
                      Peas, Yellow, Whole         1,180         $462,674
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg          5,450       $1,309,665
                                           -----------------------------
  Grand Total                                 1,141,340     $368,824,882
------------------------------------------------------------------------
                               FY18 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  47,650      $35,543,982
                      Corn-Soy Blend Plus         9,000       $6,150,759
                       Bag--HP, 25 Kg
                      CSB Super Cereal            1,650       $2,989,942
                       Plus Box, 10/1.5 Kg
                      Flour, All Purpose          5,000       $2,545,371
                       Bag, 50 Kg
                      Oil, Vegetable Can,         9,500      $11,973,592
                       6/4 L
                      Peas, Green, Split          8,000       $5,035,768
                       Bag, 50 Kg
                      Peas, Yellow, Split        14,000       $6,593,106
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-            500         $255,445
                       MLD, Fort. Bag, 50
                       Kg
Foreign Prepo.                                   83,900      $40,039,910
                      Cornmeal Bag--HP, 25        3,000       $1,300,587
                       Kg
                      Corn-Soy Blend Plus         9,000       $6,111,739
                       Bag--HP, 25 Kg
                      CSB Super Cereal              500         $986,125
                       Plus Box, 10/1.5 Kg
                      Flour, All Purpose            630         $296,024
                       Bag, 50 Kg
                      Oil, Vegetable Can,        13,770      $15,904,565
                       6/4 L
                      Peas, Yellow, Split        18,260       $8,081,590
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg            740         $170,970
                      Sorghum Bulk               38,000       $7,188,310
                                           -----------------------------
  Grand Total                                   131,550      $75,583,893
------------------------------------------------------------------------
                              FY19 Programs
------------------------------------------------------------------------
Recipient Country     Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Bangladesh                                       92,430      $18,912,495
                      Oil, Vegetable                 50          $49,711
                       Bottle, PLS, 6/4 L
                      Peas, Yellow, Split            20           $9,500
                       Bag, 50 Kg
                      Wheat, Hard Red            92,360      $18,853,285
                       Winter Bulk
Burkina Faso                                      3,160       $1,764,285
                      Oil, Vegetable Can,           160         $212,403
                       6/4 L
                      Peas, Yellow, Split           480         $181,620
                       Bag, 50 Kg
                      Rice, 5/20 Mg, W-MLD        2,520       $1,370,262
                       Bag, 50 Kg
Burundi                                           1,070         $629,757
                      Beans, Pinto Bag, 50        1,070         $629,757
                       Kg
Cameroon                                         17,060       $6,248,298
                      Oil, Vegetable Can,           160         $207,643
                       6/4 L
                      Peas, Yellow, Split           740         $300,067
                       Bag, 50 Kg
                      Peas, Yellow, Whole         2,340         $911,984
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-          5,370       $2,856,896
                       MLD Bag, 50 Kg
                      Sorghum Bag, 50 Kg          8,450       $1,971,707
Central African                                  12,950       $5,440,082
 Republic
                      Cornmeal Bag--HP, 25       10,850       $4,544,514
                       Kg
                      Peas, Yellow, Split         2,100         $895,569
                       Bag, 50 Kg
Chad                                             17,400       $5,641,369
                      Oil, Vegetable Can,         1,670       $2,017,410
                       6/4 L
                      Peas, Yellow, Split         3,500       $1,327,654
                       Bag, 50 Kg
                      Sorghum Bulk               12,230       $2,296,305
Colombia                                            880         $485,381
                      Beans, Pinto Bag, 50          180         $115,409
                       Kg
                      Lentils Bag, 50 Kg             80          $33,337
                      Oil, Vegetable Can,            90         $108,783
                       6/4 L
                      Rice, 5/20 Lg., W-            530         $227,852
                       MLD Bag, 50 Kg
Democratic Republic                              37,140      $17,023,473
 of Congo
                      Cornmeal Bag--HP, 25       32,040      $14,854,297
                       Kg
                      Oil, Vegetable Can,            30          $34,133
                       6/4 L
                      Oil, Vegetable                120         $140,094
                       Substitutable, 6/4
                       L
                      Peas, Green, Split            600         $282,317
                       Bag, 50 Kg
                      Peas, Yellow, Split         4,020       $1,593,770
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-            330         $118,863
                       MLD Bag, 50 Kg
Djibouti                                          2,270       $1,108,486
                      Flour, All Purpose          2,270       $1,108,486
                       Bag, 25 Kg
Ethiopia                                        437,230     $103,023,369
                      Oil, Vegetable Can,         5,650       $7,023,367
                       6/4 L
                      Oil, Vegetable                440         $513,137
                       Substitutable, 6/4
                       L
                      Peas, Yellow, Split        27,230      $11,052,335
                       Bag, 50 Kg
                      Sorghum Bulk               82,170      $18,204,701
                      Wheat, Hard Red           321,740      $66,229,829
                       Winter Bulk
Haiti                                             2,560       $1,310,896
                      Oil, Vegetable Can,           290         $328,590
                       6/4 L
                      Peas, Green, Whole            770         $356,641
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-          1,500         $625,665
                       MLD Bag, 50 Kg
Kenya                                            47,530      $16,129,915
                      Oil, Vegetable Can,         4,930       $5,959,537
                       6/4 L
                      Peas, Yellow, Split         9,470       $4,022,083
                       Bag, 50 Kg
                      Sorghum Bulk               27,300       $4,808,036
                      Wheat, Hard Red             5,830       $1,340,259
                       Winter Bulk
Madagascar                                       14,690       $5,108,804
                      Corn-Soy Blend Plus         1,680       $1,002,006
                       Bag--HP, 25 Kg
                      Oil, Vegetable                210         $223,803
                       Bottle, PLS, 6/4 L
                      Oil, Vegetable Can,           520         $603,642
                       6/4 L
                      Oil, Vegetable                210         $244,906
                       Substitutable, 6/4
                       L
                      Peas, Yellow, Split         1,390         $499,164
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-            660         $319,229
                       MLD, Fort. Bag, 50
                       Kg
                      Sorghum Bag, 50 Kg         10,020       $2,216,053
Niger                                            18,750      $11,072,155
                      Beans, Small Red            2,400       $2,125,998
                       Bag, 50 Kg
                      Corn-Soy Blend Plus         3,070       $1,707,655
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         1,490       $1,853,451
                       6/4 L
                      Oil, Vegetable                 80          $92,044
                       Substitutable, 6/4
                       L
                      Rice, 5/20 Lg., W-         11,710       $5,293,008
                       MLD Bag, 50 Kg
Nigeria                                          11,860       $9,569,395
                      Corn-Soy Blend Plus         8,030       $4,993,084
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         3,830       $4,576,311
                       6/4 L
Republic of Congo                                   840         $671,950
                      Rice, 5/20 Mg, W-             840         $671,950
                       MLD., Prbl. Bag, 50
                       Kg
Republic of South                                29,890       $9,835,330
 Sudan
                      Oil, Vegetable Can,         3,630       $4,218,731
                       6/4 L
                      Peas, Yellow, Split           650         $250,634
                       Bag, 50 Kg
                      Sorghum Bulk               25,610       $5,365,965
Somalia                                          72,200      $23,393,536
                      Corn-Soy Blend Plus         4,400       $3,074,192
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         5,640       $6,844,341
                       6/4 L
                      Peas, Yellow, Split         7,720       $3,198,758
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg            600         $139,878
                      Sorghum Bulk               53,840      $10,136,367
Sudan                                           148,320      $41,006,668
                      Lentils Bag, 50 Kg         14,220       $6,572,104
                      Oil, Vegetable Can,         6,940       $8,019,013
                       6/4 L
                      Sorghum Bulk              127,160      $26,415,551
Tanzania                                          1,930         $720,449
                      Peas, Yellow, Split         1,930         $720,449
                       Bag, 50 Kg
Uganda                                            2,940       $1,778,245
                      Oil, Vegetable Can,         1,020       $1,179,905
                       6/4 L
                      Peas, Yellow, Whole         1,920         $598,340
                       Bag, 50 Kg
Yemen                                           585,020     $195,362,942
                      Beans, Great               12,370      $12,147,093
                       Northern Bag, 50 Kg
                      Beans, Kidney, Light          620         $847,341
                       Red Bag, 50 Kg
                      Beans, Pea Bag, 50          5,520       $4,835,596
                       Kg
                      Beans, Small White             60          $36,062
                       Bag, 50 Kg
                      Beans, Substitutable        7,090       $6,335,800
                       Bag, 50 Kg (Pea
                       Bag)
                      Oil, Vegetable Can,        48,480      $57,619,899
                       6/4 L
                      Wheat, Soft White         510,880     $113,541,150
                       Bulk
Zimbabwe                                         18,040       $4,676,991
                      Oil, Vegetable Can,           600         $692,433
                       6/4 L
                      Peas, Yellow, Split         2,420         $951,579
                       Bag, 50 Kg
                      Sorghum Bag, 50 Kg          4,020         $932,640
                      Sorghum Bulk               11,000       $2,100,340
                                           -----------------------------
  Grand Total                                 1,576,160     $480,914,271
------------------------------------------------------------------------
                               FY19 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  30,780      $20,372,300
                      Beans, Pinto Bag, 50        2,100       $1,497,817
                       Kg
                      Cornmeal Bag--HP, 25        2,200       $1,140,570
                       Kg
                      Corn-Soy Blend Plus         2,350       $1,816,756
                       Bag--HP, 25 Kg
                      Oil, Vegetable Can,         6,100       $7,535,233
                       6/4 L
                      Peas, Yellow, Split         7,500       $3,291,944
                       Bag, 50 Kg
                      Rice, 5/20 Lg., W-          3,530       $1,749,550
                       MLD Bag, 50 Kg
                      Rice, 5/20 Lg., W-          7,000       $3,340,431
                       MLD, Fort. Bag, 50
                       Kg
Foreign Prepo.                                   94,792      $53,935,982
                      Corn-Soy Blend Plus         8,500       $5,923,361
                       Bag--HP, 25 Kg
                      CSB Super Cereal           11,992      $21,983,653
                       Plus Box, 10/1.5 Kg
                      Oil, Vegetable Can,         9,500      $10,901,429
                       6/4 L
                      Peas, Yellow, Split        14,800       $6,012,940
                       Bag, 50 Kg
                      Sorghum Bulk               50,000       $9,114,600
                                           -----------------------------
  Grand Total                                   125,572      $74,308,283
------------------------------------------------------------------------
                       By RUTF & RUSF Purchases **
------------------------------------------------------------------------
Fiscal Year           Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
FY 2016                                           5,318      $24,598,936
                      RUSF                        3,090      $20,043,068
                      RUTF                        2,228       $4,555,868
FY 2017                                          11,850      $32,176,169
                      RUSF                        4,375      $11,396,245
                      RUTF                        7,475      $20,779,924
FY 2018                                          11,291      $30,513,644
                      RUSF                        1,670       $4,073,215
                      RUTF                        9,621      $26,440,429
FY 2019                                          18,504      $49,879,132
                      RUSF                        9,082      $23,522,453
                      RUTF                        9,421      $26,356,679
------------------------------------------------------------------------
                               By Partner
------------------------------------------------------------------------
                              FY15 Programs
------------------------------------------------------------------------
Partner               Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
ACDI/VOCA                                         2,860       $1,761,103
                      Cornmeal Bag--HP--25          780         $264,139
                       Kg
                      Corn-Soy Blend Plus           300         $136,914
                       Bag--HP--25 Kg
                      Lentils Bag--50 Kg            250         $182,018
                      Oil, Vegetable Can--          520         $625,899
                       6/4 L
                      Peas, Yellow, Split         1,010         $552,133
                       Bag--50 Kg
ADRA                                              1,690       $1,061,838
                      Beans, Great                   70          $69,666
                       Northern Bag--50 Kg
                      Cornmeal, Soy-Fort.            70          $20,860
                       Bag--HP--25 Kg
                      Corn-Soy Blend Plus           660         $362,328
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          190         $255,372
                       6/4 L
                      Rice                          700         $353,611
CRS                                             152,460      $50,162,226
                      Beans, Pinto Bag--50          750         $471,169
                       Kg
                      Bulgur bag--50 Kg             610         $200,147
                      Bulgur, Soy--Fort.            400         $151,931
                       Bag--50 Kg
                      Corn-Soy Blend Plus        12,220       $6,315,443
                       Bag--HP--25 Kg
                      Hard Red Wheat             88,670      $21,277,336
                      Oil, Vegetable Can--        5,190       $6,164,555
                       6/4 L
                      Peas, Yellow, Split        15,930       $8,196,410
                       Bag--50 Kg
                      Rice                        3,110       $1,453,370
                      Sorghum                    25,580       $5,931,866
CNFA                                              1,000         $658,769
                      Corn-Soy Blend Plus           810         $395,021
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          190         $263,749
                       6/4 L
CARE                                              3,720       $1,989,180
                      Bulgur, Soy--Fort.          1,220         $407,204
                       Bag--50 Kg
                      Corn-Soy Blend Plus         1,710         $883,701
                       Bag--HP--25 Kg
                      Lentils Bag--50 Kg            380         $250,801
                      Oil, Vegetable Can--          410         $447,474
                       6/4 L
FHI                                              29,580       $8,621,004
                      Cornmeal, Soy--Fort.        2,050         $731,916
                       Bag--HP--25 Kg
                      Hard Red Wheat             21,350       $4,519,178
                      Oil, Vegetable Can--          150         $178,923
                       6/4 L
                      Peas, Green, Split            300         $118,489
                       Bag--50 Kg
                      Peas, Yellow, Split         5,730       $3,072,498
                       Bag--50 Kg
Mercy Corps                                       3,230       $1,488,341
                      Bulgur, Soy--Fort.            130          $50,574
                       Bag--50 Kg
                      Cornmeal Bag--HP--25          730         $231,921
                       Kg
                      Cornmeal, Soy--Fort.          970         $344,740
                       Bag--HP--25 Kg
                      Corn-Soy Blend Plus           600         $277,517
                       Bag--HP--25 Kg
                      Lentils Bag--50
                       Kg310$218,717
                      Oil, Vegetable Can--          200         $218,327
                       6/4 L
                      Peas, Yellow, Split           290         $146,546
                       Bag--50 Kg
PCI                                               1,530       $1,142,039
                      Beans, Pinto Bag--50          860         $559,081
                       Kg
                      Corn-Soy Blend Plus           320         $175,117
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          350         $407,841
                       6/4 L
REST                                             55,680      $15,785,288
                      Hard Red Wheat             44,910       $9,779,756
                      Peas, Yellow, Split        10,770       $6,005,532
                       Bag--50 Kg
Save The Children                                31,510       $9,876,054
                      Beans, Pinto Bag--50          890         $568,425
                       Kg
                      Bulgur, Soy--Fort.            400         $140,096
                       Bag--50 Kg
                      Corn-Soy Blend Plus         1,350         $712,722
                       Bag--HP--25 Kg
                      Hard Red Wheat             14,410       $3,225,186
                      Oil, Vegetable Can--          480         $546,062
                       6/4 L
                      Peas, Yellow, Split         5,410       $2,574,764
                       Bag--50 Kg
                      Rice                        1,260         $568,436
                      Sorghum                     7,310       $1,540,363
UNICEF                                              910       $3,039,655
                      Emerg[e]ncy Fd.,              910       $3,039,655
                       RUTF
WFP                                             477,970     $165,090,251
                      Beans, Garbanzo,              210         $145,285
                       Kabuli Bag--50 Kg
                      Beans, Pinto Bag--50           20          $12,029
                       Kg
                      Corn                        5,330       $1,059,444
                      Cornmeal, Soy--Fort.       17,080       $8,400,293
                       Bag--HP--25 Kg
                      Corn-Soy Blend Plus        16,660       $9,411,836
                       Bag--HP--25 Kg
                      Emerg[e]ncy Fd.,              180         $448,800
                       RUSF
                      Flour, All Purpose         10,910       $5,145,810
                       Bag--50 Kg
                      Flour, Bread                6,400       $2,992,355
                      Lentils Bag--50 Kg         14,660      $11,829,757
                      Oil, Vegetable Can--       15,860      $18,778,633
                       6/4 L
                      Peas, Yellow, Split        28,890      $14,500,764
                       Bag--50 Kg
                      Peas, Yellow, Whole           800         $341,600
                       Bag--50 Kg
                      Rice                       24,580      $13,461,591
                      Sorghum                   267,500      $62,648,247
                      Wheat, Soft White          68,760      $15,823,817
                      Wheat-Soy Blend Bag--         130          $89,990
                       25 Kg
World Vision                                      4,770       $2,043,836
                      Corn-Soy Blend Plus         1,470         $727,988
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          440         $553,786
                       6/4 L
                      Sorghum                     2,860         $762,061
                                           -----------------------------
  Grand Total                                   766,910     $262,719,584
------------------------------------------------------------------------
                               FY15 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  21,560      $35,604,650
                      Corn-Soy Blend Plus         3,000       $1,701,409
                       Bag--HP--25 Kg
                      CSB Super Cereal            3,000       $5,490,601
                       Plus Box--10/1.5 Kg
                      Emerg[e]ncy Fd.,            1,320       $3,762,565
                       RUSF
                      Emerg[e]ncy Fd.,            4,500      $14,269,593
                       RUTF
                      Lentils Bag--50 Kg            250         $192,333
                      Oil, Vegetable Can--        7,240       $9,053,084
                       6/4 L
                      Peas, Yellow, Split         2,250       $1,135,066
                       Bag--50 Kg
Foreign Prepo.                                  113,790      $61,264,108
                      Corn-Soy Blend Plus         9,000       $4,534,942
                       Bag--HP--25 Kg
                      Hard Red Wheat              4,530       $1,132,409
                      Lentils Bag--50 Kg          5,000       $3,666,817
                      Oil, Vegetable Can--       21,000      $25,727,011
                       6/4 L
                      Peas, Yellow, Split        28,260      $14,633,289
                       Bag--50 Kg
                      Rice, 5/20 Lg., W-          1,000         $477,190
                       MLD Bag--50 Kg--F
                      Sorghum                    45,000      $11,092,450
                                           -----------------------------
  Grand Total                                   135,350      $96,868,758
------------------------------------------------------------------------
                              FY16 Programs
------------------------------------------------------------------------
Partner               Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
ADRA                                              3,140       $1,682,854
                      Beans, Great                  120         $108,939
                       Northern Bag--50 Kg
                      Corn-Soy Blend Plus         1,770         $806,958
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          240         $343,340
                       6/4 L
                      Rice                        1,010         $423,617
CRS                                             522,190     $131,484,473
                      Bulgur, Soy--Fort.             50          $14,453
                       Bag--50 Kg
                      Corn-Soy Blend Plus         7,060       $3,185,691
                       Bag--HP--25 Kg
                      Hard Red Wheat            448,390      $88,725,637
                      Oil, Vegetable Can--        6,620       $7,860,991
                       6/4 L
                      Peas, Yellow, Split        39,770      $27,184,506
                       Bag--50 Kg
                      Rice                        3,880       $1,620,379
                      Sorghum                    16,420       $2,892,816
CNFA                                                520         $381,094
                      Corn-Soy Blend Plus           320         $149,354
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          200         $231,740
                       6/4 L
CARE                                             81,500      $18,808,036
                      Bulgur Bag--50 Kg           1,200         $343,692
                      Lentils Bag--50 Kg            180         $162,000
                      Oil, Vegetable Can--          670         $779,303
                       6/4 L
                      Oil, Vegetable                240         $275,695
                       Bottle, PLS--6/4 L
                       670--F
                      Peas, Yellow, Split           710         $442,066
                       Bag--50 Kg
                      Wheat, Soft White          78,500      $16,805,280
HK                                               11,000       $2,310,000
                      Wheat, Soft White          11,000       $2,310,000
Mercy Corps                                         900         $416,664
                      Bulgur, Soy--Fort.            490         $159,021
                       Bag--50 Kg
                      Corn-Soy Blend Plus            30          $14,002
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--           30          $37,022
                       6/4 L
                      Peas, Yellow, Split           350         $206,620
                       Bag--50 Kg
PCI                                               1,550       $1,148,672
                      Beans, Pinto Bag--50          860         $565,666
                       Kg
                      Corn-Soy Blend Plus           330         $144,385
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          360         $438,620
                       6/4 L
Save The Children                                   530         $278,232
                      Bulgur, Soy--Fort.            180          $64,123
                       Bag--50 Kg
                      Corn-Soy Blend Plus           250         $115,928
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--           40          $48,321
                       6/4 L
                      Peas, Yellow, Split            60          $49,860
                       Bag--50 Kg
WFP                                             693,860     $216,224,246
                      Beans, Black Bag--50          350         $249,340
                       Kg
                      Beans, Pinto Bag--50        6,350       $4,954,091
                       Kg
                      Beans, Small Red               60          $48,985
                       Bag--50 Kg
                      Corn, Yellow Bag--50        1,970         $561,194
                       Kg
                      Cornmeal Bag--HP--25       24,580       $8,061,661
                       Kg
                      Corn-Soy Blend Plus        11,240       $5,224,587
                       Bag--HP--25 Kg
                      CSB Super Cereal            3,040       $4,567,403
                       Plus Box--10/1.5 Kg
                      Emerg[e]ncy Fd.,              320         $851,950
                       RUSF
                      Flour, All Purpose          6,700       $2,925,297
                       Bag--50 Kg
                      Hard Red Wheat             86,900      $17,820,113
                      Lentils Bag--50 Kg         13,520      $17,167,405
                      Oil, Vegetable Can--       24,760      $29,206,179
                       6/4 L
                      Peas, Green, Whole          3,010       $1,321,161
                       Bag--50 Kg
                      Peas, Yellow, Split        36,620      $24,401,245
                       Bag--50 Kg
                      Peas, Yellow, Whole         6,040       $2,791,411
                       Bag--50 Kg
                      Rice                       33,280      $14,966,759
                      Sorghum                   364,960      $65,938,980
                      Sorghum Bag--50 Kg          4,370       $1,062,085
                      Wheat, Soft White          64,640      $13,338,426
                      Wheat-Soy Blend Bag--       1,150         $765,975
                       25 Kg
World Vision                                     74,480      $15,572,320
                      Wheat, Soft White          74,480      $15,572,320
                                           -----------------------------
  Grand Total                                 1,389,670     $388,306,591
------------------------------------------------------------------------
                               FY16 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  50,130      $27,264,954
                      Cornmeal Bag--HP--25        6,880       $2,370,413
                       Kg
                      Corn-Soy Blend Plus         6,170       $2,938,078
                       Bag--HP--25 Kg
                      CSB Super Cereal              200         $325,348
                       Plus Box--10/1.5 Kg
                      Lentils Bag--50 Kg            920       $1,142,447
                      Oil, Vegetable Can--        8,220      $10,122,203
                       6/4 L
                      Peas, Green, Split            740         $382,589
                       Bag--50 Kg
                      Peas, Yellow, Split        10,000       $5,659,476
                       Bag--50 Kg
                      Rice, 5/20 Lg., W-          2,000         $957,800
                       MLD Bag--50 Kg
                      Sorghum Bag--50 Kg         15,000       $3,366,600
Foreign Prepo.                                  318,650     $123,121,132
                      Beans, Great                  400         $356,678
                       Northern Bag--50 Kg
                      Beans, Pinto Bag--50        8,000       $6,530,762
                       Kg
                      Cornmeal Bag--HP--25       10,700       $3,472,728
                       Kg
                      Corn-Soy Blend Plus        12,480       $5,570,450
                       Bag--HP--25 Kg
                      CSB Super Cereal            5,340       $7,921,799
                       Plus Box--10/1.5 Kg
                      Hard Red Wheat             82,860      $14,969,471
                      Oil, Vegetable Can--       26,500      $30,838,371
                       6/4 L
                      Peas, Yellow, Split        56,300      $32,342,975
                       Bag--50 Kg
                      Rice                        1,000         $433,420
                      Rice, Fortified             1,000         $528,410
                      Sorghum                   114,070      $20,156,068
                                           -----------------------------
  Grand Total                                   368,780     $150,386,086
------------------------------------------------------------------------
                              FY17 Programs
------------------------------------------------------------------------
Partner               Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
ADRA                                              1,300         $899,037
                      Beans, Great                   60          $44,970
                       Northern Bag--50 Kg
                      Corn-Soy Blend Plus           430         $274,416
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          200         $307,371
                       6/4 L
                      Rice                          610         $272,280
CRS                                             294,260      $73,059,614
                      Bulgur, Soy--Fort.            210          $88,402
                       Bag--50 Kg
                      Corn-Soy Blend Plus        12,370       $7,789,679
                       Bag--HP--25 Kg
                      Lentils Bag--50 Kg            500         $302,921
                      Oil, Vegetable Can--        6,130       $7,421,039
                       6/4 L
                      Peas, Yellow, Split        18,030      $10,891,022
                       Bag--50 Kg
                      Rice                        1,230         $508,673
                      Sorghum                     6,060       $1,175,481
                      Wheat, Soft Red           249,730      $44,882,396
                       Winter
CNFA                                                780         $584,505
                      Corn-Soy Blend Plus           630         $403,664
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          150         $180,842
                       6/4 L
CARE                                             23,710       $6,514,390
                      Bulgur Bag--50 Kg             200          $57,118
                      Corn-Soy Blend Plus           400         $232,479
                       Bag--HP--25 Kg
                      Lentils Bag--50 Kg            150          $95,390
                      Oil, Vegetable Can--          410         $441,577
                       6/4 L
                      Peas, Yellow, Split           540         $253,087
                       Bag--50 Kg
                      Wheat, Soft White          22,010       $5,434,739
FHI                                              22,480       $5,489,510
                      Cornmeal Bag--HP--25          720         $275,365
                       Kg
                      Oil, Vegetable Can--          590         $678,943
                       6/4 L
                      Peas, Green, Split            160          $87,200
                       Bag--50 Kg
                      Peas, Yellow, Split         1,560         $775,064
                       Bag--50 Kg
                      Wheat, Soft Red            19,450       $3,672,938
                       Winter
HK                                               11,430       $2,750,858
                      Wheat, Soft White          11,430       $2,750,858
Mercy Corps                                         470         $227,769
                      Cornmeal Bag--HP--25          360         $147,961
                       Kg
                      Oil, Vegetable Can--           30          $36,208
                       6/4 L
                      Peas, Green, Split             80          $43,600
                       Bag--50 Kg
PCI                                               1,210       $1,093,445
                      Beans, Pinto Bag--50          860         $672,825
                       Kg
                      Oil, Vegetable Can--          350         $420,621
                       6/4 L
REST                                             50,470      $11,982,546
                      Oil, Vegetable Can--        1,180       $1,465,023
                       6/4 L
                      Peas, Yellow, Split         3,930       $1,892,206
                       Bag--50 Kg
                      Wheat, Soft Red            45,360       $8,625,316
                       Winter
WFP                                             802,990     $273,994,342
                      Beans, Pinto Bag--50          160         $130,160
                       Kg
                      Cornmeal Bag--HP--25       21,050       $8,285,192
                       Kg
                      Corn-Soy Blend Plus        28,510      $17,645,085
                       Bag--HP--25 Kg
                      CSB Super Cereal            2,280       $3,468,255
                       Plus Box--10/1.5 Kg
                      Flour, All Purpose          1,240         $517,350
                       Bag--50 Kg
                      Lentils Bag--50 Kg         12,510      $10,330,554
                      Oil, Vegetable Can--       59,080      $73,142,237
                       6/4 L
                      Peas, Green, Split         18,540      $11,507,013
                       Bag--50 Kg
                      Peas, Green, Whole          7,570       $3,537,028
                       Bag--50 Kg
                      Peas, Yellow, Split        44,400      $26,971,712
                       Bag--50 Kg
                      Peas, Yellow, Whole         7,680       $3,361,719
                       Bag--50 Kg
                      Rice                          990         $389,149
                      Rice, Fortified            14,810       $6,172,778
                      Sorghum                   317,880      $56,479,511
                      Wheat, Soft Red             9,530       $2,079,128
                       Winter
                      Wheat, Soft White         256,760      $49,977,472
World Vision                                     70,300      $17,881,777
                      Corn-Soy Blend Plus         1,300         $812,692
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--        1,180       $1,423,436
                       6/4 L
                      Peas, Yellow, Split         2,580       $1,291,141
                       Bag--50 Kg
                      Sorghum                       600         $129,702
                      Wheat, Soft Red            25,840       $4,879,626
                       Winter
                      Wheat, Soft White          38,800       $9,345,179
                                           -----------------------------
  Grand Total                                 1,279,400     $394,477,791
------------------------------------------------------------------------
                               FY17 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  14,500      $11,823,073
                      Corn-Soy Blend Plus         1,000         $634,110
                       Bag--HP--25 Kg
                      Lentils Bag--50 Kg          2,000       $1,611,200
                      Oil, Vegetable Can--        4,500       $5,929,579
                       6/4 L
                      Peas, Green, Whole          2,000         $837,532
                       Bag--50 Kg
                      Peas, Yellow, Split         5,000       $2,810,652
                       Bag--50 Kg
Foreign Prepo.                                  107,340      $54,514,976
                      Cornmeal Bag--HP--25        1,000         $381,581
                       Kg
                      Corn-Soy Blend Plus        10,250       $6,397,692
                       Bag--HP--25 Kg
                      CSB Super Cereal              230         $334,540
                       Plus Box--10/1.5 Kg
                      Lentils Bag--50 Kg          2,500       $2,063,668
                      Oil, Vegetable Can--       15,500      $19,009,085
                       6/4 L
                      Peas, Green, Whole          5,500       $2,400,708
                       Bag--50 Kg
                      Peas, Yellow, Split        23,000      $14,441,092
                       Bag--50 Kg
                      Rice                          500         $195,220
                      Sorghum                    40,000       $7,559,350
                      Wheat, Soft Red             8,860       $1,732,041
                       Winter
                                           -----------------------------
  Grand Total                                   121,840      $66,338,048
------------------------------------------------------------------------
                              FY18 Programs
------------------------------------------------------------------------
Partner               Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
ADRA                                                720         $493,109
                      Corn-Soy Blend Plus           200         $139,169
                       Bag--HP--25 Kg
                      Oil, Vegetable Pail--          70          $92,752
                       20 L
                      Rice, 5/20 Mg, W-MLD          450         $261,189
                       Bag--50 Kg
CRS                                             161,200      $49,571,544
                      Corn-Soy Blend Plus         2,910       $1,942,485
                       Bag--HP--25 Kg
                      CSB Super Cereal              870       $1,708,428
                       Plus Box--10/1.5 Kg
                      Oil, Vegetable Can--        7,780       $8,949,758
                       6/4 L
                      Peas, Yellow, Split        21,630       $9,818,553
                       Bag--50 Kg
                      Sorghum Bag--50 Kg          2,490         $513,040
                      Sorghum Bulk                7,060       $1,226,463
                      Wheat, Hard Red           118,460      $25,412,818
                       Winter Bulk
CNFA                                              1,590       $1,203,501
                      Corn-Soy Blend Plus         1,240         $809,533
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          350         $393,969
                       6/4 L
CARE                                             46,300      $10,233,483
                      Oil, Vegetable Can--          310         $341,569
                       6/4 L
                      Peas, Yellow, Split           460         $201,728
                       Bag--50 Kg
                      Wheat, Soft White           2,030         $558,149
                       Bag--50 Kg
                      Wheat, Soft White          43,500       $9,132,037
                       Bulk
FHI                                               3,970       $2,001,291
                      Cornmeal Bag--HP--25        1,630         $675,878
                       Kg
                      Oil, Vegetable                520         $552,727
                       Substitutable--6/4
                       L
                      Peas, Green, Split            480         $197,703
                       Bag--50 Kg
                      Peas, Yellow, Split         1,340         $574,983
                       Bag--50 Kg
HK                                               18,660       $4,417,259
                      Wheat, Soft White          18,660       $4,417,259
                       Bulk
Mercy Corps                                         670         $349,808
                      Oil, Vegetable Can--           50          $56,108
                       6/4 L
                      Peas, Green, Split            210          $99,184
                       Bag--50 Kg
                      Rice, 5/20 Lg., W-            410         $194,516
                       MLD, Fort. Bag--50
                       Kg
REST                                             38,560      $10,613,902
                      Oil, Vegetable Can--        1,020       $1,257,374
                       6/4 L
                      Peas, Yellow, Split         3,410       $1,431,883
                       Bag--50 Kg
                      Wheat, Hard Red            34,130       $7,924,645
                       Winter Bulk
WFP                                             792,080     $270,359,678
                      Beans, Pinto Bag--50        1,430         $897,198
                       Kg
                      Cornmeal Bag--HP--25       11,590       $5,582,881
                       Kg
                      Corn-Soy Blend Plus        23,000      $15,899,722
                       Bag--HP--25 Kg
                      CSB Super Cereal            5,030       $9,596,888
                       Plus Box--10/1.5 Kg
                      Flour, All Purpose            420         $191,990
                       Bag--50 Kg
                      Lentils Bag--50 Kg         23,980      $12,919,123
                      Oil, Vegetable Can--       51,200      $59,407,796
                       6/4 L
                      Oil, Vegetable Pail--         210         $304,808
                       20 L
                      Peas, Green, Split         23,620      $12,448,801
                       Bag--50 Kg
                      Peas, Green, Whole          7,870       $3,738,963
                       Bag--50 Kg
                      Peas, Yellow, Split        18,650       $8,534,143
                       Bag--50 Kg
                      Peas, Yellow, Whole        11,030       $4,427,341
                       Bag--50 Kg
                      Rice, 3/15 Lg., W-          3,280       $1,625,768
                       MLD Bag--50 Kg
                      Rice, 5/20 Lg., W-         11,300       $5,347,236
                       MLD Bag--50 Kg
                      Rice, 5/20 Lg., W-          5,100       $2,634,325
                       MLD, Fort. Bag--50
                       Kg
                      Rice, 5/20 Mg, W-MLD        1,440         $714,773
                       Bag--50 Kg
                      Rice, Milled Bulk          13,430       $6,864,447
                      Sorghum Bag--50 Kg         25,690       $5,937,677
                      Sorghum Bulk              285,720      $56,563,825
                      Wheat, Hard Red            47,450       $9,628,476
                       Winter Bulk
                      Wheat, Soft White         263,610      $56,335,055
                       Bulk
World Vision                                     39,620      $11,230,248
                      Corn-Soy Blend Plus           730         $496,408
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--          720         $882,404
                       6/4 L
                      Peas, Yellow, Split         2,130         $971,112
                       Bag--50 Kg
                      Wheat, Soft White          36,040       $8,880,324
                       Bulk
                                           -----------------------------
  Grand Total                                 1,103,370     $360,473,824
------------------------------------------------------------------------
                               FY18 Prepo.
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  47,650      $35,543,982
                      Corn-Soy Blend Plus         9,000       $6,150,759
                       Bag--HP--25 Kg
                      CSB Super Cereal            1,650       $2,989,942
                       Plus Box--10/1.5 Kg
                      Flour, All Purpose          5,000       $2,545,371
                       Bag--50 Kg
                      Oil, Vegetable Can--        9,500      $11,973,592
                       6/4 L
                      Peas, Green, Split          8,000       $5,035,768
                       Bag--50 Kg
                      Peas, Yellow, Split        14,000       $6,593,106
                       Bag--50 Kg
                      Rice, 5/20 Lg., W-            500         $255,445
                       MLD, Fort. Bag--50
                       Kg
Foreign Prepo.                                   78,900      $39,149,410
                      Cornmeal Bag--HP--25        3,000       $1,300,587
                       Kg
                      Corn-Soy Blend Plus         9,000       $6,111,739
                       Bag--HP--25 Kg
                      CSB Super Cereal              500         $986,125
                       Plus Box--10/1.5 Kg
                      Flour, All Purpose            630         $296,024
                       Bag--50 Kg
                      Oil, Vegetable Can--       13,770      $15,904,565
                       6/4 L
                      Peas, Yellow, Split        18,260       $8,081,590
                       Bag--50 Kg
                      Sorghum Bag--50 Kg            740         $170,970
                      Sorghum Bulk               33,000       $6,297,810
                                           -----------------------------
  Grand Total                                   126,550      $74,693,393
------------------------------------------------------------------------
                              FY19 Programs
------------------------------------------------------------------------
Partner               Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
CRS                                             241,080      $56,384,907
                      Corn-Soy Blend Plus         1,310         $800,572
                       Bag--HP--25 Kg
                      Oil, Vegetable                210         $223,803
                       Bottle, PLS--6/4 L
                      Oil, Vegetable Can--        2,610       $3,205,957
                       6/4 L
                      Oil, Vegetable                210         $244,906
                       Substitutable--6/4
                       L
                      Peas, Yellow, Split        13,770       $5,621,220
                       Bag--50 Kg
                      Sorghum Bag--50 Kg          4,110         $936,538
                      Sorghum Bulk                6,490       $1,392,607
                      Wheat, Hard Red           212,370      $43,959,303
                       Winter Bulk
CARE                                             54,420      $11,024,380
                      Corn-Soy Blend Plus           130          $72,024
                       Bag--HP--25 Kg
                      Oil, Vegetable                 50          $49,711
                       Bottle, PLS--6/4 L
                      Oil, Vegetable                 30          $35,024
                       Substitutable--6/4
                       L
                      Peas, Yellow, Split            20           $9,500
                       Bag--50 Kg
                      Wheat, Hard Red            54,190      $10,858,122
                       Winter Bulk
FHI                                              31,930       $8,024,139
                      Cornmeal Bag--HP--25        1,600         $760,910
                       Kg
                      Oil, Vegetable                560         $653,231
                       Substitutable--6/4
                       L
                      Peas, Green, Split            510         $235,008
                       Bag--50 Kg
                      Peas, Yellow, Split         1,440         $562,122
                       Bag--50 Kg
                      Wheat, Hard Red            27,820       $5,812,868
                       Winter Bulk
Mercy Corps                                         450         $200,305
                      Oil, Vegetable Can--           30          $34,133
                       6/4 L
                      Peas, Green, Split             90          $47,309
                       Bag--50 Kg
                      Rice, 5/20 Lg., W-            330         $118,863
                       MLD Bag--50 Kg
REST                                             39,870       $9,435,918
                      Oil, Vegetable Can--        1,060       $1,272,360
                       6/4 L
                      Peas, Yellow, Split         3,530       $1,381,756
                       Bag--50 Kg
                      Wheat, Hard Red            35,280       $6,781,802
                       Winter Bulk
Save The Children                                 1,150         $701,419
                      Corn-Soy Blend Plus         1,070         $609,696
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--           30          $34,704
                       6/4 L
                      Oil, Vegetable                 50          $57,019
                       Substitutable--6/4
                       L
WFP                                           1,119,680     $375,576,866
                      Beans, Great               12,370      $12,147,093
                       Northern Bag--50 Kg
                      Beans, Kidney, Light          620         $847,341
                       Red Bag--50 Kg
                      Beans, Pea Bag--50          5,520       $4,835,596
                       Kg
                      Beans, Pinto Bag--50        1,250         $745,166
                       Kg
                      Beans, Small Red            2,400       $2,125,998
                       Bag--50 Kg
                      Beans, Small White             60          $36,062
                       Bag--50 Kg
                      Beans, Substitutable        7,090       $6,335,800
                       Bag--50 Kg (Pea
                       Bag)
                      Cornmeal Bag--HP--25       41,290      $18,637,900
                       Kg
                      Corn-Soy Blend Plus        14,670       $9,294,646
                       Bag--HP--25 Kg
                      Flour, All Purpose          2,270       $1,108,486
                       Bag--25 Kg
                      Lentils Bag--50 Kg         14,300       $6,605,441
                      Oil, Vegetable Can--       80,650      $95,987,561
                       6/4 L
                      Peas, Green, Whole            770         $356,641
                       Bag--50 Kg
                      Peas, Yellow, Split        40,520      $16,498,142
                       Bag--50 Kg
                      Peas, Yellow, Whole         4,260       $1,510,324
                       Bag--50 Kg
                      Rice, 5/20 Lg., W-         19,110       $9,003,421
                       MLD Bag--50 Kg
                      Rice, 5/20 Lg., W-            660         $319,229
                       MLD, Fort. Bag--50
                       Kg
                      Rice, 5/20 Mg, W-MLD        2,520       $1,370,262
                       Bag--50 Kg
                      Rice, 5/20 Mg, W-             840         $671,950
                       MLD, Prbl Bag--50
                       Kg
                      Sorghum Bag--50 Kg         18,980       $4,323,740
                      Sorghum Bulk              332,820      $67,934,658
                      Wheat, Hard Red             5,830       $1,340,259
                       Winter Bulk
                      Wheat, Soft White         510,880     $113,541,150
                       Bulk
World Vision                                     87,580      $19,566,338
                      Oil, Vegetable Can--          750         $964,878
                       6/4 L
                      Peas, Yellow, Split         2,390         $930,441
                       Bag--50 Kg
                      Wheat, Hard Red            84,440      $17,671,019
                       Winter Bulk
                                           -----------------------------
  Grand Total                                 1,576,160     $480,914,271
------------------------------------------------------------------------
                              FY19 Prepo.*
------------------------------------------------------------------------
Prepo. Location       Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
Domestic Prepo.                                  30,780      $20,372,300
                      Beans, Pinto Bag--50        2,100       $1,497,817
                       Kg
                      Cornmeal Bag--HP--25        2,200       $1,140,570
                       Kg
                      Corn-Soy Blend Plus         2,350       $1,816,756
                       Bag--HP--25 Kg
                      Oil, Vegetable Can--        6,100       $7,535,233
                       6/4 L
                      Peas, Yellow, Split         7,500       $3,291,944
                       Bag--50 Kg
                      Rice, 5/20 Lg., W-          3,530       $1,749,550
                       MLD Bag--50 Kg
                      Rice, 5/20 Lg., W-          7,000       $3,340,431
                       MLD, Fort. Bag--50
                       Kg
Foreign Prepo.                                   94,792      $53,935,982
                      Corn-Soy Blend Plus         8,500       $5,923,361
                       Bag--HP--25 Kg
                      CSB Super Cereal           11,992      $21,983,653
                       Plus Box--10/1.5 Kg
                      Oil, Vegetable Can--        9,500      $10,901,429
                       6/4 L
                      Peas, Yellow, Split        14,800       $6,012,940
                       Bag--50 Kg
                      Sorghum Bulk               50,000       $9,114,600
                                           -----------------------------
  Grand Total                                    25,572      $74,308,283
------------------------------------------------------------------------
                       By RUTF & RUSF Purchases **
------------------------------------------------------------------------
Fiscal Year           Commodity Type        Metric Tons   Commodity Cost
------------------------------------------------------------------------
FY 2016                                           5,318      $24,598,936
                      RUSF                        3,090      $20,043,068
                      RUTF                        2,228       $4,555,868
FY 2017                                          11,850      $32,176,169
                      RUSF                        4,375      $11,396,245
                      RUTF                        7,475      $20,779,924
FY 2018                                          11,291      $30,513,644
                      RUSF                        1,670       $4,073,215
                      RUTF                        9,621      $26,440,429
FY 2019                                          18,504      $49,879,132
                      RUSF                        9,082      $23,522,453
                      RUTF                        9,421      $26,356,679
------------------------------------------------------------------------
Note: total costs and metric tons may differ from those listed in the
  International Food Assistance Reports (IFAR), as commodities may be
  purchased in fiscal years different than awards.
In addition, USDA tracking of individual commodity purchases does not
  differentiate between emergency and development programs.
* Note: FY 19 numbers are estimates and will change as actuals are
  reconciled.
** Note: Starting in FY16, the majority of ready-to-use therapeutic and
  supplementary food (RUTF & RUSF) were purchased by OAA/T under BPAs
  (Blanket Purchase Agreements). USDA no longer purchases RUSF or RUTF.


    Question 3. Given that U.S. dollars cannot be used to purchase 
commodities where sanctions have been imposed by the U.S. Government, 
please describe how USAID is monitoring cash purchases to ensure that 
commodities from these sanctioned countries are not being transshipped 
through eligible countries.
    Answer. USAID partners are required to buy from a specified list of 
developing countries near crises and to provide detailed information on 
planned procurement locations, quantities, and other details when 
applying for assistance. Both the source (where the commodity is being 
purchased) and origin (where the commodity was produced) of any 
procured commodities are incorporated into the actual award agreement. 
Deviations from the agreed-upon terms would require USAID approval. By 
requiring this information, USAID ensures the Office of Food for Peace 
(FFP) is not inadvertently purchasing food from sanctioned countries.
    When procuring food locally, regionally, or internationally, FFP 
has a preference for supporting markets impacted by the crisis, and 
second for commodities produced in countries near the crisis-affected 
area and on the Organization for Economic Co-operation and 
Development--Development Assistance Committee (OECD-DAC) list for Least 
Developed, Other Lower Income, and Lower-Middle Income countries. 
Procurement from a non-OECD DAC Least Developed, Other Lower Income, or 
Lower-Middle Income country requires a waiver. FFP Information Bulletin 
19-03 further states that partners must procure from countries that are 
not on the U.S. government's list of foreign policy restricted 
countries.
Questions Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
School Meals in Protracted Crises
    Question 1. Protracted crises--the result of armed conflict, forced 
displacement, and natural disasters--are disrupting both the food 
security and education of millions of children around the world. We are 
seeing today in both Syria and Yemen, where the United Nations has 
declared system-wide Level 3 Emergencies. In these contexts, missing 
school meals has more than a physical impact on children. Chronic food 
insecurity impacts a child's ability to learn and their overall well-
being. The United Nations World Food Programme administers the majority 
of American emergency food aid.
    I was pleased to learn that earlier this year, WFP announced a 
partnership with an education nonprofit called Education Cannot Wait, 
to address this very issue. Through this partnership, the two 
organizations will work together to increase access to both quality 
education and quality nutrition for vulnerable children in emergency 
and crisis settings.
    Mr. Hicks, how is USAID and the Office of Food for Peace supporting 
innovative partnerships like this to better address the nexus of child 
nutrition and education in emergency contexts?
    Answer. In line with the USAID Multi-Sectoral Nutrition Strategy, 
the Office of Food for Peace (FFP) nutrition programming prioritizes 
the 1,000-day period from pregnancy to age 2, as well as children under 
5. These groups remain most vulnerable in emergencies, with children 
under 2 having a much higher risk of mortality than other population 
groups. In addition, USAID recognizes that good nutrition in the first 
1,000 days is critical to the cognitive development needed for 
successful educational outcomes.
    As outreach through traditional education does not reach the 
youngest children, FFP has supported a number of innovative 
partnerships with international NGOs, such as Save the Children, World 
Vision, and Catholic Relief Services, to assure that these groups are 
reached either through maternal and child health programs and/or Early 
Child Development (ECD) programs. For many years, USAID has utilized 
schools as an entry point for reaching displaced and/or refugee 
families in emergencies.
    FFP is currently exploring how ECD programs can be more explicitly 
incorporated into emergency response, and is reaching out to the U.S. 
Government (USG) Children in Adversity coordination group as well as to 
counterparts at the World Bank to look at best practices in supporting 
growth and development for this vulnerable age group even during 
emergencies. The transition to the new Bureau for Humanitarian 
Assistance will unlock additional opportunities for innovative, multi-
sectoral programming in emergencies.
Benefits of Both Commodity and Cash-Based Food Assistance
    Question 2. Since 2010, USAID has deployed both commodity and cash-
based assistance to address food security crises in developing nations.
    Mr. Hicks, can you speak to the value of having both of these tools 
available to fight global hunger?

    Question 2a. Additionally, if there is value in having a mixed 
toolkit of commodity and cash-based assistance, why does this 
Administration continue to eliminate funding for title II in their 
budget submission to Congress?

    Question 2b. How do these proposed title II cuts affect the way the 
Office of Food for Peace administers its programs?

    Question 2c. Without the threat of program elimination, would your 
office program funds differently?
    Answer 2-2c. Given the growing complexity and number of global 
humanitarian crises, flexibility to use both commodity and market-based 
assistance to address food security crises allows USAID to respond with 
the most appropriate tool to meet emergency needs around the world. 
Where markets are functioning, food vouchers or cash transfers for food 
can be quicker, highly effective, and more efficient, while bolstering 
local markets. Where markets are not functioning and providing cash may 
drive up local food prices, in-kind commodities may be more appropriate 
and can help stabilize markets. Flexibility is critical for USAID to be 
able to use the right tools, in the right place, at the right time, 
based on the conditions on the ground.
    The FY 2020 budget request consolidates the Food for Peace title II 
account, the International Disaster Assistance account (IDA), and 
overseas humanitarian assistance portion of the Migration and Refugee 
Assistance account (MRA) into a new International Humanitarian 
Assistance (IHA) account, from which food assistance will be provided. 
This request reflects USAID's transformation plans to merge the Office 
of Food for Peace and the Office of U.S. Foreign Disaster Assistance 
(OFDA) into the Bureau for Humanitarian Assistance (BHA), and optimize 
U.S. humanitarian assistance responses. The IHA account would provide 
maximum flexibility and allow for the most appropriate tool depending 
on the context, maintaining the flexibility to use both commodity and 
cash-based assistance to reach as many people in need as possible.
    USAID will continue to program all available resources to use the 
most appropriate modality to meet emergency food needs--including 
commodities from U.S. farmers. Humanitarian resources are programmed on 
a contingency basis to meet the most urgent needs around the world.

                                  <all>
</pre></body></html>
